<html>
<title> - METHAMPHETAMINE ABUSE</title>
<body><pre>[Senate Hearing 109-248]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-248
 
                         METHAMPHETAMINE ABUSE

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     APRIL 21, 2005--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
22-285                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            DANIEL K. INOUYE, Hawaii
LARRY CRAIG, Idaho                   HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          HERB KOHL, Wisconsin
TED STEVENS, Alaska                  PATTY MURRAY, Washington
MIKE DeWINE, Ohio                    MARY L. LANDRIEU, Louisiana
RICHARD C. SHELBY, Alabama           RICHARD J. DURBIN, Illinois
                                     ROBERT C. BYRD, West Virginia (Ex 
                                         officio)
                           Professional Staff
                            Bettilou Taylor
                              Jim Sourwine
                              Mark Laisch
                         Sudip Shrikant Parikh
                             Candice Rogers
                        Ellen Murray (Minority)
                         Erik Fatemi (Minority)
                      Adrienne Hallett (Minority)

                         Administrative Support
                              Rachel Jones


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Tom Harkin..........................     1
Opening statement of Senator Harry Reid..........................     2
    Prepared statement...........................................     3
Statement of Charles G. Curie, Administrator, Substance Abuse and 
  Mental Health Services Administration (SAMHSA), Department of 
  Health and Human Services......................................     4
    Prepared statement...........................................     6
Statement of Nora D. Volkow, M.D., Director, National Institute 
  on Drug Abuse, National Institutes of Health, Department of 
  Health and Human Services......................................    11
    Prepared statement...........................................    13
Statement of Vicki Sickels, Des Moines, Iowa.....................    18
Statement of Richard E. Steinberg, president and chief executive 
  officer, Westcare Foundation, Inc., and president, Therapeutic 
  Communities of America.........................................    21
    Prepared statement...........................................    23
Additional statements:
    Prepared statement of the Community Anti-Drug Coalitions of 
      America....................................................    42
    Prepared statement of the National Association of State 
      Alcohol and Drug abuse Directors, Inc......................    45
    Prepared statement of the Heartland Family Service, Inc......    51
    Prepared statement of the Legal Action Center................    54
    Prepared statement of the Therapeutic Communities of America.    58


                         METHAMPHETAMINE ABUSE

                              ----------                              


                        THURSDAY, APRIL 21, 2005

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
         Services, Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Tom Harkin presiding.
    Present: Senators Harkin and Reid.


                OPENING STATEMENT OF SENATOR TOM HARKIN


    Senator Harkin. The hearing of the Labor, Health and Human 
Services Appropriations Subcommittee will now come to order. 
Our topic this morning is methamphetamine abuse, but before I 
read my opening statement I first just want to again publicly 
thank the chairman of this subcommittee, Senator Arlen Specter 
of Pennsylvania, for the great working relationship that we 
have always had. As he has pointed out, this gavel has changed 
back and forth four or five times since we have been on the 
subcommittee, and it always has, to use his words, been a 
seamless transfer of the gavel.
    I think it is a mark of his great leadership that he allows 
me to chair a hearing here on methamphetamine or other things 
that I ask to chair hearings on. Likewise, when I was chairman 
I allowed him to have hearings, as I did for people when I 
chaired the Agriculture Committee. I think that is really the 
way the Senate ought to operate. These are nonpartisan issues 
that we are talking about here, and we are very busy people. 
Sometimes I have the interest in a certain area or the time to 
do something and then sometimes Senator Specter has the 
interest and the time and I do not. So this is a way in which 
we I think are better able to collect the kind of information 
and data that we need to make informed decisions.
    So I wanted to publicly again thank my chairman and my 
friend Senator Specter for allowing us to have this hearing.
    As I said, our topic this morning is methamphetamine abuse. 
I am sad to say this, but my home State has been hit 
particularly hard by this epidemic. Iowa ranks fourth among all 
States in the percentage of residents who are admitted to 
treatment centers because of meth. That is not a statistic that 
we are happy about.
    Fortunately, Iowa is responding. The State recently passed 
the toughest law in the Nation for limiting consumer access to 
pseudoephedrine, one of the key ingredients for making meth. 
Thanks to grants from SAMHSA, the Iowa Department of Public 
Health is pioneering innovative strategies for preventing and 
treating meth abuse. Des Moines is one of five sites 
participating in NIDA's methamphetamine clinical trials group, 
studying the use of medication and group therapy in meth 
treatment.
    But Iowa is not alone in struggling with meth abuse. There 
are 16 States that now have higher treatment admission rates 
for meth than for cocaine and heroin. Recently we have heard 
disturbing reports that meth is moving to big cities on the 
East Coast, where the drug has been linked to the spread of 
HIV.
    Certainly law enforcement has a critical role to play in 
curbing meth abuse. I strongly support efforts to crack down on 
the people who are making and selling this drug. But even if we 
shut down every home-based lab and threw every dealer into 
jail, we would still have a meth problem in this country. It 
will not go away until we do a better job of preventing people 
from using meth in the first place and giving addicts the 
treatment they need to kick the habit for good.
    That is where this hearing comes in. SAMHSA and NIDA, two 
agencies funded in our bill, are our most important Federal 
resources for preventing meth abuse. We have to make sure they 
get the appropriation levels they need to address the problem. 
Meth is destroying lives, filling our prisons, and taking 
mothers away from their children, and we need to stop this 
epidemic now.
    We are fortunate to have an outstanding panel of witnesses 
to discuss this issue with us this morning, and I will 
introduce them all shortly after I recognize our distinguished 
leader here. But I want to offer a special welcome to Vicki 
Sickels from Des Moines, who will give us a firsthand account 
of what it is like to struggle with an addiction to meth. So, 
Vicki, I want to publicly again thank you for taking time to 
come here today and tell your story. You are really what this 
hearing is all about.
    With that, I will turn to my good friend and our 
distinguished leader on our side, Senator Reid from Nevada.


                OPENING STATEMENT OF SENATOR HARRY REID


    Senator Reid. Senator Harkin, thank you. Thank you very 
much.
    There is so much ill will and partisanship in this body 
that I am obligated to say how fortunate we are to have two 
people work as closely together as you and Arlen Specter. I 
want everyone in this audience and on this panel to understand 
what a rare situation we have here. Senator Harkin is the 
ranking member. He is not the Chair of this subcommittee. But 
he and Senator Specter have been Chair and ranking member as 
the majority goes back and forth in this body and they consider 
each other equals. Here, in spite of all the partisanship in 
this body, Senator Harkin is conducting this hearing. I think 
it speaks so well of you and Senator Specter.
    Senator Harkin. Thank you.
    Senator Reid. I do appreciate your holding this hearing. I 
would ask that my full statement be made part of the record.
    Senator Harkin. Without objection.
    Senator Reid. I had the opportunity a month or so ago to 
meet with representatives from the Drug Enforcement 
Administration out of Los Angeles and from a 7 task force they 
have in Las Vegas that deals with drug interdiction. The whole 
purpose of this meeting was to talk about methamphetamines. The 
story was like a dime store novel, how manufacturers in Nevada 
have been driven south of the border into Mexico and the 
lengths they go to to bring the product to Nevada and 
throughout parts of this country. The same containers that are 
hidden in these vehicles that they bring the stuff to America 
in, they use to take back bundles of cash. They have them 
hidden in various places in the vehicles and loaded with money.
    We have a tremendous problem in Nevada--28.6 percent of the 
male arrestees in the city of Las Vegas have methamphetamines 
in their blood when tested, 28.6 percent of the men arrested. 
As you know, kids are now using methamphetamine too. About 12.5 
percent of high school students in Nevada, claim they have used 
methamphetamines. Those are the kids that admit it. Think how 
many do not.
    Southern Nevada has been designated a high-density drug 
traffic area since 2001. This administration is eliminating 
that program. Tom, it is just a shame, just a shame.
    The true war on drugs takes more than dedicated law 
enforcement, though. It takes parents and teachers, counselors 
working to teach kids that drugs like methamphetamine are 
killers. My staff briefed me about what it does to the brain. 
We are fortunate that we have a very good treatment facility in 
Nevada and I appreciate very much your allowing Mr. Steinberg 
to come and testify. WestCare does a great job.


                           PREPARED STATEMENT


    Methamphetamine is a threat to the health and safety of our 
families and communities, and I want to say, Tom, that I am 
going to study the testimony of Ms. Sickels, because she is the 
courageous one to come here and hold herself up, by some, to 
ridicule for having been so weak. But the fact of the matter is 
you are very strong or you would not be here, and I admire and 
appreciate your coming before the Congress to tell your story, 
because by telling your story other people will not have to go 
through the hell that you have been through.
    Senator Harkin, I hope you will excuse me.
    Senator Harkin. Thank you very much, Senator Reid. Thank 
you for gracing us with your presence. Your statement will be 
made a part of the record in its entirety.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    I want to thank Senator Harkin for scheduling this hearing and for 
his continued efforts on methamphetamine abuse. I also want to thank 
our distinguished guests for sharing their expertise about 
methamphetamine abuse and for their recommendations about how we can 
improve prevention and treatment efforts.
    Many Americans believe the war on drugs is something that is only 
taking place in our cities, on our boarders, and in the jungles of 
South America. The truth is methamphetamine abuse is everywhere, but 
its effects are felt particularly hard in largely rural states like 
Nevada and Iowa. It is made in clandestine labs in small town America 
or smuggled in from Mexico and Canada. It's readily available, cheap 
and is abused by people of all races, economic, and social backgrounds.
    According to the Nevada Department of Education, over 12.5 percent 
of Nevada's high school students have used methamphetamine. In 2004, 40 
percent of individuals admitted into treatment programs funded by the 
Nevada Bureau of Alcohol and Drug Abuse had used methamphetamine, and 
approximately 5,000 Nevadans received treatment for meth addiction. I 
have been told that the estimated number of meth users who have not 
received treatment may be eight times that amount--that's 40,000 
Nevadans!
    To tackle a problem of this size and voracity, we have to approach 
it from every angle--law enforcement, prevention and treatment. The 
President's budget for fiscal year 2006 cuts the High Intensity Drug 
Trafficking Area program (HIDTA) funding by 56 percent. This funding 
must not be cut. The HIDTAs work to reduce drug-trafficking and 
production in designated areas in the United States by facilitating 
cooperation among all levels of drug enforcement, and enhancing the 
intelligence sharing among these agencies. I have helped create task 
forces throughout the state of Nevada, and I also secured the funding 
for the creation of the Nevada HIDTA in 2001. I will fight to see this 
program is not eliminated.
    I will continue to fight so that law enforcement efforts can 
continue to shut down methamphetamine labs and prevent trafficking and 
dealing, but it is equally important to focus on prevention and 
treatment programs. The true war on drugs takes more than dedicated law 
enforcement; it takes parents and teachers and counselors working to 
teach kids that drugs like methamphetamine are killers.
    We also have to reach those who are already addicted to 
methamphetamine. This includes those in the prison system. If we don't 
treat people who are in jail for crimes associated with their 
addiction, then when they get out they are more likely to commit those 
same crimes again. Drug counseling and support prevents recidivism of 
drug related crimes.
    Addiction is not merely a matter of will. It is a medical problem 
that has all the properties of a disease. For that reason, we have to 
treat it the same way we treat the spread of a horrible disease--
through both prevention and treatment. To do this well, we need to 
understand how people become addicted, what research tells us about 
methamphetamine affect on the brain, what someone goes through when 
coming off the drug and how to integrate former addicts into society.
    I am so pleased that Dick Steinberg from the WestCare Foundation in 
Las Vegas is testifying before the Committee today. He is doing a 
wonderful job of reaching out to those who are addicted to 
methamphetamine. Under his tenure as President and CEO of WestCare, the 
company has grown from a small treatment center in Las Vegas, into one 
of the largest nonprofit substance abuse treatment organizations in the 
United States. I look forward to hearing more about their efforts in 
Nevada.
    Methamphetamine is a threat to the health and safety of our 
families and communities. I look forward to hearing from our witnesses 
about how we may best direct resources to address this problem--in 
Nevada, in Iowa, and across the Nation.

STATEMENT OF CHARLES G. CURIE, ADMINISTRATOR, SUBSTANCE 
            ABUSE AND MENTAL HEALTH SERVICES 
            ADMINISTRATION (SAMHSA), DEPARTMENT OF 
            HEALTH AND HUMAN SERVICES
    Senator Harkin. We will turn now to our witnesses. I will 
just go from my left to right. First will be Mr. Charlie Curie, 
the Administrator of the Substance Abuse and Mental Health 
Services Administration, which we call ``SAMHSA'' for short. 
That is the Federal agency responsible for improving the 
Nation's substance abuse prevention, addictions treatment, 
mental health services.
    Mr. Curie has over 25 years of professional experience in 
mental health and substance abuse service. Prior to his 
confirmation as SAMHSA Administrator, Mr. Curie was the Deputy 
Secretary for Mental Health and Substance Abuse Services for 
the Department of Public Welfare in Pennsylvania. A graduate of 
Huntington College, he holds a master's degree from the 
University of Chicago School of Social Service Administration.
    Mr. Curie, welcome. As I will say to all of you, your 
statements will be made a part of the record in their entirety. 
In the interest of time, if you could just sum up perhaps and 
make the major points of what you would like to say, I would 
sure appreciate it. Thank you, Mr. Curie.
    Mr. Curie. Thank you, Mr. Chairman, and I appreciate the 
opportunity to present information today and for you to hold 
this hearing so that we can look at approaches to stem the tide 
of methamphetamine abuse in America. It is also a privilege for 
me to be here today with my good friend and colleague Nora 
Volkow from NIDA. We work very closely together and I think the 
world of her. Also it is a pleasure to be with Dick Steinberg, 
who is, as has been indicated, an excellent provider. I have 
known him for many years. It was especially a privilege this 
morning to meet Vicki Sickels because, as Senator Reid 
indicated, I think she is the most important person sitting 
here with us this morning as an individual that shows treatment 
works and recovery is real.
    It is abundantly clear that many of our most pressing 
public health, public safety, and human services needs have a 
direct link to substance abuse. This obvious link is why this 
administration places such a great importance on increasing the 
Nation's public health approach to prevention and increasing 
the Nation's substance abuse treatment capacity.
    Over the past 4 years we have worked hard to align SAMHSA's 
resources to create systemic change in our approach to 
preventing substance abuse and treating addiction. Our everyday 
work at SAMHSA is structured around our vision of a life in the 
community for everyone and our mission of building resilience 
and facilitating recovery. In partnership with our other 
Federal agencies, States, and local communities, consumers, 
families, providers, and faith-based organizations, we are 
working to ensure that 22 million Americans with a serious 
substance abuse problem have the opportunity for recovery, to 
live, work, learn and enjoy healthy and productive lives.
    Under the leadership of President Bush and with the support 
of Secretary Mike Leavitt in Health and Human Services and the 
Office of National Drug Control Policy Director John Walters, 
we have embarked on a strategy that is working by focusing 
attention, energy, and resources as a Nation, and we have made 
some real progress.
    The most recent data confirms that we are steadily 
accomplishing the President's goal to reduce teen drug use 
overall by 25 percent in 5 years. Now at the 3-year mark, we 
have seen a 17 percent reduction and there are now 600,000 
fewer teens using drugs than there were in 2001. This is an 
indication that our partnerships and the work of prevention 
professionals, schools, parents, teachers, law enforcement, 
religious leaders, and local community anti-drug coalitions is 
paying off.
    We know when we push against the drug problem it recedes. 
Fortunately, we know more today about what works in prevention 
and treatment than ever before. We also know our work is far 
from over. In particular, we continue to be very concerned 
about methamphetamine abuse. It is an extremely serious 
problem. Its use and in part its popularity can be explained by 
the drug's availability, ease of production, low cost, and its 
highly addictive nature.
    Over the years we have initiated a number of grants, 
technical assistance and training activities at SAMHSA to 
specifically target the prevention and treatment of 
methamphetamine addiction. These are detailed in my written 
testimony. These past investments continue to inform our 
current strategy and have made significant contributions toward 
our current efforts.
    In particular, I want to bring your attention to our Access 
to Recovery Program and our Strategic Prevention Framework. 
Access to Recovery, proposed by President Bush, is a new 
consumer-driven approach for obtaining treatment and sustaining 
recovery through a State-run voucher program. State interest in 
Access to Recovery was overwhelming. 66 States, territories, 
and tribal organizations applied for the $100 million in grants 
in 2004. We funded 14 States and one tribal organization in 
August 2004. I might mention that Tennessee and Wyoming, two of 
the States, have a particular focus on methamphetamine.
    Because the need for treatment is great, as the 
demonstrated methamphetamine rates alone have demonstrated and 
as you shared, Senator, earlier, President Bush has proposed 
increasing funding for fiscal year 2006 Access to Recovery, for 
a total of $150 million. The use of vouchers coupled with State 
flexibility offers an unparalleled opportunity to assure 
treatment resources are being used to address current treatment 
needs. In other words, States that are seeing the increase in 
methamphetamine can gear their voucher program to address just 
that issue and be able to tailor their approach based on the 
needs in their State.
    At the same time, we are doing more to prevent drug use 
before it begins. To align and focus our prevention resources, 
SAMHSA awarded Strategic Prevention Framework grants to 19 
States and 2 territories to advance community-based programs 
for substance abuse prevention. These grantees are working 
systematically to implement a risk and protective factor 
approach to prevention in the community level.
    Whether we speak about abstinence or rejecting drugs, 
including methamphetamines, tobacco and alcohol, or promoting a 
healthy diet or a healthy lifestyle, we are really working 
toward the same objective. We want to reduce risk factors and 
promote protective factors. For the first time we have a real 
science-based approach to prevention at the community level.
    As a result, we are transitioning our drug-specific 
programs to a risk-protective approach. This approach again 
provides States and communities with flexibility to target 
their dollars in the areas of greatest need.

                           PREPARED STATEMENT

    In conclusion, we have been building systemic change so 
that no matter what drug trend emerges in the future, States 
and communities will be equipped to address it immediately and 
effectively before it reaches a crisis level.
    Mr. Chairman, thank you very much for the opportunity to 
appear today and I will be pleased to answer any questions you 
may have.
    [The statement follows:]

              Prepared Statement of Hon. Charles G. Curie

    Mr. Chairman and Members of the Subcommittee, I am Charles G. 
Curie, Administrator of the Substance Abuse and Mental Health Services 
Administration (SAMHSA), within the U.S. Department of Health and Human 
Services (HHS). I am pleased to present SAMHSA's substance abuse 
prevention and treatment response to the growing methamphetamine 
crisis. It is abundantly clear that many of our most pressing public 
health, public safety, and human services needs have a direct link to 
substance use disorders. This obvious link is why the Administration 
places such a great importance on increasing the Nation's public health 
approach to prevention and to increasing the Nation's substance abuse 
treatment capacity.
    SAMHSA is working to do just that. Our everyday work at SAMHSA is 
structured around our vision of ``a life in the community for 
everyone'' and our mission ``to build resilience and facilitate 
recovery.'' Our collaborative efforts with our Federal partners, States 
and local communities, and faith-based organizations, consumers, 
families, and providers are central to achieving both our vision and 
mission. Together, we are working to ensure that the 22.2 million 
Americans with a serious substance abuse problem have the opportunity 
to live, work, learn, and enjoy healthy lifestyles in communities 
across the country.
    Much of what the future holds for the prevention and treatment of 
substance abuse is illustrated on the SAMHSA Matrix, a visual depiction 
of SAMHSA's priority programs and the cross-cutting principles that 
guide program, policy, and resource allocations of the Agency. Over the 
past 4 years, we have worked hard to align SAMHSA's resources to create 
systemic change. As we said we would, we have invested our available 
resources in the program priority areas outlined in the Matrix to 
provide a comprehensive, tactical approach to preventing substance 
abuse, promoting mental health, and treating addiction and mental 
illness.
    Equipping communities with substance abuse treatment capacity is a 
clear priority for President Bush, HHS Secretary Leavitt, and Office of 
National Drug Control Policy (ONDCP) Director Walters. The 
Administration has embarked on a strategy that has two basic elements: 
discouraging drug use and reducing addiction; and disrupting the market 
for illegal drugs.
    The strategy is backed by a $12.4 billion Federal anti-drug budget 
in fiscal year 2006. SAMHSA has a lead role to play in the demand 
reduction side of the equation. SAMHSA helps stop drug use before it 
starts through education and community action, and we heal America's 
drug users by getting treatment resources where they are needed.
    I am pleased to report that our strategy is working. By focusing 
our attention, energy, and resources, we as a nation have made real 
progress. The most recent data from the 2004 Monitoring the Future 
Survey, funded by the National Institute on Drug Abuse (NIDA), confirms 
that we are steadily accomplishing the President's goal to reduce teen 
drug use by 25 percent in 5 years. The President set this goal with a 
2-year benchmark reduction of 10 percent. Last year we met and exceeded 
that goal. Now at the 3-year mark, we have seen a 17 percent reduction 
and there are now 600,000 fewer teens using drugs than there were in 
2001.
    Additionally, the most recent findings from SAMHSA's 2003 National 
Survey on Drug Use and Health clearly confirm that more American youth 
are getting the message that drugs are illegal, dangerous, and wrong. 
For example, 34.9 percent of youth in 2003 perceived that smoking 
marijuana once a month was a great risk, as opposed to 32.4 percent of 
youth in 2002. This is an indication that our partnerships and the work 
of prevention professionals, schools, parents, teachers, law 
enforcement, religious leaders, and local community anti-drug 
coalitions are paying off.
    We know that when we push against the drug problem, it recedes, and 
fortunately, today we know more about what works in prevention, 
education, and treatment than ever before. We also know our work is far 
from over. In particular, we continue to be very concerned about abuse 
of prescription drugs and methamphetamine. The use of methamphetamine 
continues its assault as an extremely serious and growing problem.

                   THE GROWTH OF METHAMPHETAMINE USE

    Methamphetamine use was initially identified in SAMHSA's Drug Abuse 
Warning Network (DAWN). DAWN is a public health surveillance system 
that monitors drug-related visits to hospital emergency departments and 
drug-related deaths that are investigated and reported by medical 
examiners and coroners across the country. In the early to mid 1990's, 
DAWN data served as an early warning about the rise of methamphetamine 
use.
    Almost immediately, this early alert from DAWN was confirmed 
through another SAMHSA data reporting and analysis system, the 
Treatment Episode Data Set (TEDS). TEDS provides information on the 
demographic and substance abuse characteristics of the 1.9 million 
annual admissions to facilities that receive State alcohol and/or drug 
agency funds (including Federal Block Grant funds) for the provision of 
alcohol and/or drug treatment services. As early as 1992, TEDS data had 
indicated that methamphetamine treatment admissions were accounting for 
about 1 percent of all admissions. Within a decade, methamphetamine 
admissions grew at a rapid rate. Our most current 2002 TEDS data 
indicates the proportion of admissions for abuse of methamphetamine has 
grown fivefold from 1992 to 2002, with an increase from 1 percent to 
5.5 percent. Of those admitted in 2002 for the treatment of 
methamphetamine use, three-quarters (74 percent) were white and half 
(55 percent) of the admissions were male, with an average age at 
admission of 31 years.
    Traditionally, methamphetamine users have been Caucasian, but use 
is now expanding to Hispanic and Asian populations, and Tribal leaders 
are reporting increased use of methamphetamines by Native Americans as 
well. Recent data from SAMHSA's 2002 and 2003 National Surveys on Drug 
Use and Health (NSDUH) indicates that a much younger population has 
grown vulnerable to methamphetamine's grip. The NSDUH now reports that 
young adults aged 18-25 had the highest rate of methamphetamine use 
among the 12 million Americans over the age of 12 who have used this 
illicit drug. Fortunately, the rates of past-year methamphetamine use 
among youths age 12-17 declined from 2002 to 2003, from 0.9 percent to 
0.7 percent.
    DAWN and TEDS data documented the proliferation of methamphetamine 
use over time, and a geographic pattern of methamphetamine use among 
the U.S. population emerged as well. Initially a problem in a few urban 
areas in the Southwest, methamphetamine use spread to several major 
Western cities and then east from the Pacific States into the Midwest, 
and now through the South and Southeast. For the United States as a 
whole, the methamphetamine/amphetamine admission rate increased by 420 
percent between 1992 and 2002. Once thought of as a metropolitan drug 
problem, methamphetamine, or ``meth,'' has now become a major drug 
problem in rural America and is the fastest-growing drug threat in the 
Nation.
    The alarming growth of methamphetamine use and, in part, its 
popularity can be explained by the drug's wide availability, ease of 
production, low cost, and its highly addictive nature. It is a popular 
drug because it is a synthetic drug that is easy to make. It is often 
produced in small, makeshift ``laboratories,'' using equipment and 
ingredients that are--for the most part--readily available at local 
drug, hardware, and farm supply stores. The instructions for making 
methamphetamines are easily found on the Internet, and the equipment 
needed is as simple as coffee filters, mason jars, and plastic soda or 
water bottles. Making it even more inexpensive and easy to produce is 
the essential ingredient, ephedrine or psuedoephedrine. As you know, 
these substances are commonly found in over-the-counter allergy and 
cold medicines. Producing an entire batch of methamphetamine can take 
less than four hours from start to finish, making it more readily 
available than other illicit drugs.
    Complicating the efforts to stop methamphetamine's growth is its 
highly addictive nature. Immediately, methamphetamine use produces a 
brief but intense ``rush,'' followed by a long-lasting sense of 
euphoria that is caused by the release of high levels of the 
neurotransmitter dopamine into areas of the brain that regulate 
feelings of pleasure. Eventually, methamphetamine leads to addiction by 
altering the brain and causing the user to seek out and use more 
methamphetamine in a compulsive manner. Chronic use leads to increased 
tolerance of the drug and damages the ability of the brain to produce 
and release dopamine. As a result, the user must take higher or more 
frequent doses in order to experience the pleasurable effects or even 
just to maintain feelings of normalcy.
    Treatment for methamphetamine use, and substance abuse as a whole, 
has become an increasingly interconnected process, and the unmet 
treatment need in this country has become a weight that is carried by 
many. For example, methamphetamine users and their families, in 
addition to drug treatment programs, often rely on emergency rooms, the 
primary health care system, the mental health care system, child and 
family services, and the criminal justice system, all of which see 
parts of the problem. Addressing substance abuse, like methamphetamine 
use, often requires collaboration among law enforcement officers, 
prosecutors, judges, probation officers, treatment providers, 
prevention specialists, child welfare workers, legislators, business 
people, educators, retailers, and a number of other individuals, 
agencies, and organizations who all have critical roles in the 
prevention and treatment process.

                       SAMHSA'S ROLE IN TREATMENT

    To help better serve people with substance use disorders, a true 
partnership has emerged between SAMHSA and the National Institutes of 
Health (NIH). Our common goal is to more rapidly deliver research-based 
practices to the communities that provide services. SAMHSA is 
partnering with the pertinent NIH research Institutes--NIDA, the 
National Institute on Alcohol Abuse and Alcoholism (NIAAA), and the 
National Institute of Mental Health (NIMH)--to advance a ``Science to 
Service'' cycle. Working both independently and collaboratively, we are 
committed to establishing pathways to rapidly move research findings 
into community-based practice and to reducing the gap between the 
initial development and widespread implementation of new and effective 
treatments and services.
    At the same time, we are working to ensure consumers and providers 
of mental health and substance abuse services are aware of the latest 
interventions and treatments. One important tool being used to 
accelerate the ``Science to Service'' agenda is SAMHSA's National 
Registry of Effective Programs and Practices (or NREPP). The value of 
the registry in the substance abuse prevention area has led SAMHSA to 
expand this effort to include substance abuse treatment, mental health 
services, and mental health promotion programs. The NIH Institutes are 
engaged with SAMHSA in identifying both an array of potential programs 
for review by the Registry, as well as a cadre of qualified scientists 
to assist in the actual program review process. We are committed to 
making the NREPP a leading national resource for contemporary, reliable 
information on effective interventions to prevent and/or treat mental 
health and addictive disorders.
    To specifically address the needs resulting from methamphetamine 
abuse, SAMHSA began working in 1999 to evaluate and expand on the 
Matrix Model (not related to SAMHSA's Matrix), which was developed in 
1986 by the Matrix Institute with support from NIDA as an outpatient 
treatment model that was responsive to the needs of stimulant-abusing 
patients. SAMHSA's Center for Substance Abuse Treatment compared the 
Matrix Model to other cognitive behavioral therapies in the largest 
clinical trial network study to date on treatments for methamphetamine 
dependence. The result was the development and release of a scientific 
intensive outpatient curriculum for the treatment of methamphetamine 
addiction that maximizes recovery-based outcomes.
    SAMHSA also created and released ``TIP #33: Treatment for Stimulant 
Use Disorders.'' Treatment Improvement Protocols (TIPs) are best 
practice guidelines for the treatment of substance use disorders and 
are part of the Substance Abuse Prevention and Treatment Block Grant 
technical assistance program. TIPs draw on the experience and knowledge 
of clinicians, researchers, and administrative experts. They are 
distributed to a growing number of facilities and individuals across 
the country. TIP #33 describes basic knowledge about the nature and 
treatment of stimulant use disorders. More specifically, it reviews 
what is currently known about treating the medical, psychiatric, and 
substance abuse/dependence problems associated with the use of two 
high-profile stimulants: cocaine and methamphetamine. SAMHSA has also 
published a Quick Guide for Clinicians as well as Knowledge Application 
Program (KAP) Keys that are also based on TIP #33.
    Education and dissemination of knowledge are key to combating 
methamphetamine use. SAMHSA's Addiction Technology Transfer Centers 
(ATTCs) are providing training, workshops, and conferences to the field 
regarding methamphetamine. The Pacific Southwest ATTC has developed two 
digital Training Modules on Methamphetamine. Additionally, SAMHSA has 
collaborated with ONDCP, the National Guard Bureau's Counter Drug 
Office, NIDA, and the Community Anti-Drug Coalitions of America (CADCA) 
on a booklet, video tape, and PowerPoint presentation entitled, ``Meth: 
What's Cooking in Your Neighborhood?'' This package of products 
provides useful information on what methamphetamine is, what it does, 
why it seems appealing, and what the dangers of its use are.
    Additionally, SAMHSA has been working in partnership with the Drug 
Enforcement Administration to provide funding to support a series of 
Governors' Summits on Methamphetamine. These summits provide 
communities with opportunities for strategic planning and collaboration 
building to combat methamphetamine problems faced in their own 
communities. Summits have been held in 15 States, including West 
Virginia, which will hold its Summit later this week.
    SAMHSA also supports and maintains State substance abuse treatment 
systems through the Substance Abuse Prevention and Treatment Block 
Grant. Block Grant funds are used by States as appropriate to address 
methamphetamine abuse and all other substance abuse treatment needs. 
Throughout fiscal year 2004 and 2005, SAMHSA also awarded $10.8 million 
in competitive grants for projects related to treatment for individuals 
using and/or abusing methamphetamine. Among them were the 
Methamphetamine Targeted Capacity Expansion (TCE) Grants. Our TCE grant 
program continues to help States identify and address new and emerging 
trends in substance abuse treatment needs. In fiscal year 2004, SAMHSA 
awarded funds to programs in four targeted areas including treatment 
focused on methamphetamine and other emerging drugs. Grants were 
awarded to six organizations located in California, Texas, Oregon, and 
Washington. In fiscal year 2005, SAMHSA expects to award approximately 
$5.3 million for up to 11 new TCE grants focusing on treatment for 
methamphetamine addiction.
    SAMHSA is working hard through grant mechanisms like the TCE grants 
to better provide States with the flexibility to begin meeting 
treatment needs as soon as trends emerge. For example, in fiscal year 
2004, SAMHSA provided funding to the States of Iowa and Hawaii for 
urgent methamphetamine-related treatment needs. Iowa also received 
funds to address the issue of drug-endangered children who are at risk 
as a result of living in homes where methamphetamine is manufactured. 
At the time the Emergency Methamphetamine Treatment Grant was awarded 
to Hawaii, SAMHSA's TEDS data was indicating a near doubling of adult 
admissions due to methamphetamine use there.
    Hawaii and Iowa are just a few examples of States whose citizens 
are in need of substance abuse treatment services. As you know, there 
is a vast unmet treatment need in America, and too many Americans who 
seek help for their substance abuse problem cannot find it. Our 
recently released NDSUH for 2003 revealed an estimated 22 million 
Americans who were struggling with a serious drug or alcohol problem. 
The survey contains another remarkable finding. The overwhelming 
majority of people with substance use problems who need treatment--
almost 95 percent--do not recognize their problem. Of those who 
recognize their problem, 273,000 reported that they made an effort but 
were unable to get treatment.
    To help meet that need, SAMHSA will continue to fund services 
through the Substance Abuse Prevention and Treatment Block Grant and 
through the TCE Grant Program. And, now, within TCE we have Access to 
Recovery (ATR). Access to Recovery provides us a third complementary 
grant mechanism to expand clinical substance abuse treatment and 
recovery support service options.
    In his 2003 State of the Union Address, President Bush resolved to 
help people with a drug problem who sought treatment but could not find 
it. He proposed ATR, a new consumer-driven approach for obtaining 
treatment and sustaining recovery through a State-run voucher program. 
State interest in Access to Recovery was overwhelming. Sixty-six 
States, territories, and Tribal organizations applied for $99 million 
in grants in fiscal year 2004. We funded grants to 14 States and one 
Tribal organization in August 2004. Because the need for treatment is 
great--as methamphetamine abuse rates alone have demonstrated--
President Bush has proposed to increase funding for ATR to $150 million 
in fiscal year 2006.
    Of the States that are now implementing ATR, Tennessee and Wyoming 
have a particular focus on methamphetamine. The State of Tennessee will 
use ATR-funded vouchers to expand treatment services and recovery 
support services in the Appalachians and other rural areas of Tennessee 
for individuals who abuse or are addicted primarily to methamphetamine. 
This program also will reach out to community and faith-based 
organizations to collaborate in this critical effort at a time when 
Tennessee has emerged as having one of the largest clusters of 
clandestine methamphetamine laboratories in the country. In these 
clandestine laboratories, the production of methamphetamine, which can 
be an extremely dangerous process, often leads to fires and explosions. 
Tennessee now accounts for three-quarters of such explosions in the 
South. Along with Tennessee, the Wyoming ATR program is also addressing 
the methamphetamine problem, focusing its efforts on Natrona County. 
This county has the second-highest treatment need in the State and is 
considered to be at the center of the current methamphetamine epidemic 
in Wyoming.
    Wyoming and Tennessee are just two examples of ATR's potential. 
ATR's use of vouchers, coupled with State flexibility and executive 
discretion, offer an unparalleled opportunity to create profound 
positive change in substance abuse treatment financing and service 
delivery across the Nation. And, although it is reassuring to focus on 
treatment initiatives and the progress being made, we can and must do 
more to prevent drug use before it begins.

                      SAMHSA'S ROLE IN PREVENTION

    SAMHSA's earlier efforts in preventing methamphetamine abuse were 
channeled through its Center for Substance Abuse Prevention's (CSAP) 
Methamphetamine and Inhalant Prevention Initiative. This initiative 
funded grantees that were battling methamphetamine's growth in 
communities across the country. For example, in Oregon, health 
officials were reporting an increase in the number of youth who were 
seeking treatment for addiction to methamphetamine. In 2002, the 
``Oregon Partnership Methamphetamine Awareness Project'' was awarded a 
SAMHSA grant that targets 9th and 10th grade students over a 3-year 
period to prevent substance abuse among young people in school and 
community settings in rural Oregon. CSAP's Methamphetamine and Inhalant 
Prevention Initiative was designed to conduct targeted capacity 
expansion of methamphetamine and inhalant prevention programs and/or 
infrastructure development at both State and community levels.
    To more effectively and efficiently align and focus our prevention 
resources, SAMHSA launched the Strategic Prevention Framework last 
year. SAMHSA awarded Strategic Prevention Framework grants to 19 States 
and 2 territories to advance community-based programs for substance 
abuse prevention, mental health promotion, and mental illness 
prevention. We expect to continue these grants and fund seven new 
grants in fiscal year 2006 for a total of $93 million. These grants are 
working with our Centers for the Application of Prevention Technology 
to systematically implement a risk and protective factor approach to 
prevention across the Nation. Whether we speak about abstinence or 
rejecting drugs, tobacco, and alcohol; or whether we are promoting 
exercise and a healthy diet, preventing violence, or promoting mental 
health, we really are all working towards the same objective--reducing 
risk factors and promoting protective factors.
    The success of the framework rests in large part on the tremendous 
work that comes from grass-roots community anti-drug coalitions. That 
is why we are so pleased to be working with the ONDCP to administer the 
Drug-Free Communities Program. This program supports approximately 775 
community coalitions across the country. Consistent with the Strategic 
Prevention Framework and the Drug Free Communities grant programs, we 
are transitioning our drug-specific programs to a risk and protective 
factor approach to prevention. This approach also provides States and 
communities with the flexibility to target their dollars in the areas 
of greatest need.
    In conclusion, if we continue to foster these initiatives and 
further our goals of expanding substance abuse treatment capacity and 
recovery support services and of implementing the strategic prevention 
framework, we will simultaneously better serve people in the criminal 
and juvenile justice systems, those with or at risk of HIV/AIDS and 
hepatitis, our homeless, our older adults, and our children and 
families. We are doing our part at SAMHSA. We have been building 
systemic change so that no matter what drug trend emerges in the 
future; States and communities will be equipped to address it 
immediately and effectively before it reaches a crisis level.
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear today. I will be pleased to answer any questions 
you may have.

    Senator Harkin. Thank you very much, Mr. Curie, for that 
very succinct and straightforward statement. I appreciate it 
very much.

STATEMENT OF NORA D. VOLKOW, M.D., DIRECTOR, NATIONAL 
            INSTITUTE ON DRUG ABUSE, NATIONAL 
            INSTITUTES OF HEALTH, DEPARTMENT OF HEALTH 
            AND HUMAN SERVICES
    Senator Harkin. Now we will turn to Dr. Nora Volkow, the 
Director of the National Institute on Drug Abuse or, as we say, 
NIDA. Before assuming this position 2 years ago, Dr. Volkow was 
Associate Director for Life Sciences at Brookhaven National 
Laboratory. Dr. Volkow received her M.D. in 1981 from the 
National University of Mexico in Mexico City and performed her 
residency in psychiatry at New York University. Dr. Volkow is 
an expert on the effects of drug abuse in the human brain and 
was the first person to use imaging to investigate the 
neurochemical changes that occur during drug addiction.
    Dr. Volkow, welcome. Again, if you could summarize your 
statement I would sure appreciate it. Thank you.
    Dr. Volkow. Mr. Chairman, thanks very much for giving me 
the privilege to be here with my colleagues to discuss how the 
knowledge gained from drug abuse research can help address the 
problems our Nation is facing from methamphetamine abuse. 
Methamphetamine is a very dangerous drug. Not only is it highly 
addictive, but it is also very toxic. Methamphetamine is a 
long-acting and very potent stimulant drug. It can be snorted, 
swallowed, injected, or smoked, and it is frequently taken in 
combination with other drugs.
    Particularly dangerous is when the drug is injected or 
smoked since this leads to very fast and high concentrations of 
the drug in brain, increasing both its addictive as well as its 
toxic properties. Unfortunately, we have seen a shift from the 
use of methamphetamine by the oral route in favor of smoking 
and injection.
    Methamphetamine predominantly affects the cells in the 
brain that produce dopamine, a brain chemical that is important 
for reward, motivation, cognition, and movement. Like other 
drugs of abuse, it produces a sense of euphoria by increasing 
the release of dopamine in brain reward centers. In fact, 
methamphetamine is the drug of abuse that produces the largest 
increases in dopamine, three times greater than for cocaine, 
which accounts for its highly addictive properties.
    Methamphetamine addiction progresses rapidly and the 
estimated time from initial abuse to chronic use is 1 to 2 
years, much faster than it is for cocaine, which is estimated 
to be 3 years.
    When dopamine is liberated in such high concentrations, it 
can damage the dopamine cells themselves. Indeed, several 
studies in laboratory animals have corroborated damage of 
dopamine cells by methamphetamine. In humans, imaging studies 
have shown that methamphetamine abusers show abnormalities in 
dopamine cells that are similar, though to a lesser severity, 
to those seen in Parkinson's patients.
    The loss of dopamine cells that occurs with Parkinson's 
disease results in marked impairments in movement and in 
disruption in cognitive function. Similarly, the damage of 
dopamine cells in methamphetamine abusers also results in motor 
as well as cognitive impairment, albeit of a lesser degree.
    The good news is that, different from Parkinson's disease, 
where the damage cannot be reverted, with protracted 
detoxification from methamphetamine there is some degree of 
recovery. This further highlights the importance of instituting 
treatment in methamphetamine abusers to maximize their chances 
of a successful recovery.
    There are other toxic effects of methamphetamine. The large 
increases in dopamine produced by methamphetamine can trigger 
psychoses that in some instances persist months after drug 
discontinuation. Also, because methamphetamine affects the 
contractions of blood vessels it can result in myocardial 
infarcts, it can result in cerebral strokes, it can result in 
cerebral hemorrhages in young patients.
    In addition to its effects on the brain, methamphetamine 
intoxication is inextricably linked to risky sexual behaviors, 
thus increasing the risk for transmissions of infectious 
diseases, such as HIV. The recent case of a methamphetamine 
abuser with a particularly virulent strain of HIV is a sobering 
reminder of this connection.
    Those who inject the drug risk contracting HIV through the 
sharing of contaminated equipment and methamphetamine's 
physiological effects may also facilitate the transmission. 
Preliminary studies suggest that HIV-positive methamphetamine 
abusers who are on antiretroviral therapy are at a greater risk 
of progressing to AIDS than non-users.
    Methamphetamine addiction can be treated successfully. The 
Matrix model initially developed through NIDA-supported 
research has been shown to prevent relapse. Other behavioral 
treatments are being developed and tested through NIDA's 
National Drug Abuse Clinical Trial Network and also show 
promise for the treatment of methamphetamine addiction.
    NIDA is also investing in the development of new 
medications for methamphetamine addiction. For example, a 
preliminary study of an anti-epileptic medication, gamma-vinyl/
GABA, shows that half of the treated patients remained drug-
free at least for 6 weeks, even when living in an environment 
that allowed them ready and easy access to the drug. NIDA's 
methamphetamine clinical trial group is also testing modafinil, 
a medication used to treat narcolepsy which has been shown to 
be effective in cocaine addiction.
    In parallel, NIDA is pursuing the development of an 
immunization strategy based on monoclonal antibodies for the 
treatment of overdose with methamphetamine.

                           PREPARED STATEMENT

    In summary, NIDA has long recognized the danger of 
methamphetamine abuse and has actively supported research on 
these and related drugs. This research continues to help us 
further elucidate methamphetamine's effects on the brain and 
its consequences on behavior. This work is critical both in 
developing prevention strategies to control its abuse and on 
therapeutic interventions to treat those who need it.
    Thank you for allowing me to share this information with 
you and I will be happy to answer any questions you may have.
    [The statement follows:]

                Prepared Statement of Dr. Nora D. Volkow

    Mr. Chairman and Members of the Committee: Thank you for inviting 
the National Institute on Drug Abuse (NIDA), a component of the 
National Institutes of Health (NIH), an agency of the U.S. Department 
of Health and Human Services, to participate in this important hearing. 
As the world's largest supporter of biomedical research on drug abuse 
and addiction, we have learned much about the behavioral and health 
effects of methamphetamine (METH). I am pleased to be here today to 
present an overview of what the science has taught us about METH, a 
stimulant drug that can have devastating medical, psychiatric, and 
social consequences. NIDA has been conducting basic research on METH 
for more than 20 years; however, as its use has increased, NIDA's 
research efforts have also increased. In fact, NIDA funding of METH-
related research increased almost 150 percent from 2000-2004, through 
which NIDA has been tracking its use and supporting multifaceted 
research aimed at better understanding how the drug affects the brain, 
its consequences for the brain and behavior, as well as developing 
effective treatments for METH addiction.
    According to NIDA's Monitoring the Future Survey, we are seeing 
significant decreases in METH use among eighth graders; however, the 
use among 10th and 12th graders appears to have stabilized (Figure 1). 
Of greater concern are findings from NIDA's Community Epidemiology Work 
Group (CEWG), which monitors drug abuse problems in sentinel areas 
across the Nation and is alerting us to increases in some CEWG areas 
and continued spread into rural communities. Moreover, according to the 
Treatment Episode Data Set from the Substance Abuse and Mental Health 
Services Administration (SAMHSA), the number of people seeking 
treatment for METH/amphetamine abuse has also steadily increased from 
1996-2002.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Methamphetamine is a Schedule II stimulant, which means it has a 
high potential for abuse and is available only through a prescription. 
There are only a few accepted medical indications for its use, such as 
the treatment of narcolepsy and attention deficit hyperactivity 
disorder. As a powerful stimulant, methamphetamine, even in small 
doses, can increase wakefulness and physical activity and decrease 
appetite. METH comes in many forms and can be snorted, swallowed, 
injected, or smoked, the preferred method of use varying by 
geographical region and changing over time. Faster routes of 
administration, such as smoking and injecting, have become more common 
in recent years, further increasing its addiction potential as well as 
the severity of its consequences.
    METH acts by affecting many brain structures but predominantly 
those that contain dopamine, due to similarities in the chemical 
structures of METH and dopamine. METH produces a sense of euphoria by 
increasing the release of dopamine. In fact, amphetamines are the most 
potent of the stimulant drugs in that they cause the greatest release 
of dopamine, more than three times that of cocaine. This extra sense of 
pleasure is followed by a ``crash'' that often leads to increased use 
of the drug and eventually to difficulty in feeling any pleasure.
    Long-term methamphetamine abuse can result in many damaging 
consequences, including addiction. We know from research that addiction 
is a chronic, relapsing disease, characterized by compulsive drug 
seeking and use, which is accompanied by functional and molecular 
changes in the brain. In addition to being addicted to methamphetamine, 
chronic methamphetamine abusers exhibit symptoms that can include 
violent behavior, anxiety, depression, confusion, and insomnia. They 
also can display a number of psychotic features, including paranoia, 
auditory hallucinations, and delusions.
    NIDA-supported research has also shown that METH can cause a 
variety of cardiovascular problems, including rapid heart rate, 
irregular heartbeat, increased blood pressure, and irreversible, 
stroke-producing damage to small blood vessels in the brain. 
Hyperthermia (elevated body temperature) and convulsions occur with 
METH overdoses and, if not treated immediately, can result in death.

               WHAT DOES METHAMPHETAMINE DO TO THE BRAIN?

    In animals, methamphetamine has been shown to damage nerve 
terminals in the dopamine- and serotonin-containing regions of the 
brain. Similarly, studies of methamphetamine abusers have demonstrated 
significant alterations in the activity of the dopamine system that are 
associated with reduced motor speed and impaired verbal learning 
(Figure 2). One small study also correlated changes in a marker of 
dopamine function with the duration of METH use and the severity of 
psychiatric symptoms. Moreover, recent studies of chronic METH abusers 
have revealed severe structural and functional deficits in areas of the 
brain associated with emotion, specifically depression and anxiety, as 
well as memory.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Although METH can produce long-lasting decreases in dopamine 
function, which appear to mimic the loss of dopamine seen in diseases 
like Parkinson's disease, autopsy studies show that the motor regions 
most affected in Parkinson's disease are not as severely affected in 
METH abusers. However, the possibility exists that moderate METH-
induced effects during early life could make an individual more 
susceptible to Parkinsonism later in life. In contrast, METH-induced 
deficits in cognitive regions can be as severe as those in Parkinson's 
disease patients. The observed damage in Parkinson's disease is 
permanent due to considerable dopamine cell death. Dopamine cell death 
has not been documented in methamphetamine abusers, which could explain 
why with extended abstinence, there is some recovery from METH-induced 
changes in dopamine function (Figure 3).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A recent neuroimaging study of METH abusers showed partial recovery 
of brain function in some brain regions following protracted 
abstinence, associated with improved performance on motor and verbal 
memory tests. However, function in other regions did not display 
recovery even after two years of abstinence, indicating that some 
methamphetamine-induced changes are very long-lasting. Moreover, the 
increase in risk of cerebrovascular accidents from the abuse of 
methampehtamine can lead to irreversible damage to the brain.

                         DEVELOPMENTAL EXPOSURE

    In addition to its known effects in adults, NIDA is very concerned 
about the effects of METH on the development of children exposed to the 
drug prenatally. Unfortunately, our knowledge in this area is limited. 
The few human studies that exist have shown increased rates of 
premature delivery; placental abruption; fetal growth retardation; and 
cardiac and brain abnormalities. For example, a recent NIDA-funded 
study showed that prenatal exposure to methamphetamine resulted in 
smaller subcortical brain volumes, which were associated with poorer 
performance on tests of attention and memory conducted at about 7 years 
of age. However, most of these human studies are confounded by 
methodological problems, such as small sample size and maternal use of 
other drugs. For this reason, NIDA recently launched the first large-
scale study of the developmental consequences of prenatal METH 
exposure, which includes seven hospitals in Iowa, Oklahoma, California, 
and Hawaii, states where METH use is prevalent. This study will 
evaluate developmental outcomes such as cognition, social 
relationships, motor skills and medical status.
    Our knowledge about the effects of METH use later in development is 
also incomplete. Despite the stable low levels of METH use for 10th and 
12th graders, we are concerned with any use of METH in this age group. 
Because the brain continues to develop well into adolescence and even 
early adulthood, exposure to drugs of abuse during this time may have a 
significant impact on brain development and later behavior. Additional 
research will help us understand the effects of METH use during 
childhood and adolescence and whether these effects persist into 
adulthood.

                        METHAMPHETAMINE AND HIV

    Drug abuse remains one of the primary vectors for human 
immunodeficiency virus (HIV) transmission. The recent case of an HIV-
infected METH abuser in New York City with a particularly virulent 
strain of HIV is a sobering reminder of the link between drug abuse and 
HIV. Methamphetamine is inextricably linked with HIV, hepatitis C, and 
other sexually transmitted diseases. METH use increases the risk of 
contracting HIV not only due to the use of contaminated equipment, but 
also due to increased risky sexual behaviors as well as physiological 
changes that may favor HIV transmission.
    Preliminary studies also suggest that METH may affect HIV disease 
progression. For example, animal studies suggest that METH use may 
result in a more rapid and increased brain HIV viral load. Moreover, in 
a study of HIV-positive individuals being treated with highly active 
anti-retroviral therapy (HAART), current METH users had higher plasma 
viral loads than those who were not currently using METH, suggesting 
that HIV-positive METH users on HAART therapy may be at greater risk of 
developing acquired immune deficiency syndrome (AIDS). These 
differences could be due to poor medication adherence or to 
interactions between METH and HIV medications. Similarly, preliminary 
studies suggest that interactions between METH and HIV itself may lead 
to more severe consequences for METH abusing, HIV-positive patients, 
including greater neuronal damage and neuropsychological impairment. 
More research is needed to better understand these interactions.
    To address these issues, NIDA recently invited applications for 
administrative supplements to current grants to support studies on HIV 
in METH abusers. While there have been many studies on METH and both 
injection and risky sexual behavior, there is very little information 
on METH and HIV disease progression or on the prevalence of drug-
resistant virus in METH abusers. Therefore, NIDA is planning to 
establish a targeted surveillance initiative to monitor the development 
of drug-resistant HIV in METH abusers.

                        WHAT ELSE IS NIDA DOING?

    NIDA continues to support a comprehensive research portfolio on 
methamphetamine's mechanism of action, physical and behavioral effects, 
risk and protective factors, treatments, and potential predictors of 
treatment success. For example, recent studies have identified genetic 
variants that may be associated with an individual's response to 
various drugs of abuse. One such NIDA-funded study demonstrated that 
individuals with a particular variant of the dopamine transporter gene 
were less able to feel the effects of amphetamine, suggesting that 
people with this genotype may be protected from dependence because of a 
lack of reactivity to the drug. Understanding genetic risk and 
protective factors may aid in the development of targeted prevention 
efforts. At the other end of the spectrum, NIDA-supported research is 
also seeking to identify markers to predict which METH-dependent 
patients may be more likely to relapse to drug use following treatment. 
For example, a recent study noted that decreased brain activation 
during a decision-making task correctly predicted which patients would 
relapse to METH use. These findings may provide an approach for 
assessing susceptibility to relapse early during treatment as well as 
lead to new treatment approaches that are targeted towards 
rehabilitating these deficits, thereby increasing a patient's chance 
for long-term sobriety.
    NIDA's efforts over the years to understand the basic science 
underlying METH's actions are now paying off in the development of 
treatments for METH addiction. In early 2000, NIDA convened a group of 
experts to provide guidance on the establishment and research focus of 
NIDA's methamphetamine treatment program. In response to one of their 
recommendations, NIDA launched a methamphetamine medications 
development initiative to use animal models to identify, evaluate, and 
recommend potential treatments to reduce or eliminate drug-seeking 
behaviors and drug effects, such as reversing neurotoxicity and 
cognitive impairment.
    To further speed medication development efforts, NIDA has also 
established the Methamphetamine Clinical Trials Group (MCTG) to conduct 
clinical (human) trials of medications for METH in geographic areas in 
which METH abuse is particularly high, including San Diego, Kansas 
City, Des Moines, Costa Mesa, San Antonio, Los Angeles, and Honolulu. 
For example, modafinil, a medication for the treatment of narcolepsy, 
which has shown preliminary efficacy in cocaine treatment and may have 
positive effects on executive function and impulsivity, will be tested 
in the MCTG for its potential in the treatment of METH addiction. Other 
NIDA-supported studies are also developing promising medications. For 
example, a preliminary study of an anti-epileptic medication, gamma-
vinyl GABA (GVG), showed that half of the GVG-treated patients remained 
drug free for approximately six weeks despite living in their normal 
home environment with ready access to drugs. To treat METH overdose, 
NIDA is pursuing the development of monoclonal antibodies to METH, 
which bind to the drug in the bloodstream thereby preventing its 
action.
    In addition to pharmacological treatments, NIDA is invested in the 
development and testing of behavioral treatments. Studies have now 
shown that a treatment program known as the Matrix Model can be used 
successfully for the treatment of METH addiction. The Matrix Model was 
initially developed in the 1980s for treating cocaine addiction. It 
consists of a 16-week program that includes group and individual 
therapy and components that address relapse and how to prevent it, 
behavioral changes needed to remain off drugs, communication among 
family members, establishment of new environments unrelated to drugs, 
and other relevant topics. When applied to METH abusers, the Matrix 
Model has been shown to result in a high proportion of METH-free urine 
samples at program completion and 6-month follow-up.
    Another behavioral treatment, Motivational Incentives for Enhancing 
Drug Abuse Recovery (MIEDAR), an incentive-based method for cocaine and 
METH abstinence, has recently been tested through NIDA's National Drug 
Abuse Clinical Trials Network and also shows promise for the treatment 
of METH addiction. MIEDAR is currently being developed for 
dissemination to community treatment providers through NIDA's 
collaborative Blending Initiative with SAMHSA.
    Because no single behavioral treatment will be effective for 
everyone, research into behavioral approaches for treating METH 
addiction is ongoing. In 2005, NIDA solicited additional research 
applications on the development, refinement, and testing of behavioral 
and combined behavioral and pharmacological (and/or complementary/
alternative) treatments for METH abuse and dependence. We expect that, 
as with other types of addiction, combining pharmacotherapies with 
behavioral therapies will be the most effective way to treat METH 
addiction.
    Because of the prevalence of drug abuse among the criminal justice 
population, NIDA, in collaboration with NIH's National Institute on 
Alcohol Abuse and Alcoholism, SAMHSA, and other federal agencies, 
established the Criminal Justice Drug Abuse Treatment Research Studies 
(CJ-DATS), a major research initiative, bringing together researchers, 
criminal justice professionals, and addiction treatment providers, to 
develop new strategies to help drug abusing offenders. As part of our 
efforts to combat METH addiction, CJ-DATS is collecting self-report and 
biological data on methamphetamine use and investigating the 
effectiveness of treatments in criminal justice settings for those who 
abuse methamphetamine. Within CJ-DATS we are also supporting two 
research protocols testing comprehensive treatment approaches for 
juvenile offenders, including those who abuse METH.

                               CONCLUSION

    In closing, I would like to say that as someone who has spent 
almost 25 years studying the effects of psychostimulants on the brain, 
I am particularly concerned about the methamphetamine problem in this 
country both because of its powerful addictive potential and because of 
its high toxicity. One of NIDA's most important goals is to translate 
what scientists learn from research to help the public better 
understand drug abuse and addiction and to develop more effective 
strategies for their prevention and treatment. NIDA has long supported 
research on methamphetamine, which is now paying off in the development 
of effective treatments, and it is critical that these treatments 
become more readily available to those who need them.
    Thank you for allowing me to share this information with you. I 
will be happy to answer any questions you may have.

    Senator Harkin. Thank you very much, Dr. Volkow, and I will 
have some questions about your charts, maybe flesh that out a 
little bit more, when we get into the questions and answers.

STATEMENT OF VICKI SICKELS, DES MOINES, IOWA
    Senator Harkin. Now I would like to introduce Ms. Vicki 
Sickels. Ms. Sickels was born in Sioux City, Iowa, raised in 
Creston, she told me. She received a bachelor's degree in 
expressive arts from the University of Iowa in 1982. I am told 
she became addicted to meth in 1988, finally gained lasting 
recovery a decade later after receiving long-term residential 
treatment.
    She then became certified as a substance abuse counselor 
and obtained her master social worker degree from the 
University of Iowa. She is currently employed as the chemical 
dependency counselor for a methamphetamine research program at 
Iowa Lutheran Hospital in Des Moines and does prevention work 
for the AIDS Project of Central Iowa.
    Ms. Sickels, again thank you very much for being here. 
Again, please proceed as you so desire.
    Ms. Sickels. Thank you, Senator Harkin. It is an honor to 
be here and I would like to thank other people at the table and 
in the room for the work that they do on substance abuse.
    I would like to stress the fact that I came from a middle 
class family. My father was a civil engineer. My mother was a 
stay-at-home mom. There was not substance abuse or physical 
abuse of any kind in my household. I had a pony and piano 
lessons and I was an honor student and sent to college at the 
University of Iowa.
    As a teenager and a college student, I experimented and I 
was a binge-drinking college student and would try really 
anything that came across my plate. But I was able to walk away 
from those things and I was able to continue with my life and 
graduate from college. It was nothing that really yanked the 
rug out from underneath me the way that methamphetamine did.
    When I discovered methamphetamine or it was introduced to 
me in 1988, I had never heard of it. I did not know what it 
was. I thought it was what a person did if they could not find 
any cocaine. It was really love at first dose for me. The first 
time I did it, I had been drinking and then I woke up just a 
couple hours after I went to bed or passed out or whatever that 
was, but I woke up and just was driven to get my journal and 
write.
    I am a writer and I was writing poetry and really prolific 
and thought, wow, this is something. It is one of those drugs 
that make you feel like you can do anything, you can do several 
things at once, you can make it all work for a while. Then at 
some point you become so disorganized, really what happens is 
you lose your mind and you lose just about everything.
    It got to the point where meth was all I was doing after 
just a few months of doing it. At that time I left the town 
that I was in, where everyone I knew was doing it, and managed 
to stay clean for a year or so while I had my child. But unlike 
other drugs, where I went away and continued with my life, it 
sort of comes up wherever you go. I moved from Red Oak to Iowa 
City and it came up again in Iowa City. Then I left there and 
went to Creston and there it was again.
    So the first time I went to treatment was in 1993 and my 
family noticed that I was not taking very good care of my 3 
year old son. They could tell that he was being neglected. So 
they encouraged me to do something about my addiction or they 
were going to do something for me. So I went into treatment in 
Des Moines. I went to a 28-day inpatient treatment, and they 
suggested that I went to a halfway house, but I had things to 
do; I was not going to do that.
    So I did the 28 days and then I went to Narcotics Anonymous 
meetings and had a sponsor and did everything I was supposed to 
do. But after 6 months I could not maintain it and I relapsed. 
After that relapse, it took me 5 years to get back into 
recovery again. During that 5 years I really became a different 
person. I was unable to hold a job. I would get factory jobs 
and they would last maybe a month or 2 and then I would be 
fired because I could not show up or could not show up on time. 
One job, I called and said--you know that bug thing that they 
talk about with meth--I treated my whole house and everybody, 
all my stuff, and I called them up the next day and said: I 
just took care of this yesterday and they are back again today. 
They said: You do not need to come back, thank you. So that 
happened.
    I was evicted from the house I was living in by my folks 
because they knew what I was up to. They had me committed at 
one time, but I was not ready to quit. My behavior was so 
bizarre that they had me committed for an evaluation. At that 
time I was sentenced to outpatient treatment. In Union County 
at that time outpatient treatment was one session one time a 
week with a counselor, and that was not going to do me a bit of 
good.
    My things were stolen, my things were lost, I was evicted 
more than once. At one time my son and his father and I were 
living with a woman in a house south of Iowa City and I--I am a 
very peaceful person, but I punched this woman and knocked her 
down in front of the deputy sheriff and spent a night in jail 
for assault.
    We spent a lot of time going back and forth from town to 
town. Always we would stay clean for a month or 2 and then we 
would find the people or the people would find us who had it. 
Then in 1998 meth labs exploded in Iowa, and someone was 
released from prison and came out with a recipe for 
methamphetamine and he taught the people in our little subgroup 
how to do it.
    So we would supply different ingredients and a place to do 
it and we were part of this team of meth makers. That blew up 
in our face. Well, the lab did not blow up, but we were caught 
doing that.
    So at that time I had friends who took me by the hand and 
called the treatment center and helped me pack my bags, because 
I still was convinced: You know, I have had treatment before; I 
can go to meetings and I can quit this. They said: You cannot. 
They drove me to treatment and got me there.
    Once I was there long enough to realize what I needed this 
time, because I never wanted to come back again, I got on the 
list for the halfway house. So of course I was an unemployed, 
uninsured meth addict, so it was State-funded treatment that I 
had, and the long-term residential treatment that I went to was 
a halfway house in Des Moines. That was State and Federally 
funded.
    Then I had the long-term support of my family.
    Senator Harkin. How long? How long?
    Ms. Sickels. It was 90 days that I was in the halfway house 
and then it was about 3 years that I stayed at--I call it my 
sister's three-quarters of the way house, because she was a 
safe person that I could live with while I went to school and 
learned to live again.
    There was a year after I got clean where I bagged groceries 
at a grocery store and it was all I could do to suit up and 
show up and just learn how to put one foot in front of the 
other again and live. I can remember that during that year I 
would feel really good about where I was and then really low. 
There was just highs and lows, until about a year, and then it 
sort of evened out.
    Then I had a plan and I was in school and it sort of evened 
out. So when I see the brain imaging, I think it makes sense. 
It was the way I felt.
    But it was the long-term residential treatment that really 
worked for me.
    Senator Harkin. So even after you quit taking meth, you 
felt that there were some after effects. I have read about 
this. I am going to ask some of our experts about this.
    Ms. Sickels. Absolutely, absolutely.
    But I am sitting here to tell you that treatment works.
    Senator Harkin. How long ago was all this now?
    Ms. Sickels. It will be 7 years in July.
    Senator Harkin. Since then you went on and got your 
master's degree.
    Ms. Sickels. Uh-hmm.
    Senator Harkin. You are now counseling.
    Ms. Sickels. Uh-hmm. Also, I wanted to mention, we talked 
about HIV and methamphetamine. Hepatitis C is huge. Hepatitis C 
is also epidemic. Injecting drug users think that they are not 
going to get it because they do not share needles. But it is a 
hardier virus than HIV, so if they are sharing spoons and 
cottons and water--I do not know that I mentioned that I was an 
injecting drug user. I do not think I did. But I was, and I 
ended up with hepatitis C.
    Most of the people that I used with have hepatitis C as 
well. In my work as a prevention counselor at the AIDS Project, 
I counsel a lot of people who are testing positive for 
hepatitis C. It is huge.
    Senator Harkin. Wow. Well, Ms. Sickels, that is a heck of a 
story. My goodness. I just congratulate you.
    Ms. Sickels. Thank you.
    Senator Harkin. It is a lot of will power.
    Ms. Sickels. Thanks. Actually, it was a lot of help. It 
took a whole team to get me where I am today.
    Senator Harkin. That is what I think we have got to get 
into and talk maybe to Mr. Curie and others, about how do you 
build up the systems approach to this thing.
    Ms. Sickels. Right, because I was so blessed to have a 
supportive family. A lot of the people that I work with, they 
go home and mom is using meth.
    Senator Harkin. I am going to move on to Mr. Steinberg, but 
one thing that Sheriff Anderson, who is the sheriff of Polk 
County, Des Moines, told me, that the amount of time that they 
are spending in treatment is not long enough.
    Ms. Sickels. Not at all.
    Senator Harkin. They are in and then they are out, and they 
just do not have the facilities for them. So I see a lot of 
heads nodding. Well, we will get into that too.
    Thank you, Ms. Sickels, very much. We will get back, we 
will have some more interaction here in a second.

STATEMENT OF RICHARD E. STEINBERG, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, WESTCARE FOUNDATION, 
            INC., AND PRESIDENT, THERAPEUTIC 
            COMMUNITIES OF AMERICA
    Senator Harkin. Now we turn to Richard Steinberg, President 
and CEO of WestCare, a company that provides substance abuse 
treatment services in six States. He is also the current 
President of Therapeutic Communities of America and an 
appointed member of SAMHSA's Center for Substance Abuse 
Treatment National Advisory Council.
    Mr. Steinberg received his bachelor of arts degree in 
psychology from California State University at Long Beach, his 
master of science in rehabilitation counseling from the 
University of Nevada in Las Vegas.
    Mr. Steinberg, welcome.
    Mr. Steinberg. Thank you, Mr. Chairman.
    Senator Harkin. Please, if you could summarize your 
statement I would appreciate it.
    Mr. Steinberg. Thank you. I appreciate, Senator, you taking 
actually the time to do this hearing today. This is very 
important to many of us throughout the Nation and it certainly 
affects my agency in the different States that we are 
operating.
    I also would like to take a moment just to say that I am 
pleased and honored to be on a panel with such distinguished 
folks. Charlie Curie at SAMHSA has been a great friend and 
supporter, not only to our agency at WestCare, but a lot of my 
colleagues throughout the United States, and, wearing a double 
hat as President of TCA, he has done a tremendous amount with 
that group in actually looking at different approaches and not 
just getting into old approaches and staying fixed, but working 
in the mental health arena and the overlaps that we have with 
mental health and substance abuse. He has done a great job for 
us.
    Nora and everybody out at NIDA has been really tremendous 
with our field. One of the things that we used to have in the 
early days, we were always frustrated as treatment providers 
because there was research being done and we did not understand 
where that fit with what we were doing. Everybody at NIDA now 
has really worked with us--I call it ``where the rubber meets 
the road,'' the research and the issues and how that gets 
transferred and implemented in the field. Her staff has just 
been dynamite to work with and help us.
    Sitting next to Vicki Sickels, this is what it is all about 
and why we are in this business. To hear you and hear you talk, 
I do not know the rest of us have a lot to say today after 
listening to her, because this is really what it is all about.
    The issue of meth, methamphetamine, is extremely bad, 
obviously. It is throughout the Nation and actually in other 
countries it is an emerging issue there as well. It is very 
high, very potent, very cheap to make, very cheap to get. It 
involves all kinds of different systems. But it is out here, 
and it is hard to ignore.
    The treatment approaches, the treatment really works. In 
this case, you hear a lot of different people come along who 
have not spent any time and say, well, maybe it does not work. 
Well, it really does work. I think Ms. Sickels is an example of 
how that does work.
    But we are talking about longer-term needs for treatment. 
This is not a quick fix. Rarely does somebody seek out 
treatment just because they used it one time and they showed up 
the next day with help, or needing the help. But normally 
people have really kind of lost everything by the time they 
come in for treatment. So longer-term approaches are really 
needed.
    The therapeutic community model is a long-term system. Dr. 
Volkow talks about 24 months that it can still be in the 
system, and the brain and where it is at. These systems of care 
need to be longer term. You cannot have a quick fix to it. I 
just share that as a real concern.
    WestCare, our programs are nonprofit, community-based. I 
guess I want to make sure that I stress that a little bit, that 
these are agencies--and we are not unique throughout the United 
States--that come together with community citizens being on 
boards of directors and working with State systems, and 
basically we are treating the people on the first bounce.
    Usually the people who come to us do not even have 
insurance. It is an important piece because we rely heavily on 
the block grant and the block grant systems and how that is 
affecting our delivery of care. This brings in some other 
issues, too, that people are really struggling now to where and 
how to treat the masses of this.
    Las Vegas has a real growing issue of people moving in, 
about 7,500 a month. As Senator Reid talked about earlier, we 
have a real issue with a lot of drugs coming in. You hear the 
comic stuff on TV, you know, what happens in Vegas stays in 
Vegas, and that also happens with the drug trade and the drug 
issues that are going on.
    Some of the stats that we have we think are actually low, 
but we have an overcrowding of emergency rooms for mental 
health and substance abuse, with meth being kind of the key 
issue being brought in right now. Emergency rooms are very 
overcrowded. We have come up with a system there where all the 
hospitals have worked together to move them on to community-
based systems. So that is an important piece in my mind to work 
with, and it is expanding. We have about 8,000 this year coming 
in out of Las Vegas alone from emergency rooms for these 
systems of care.
    It is important to also point out that as we are doing our 
programs in all the different States, the meth issue is not 
something like we saw in the 80s when we came before Congress 
to talk about crack cocaine in the inner cities. This is in 
rural America, this is in suburbia America. It is all walks of 
life are involved. It is hitting everybody and it is not just a 
small issue or a small problem, as we have seen. Not that the 
issues were small in the past, but they are in the one area.
    My concern is that we really need to address this head on, 
this meth problem in the Nation. My concern also is that we do 
not take block grants and we earmark them just for one type of 
issue only, because there has been some stuff over the past 
that I have been concerned with and those of us in the field 
where we came back--and we did this in the 80s with crack 
cocaine--saying, we will just do all this for crack cocaine or 
just do all this for HIV drug users or we will just do this for 
moms and babies.

                           PREPARED STATEMENT

    Methamphetamine is across the board and we need to be able 
to allow the block grant systems to go into States and allow 
the States to determine the best usage of those block grants to 
work within their communities, because drug issues change. 
Those of us who are in the business of dealing with 
methamphetamine are still dealing with heroin today and alcohol 
and all the other drugs as well. So it is not just one drug 
only, but meth is certainly a serious problem.
    I thank you for allowing me to talk.
    [The statement follows:]

               Prepared Statement of Richard E. Steinberg

    Mr. Chairman and Members of the Subcommittee, my name is Dick 
Steinberg, and I am President and CEO of the WestCare Foundation. I 
also serve as President of Therapeutic Communities of America (TCA), a 
membership association representing nonprofit community-based treatment 
providers throughout the United States. I will focus my testimony on 
the scope of the methamphetamine abuse and addiction problem in Nevada, 
on WestCare's therapeutic communities (TC) treatment model, and on how 
WestCare and other therapeutic communities are working to address the 
problems associated with the growing abuse of methamphetamine. From 
this point forward in my testimony, I will refer to methamphetamine 
simply as ``meth.''
    First, I would like to thank the Subcommittee for the opportunity 
to testify. I am privileged to provide testimony alongside Mr. Charles 
G. Curie, Administrator of the Substance Abuse and Mental Health 
Services Administration (SAMHSA) and alongside Dr. Nora Volkow, the 
Director of the National Institute on Drug Abuse (NIDA). Mr. Curie and 
Dr. Volkow are strong leaders in their respective but related fields of 
substance abuse treatment and drug abuse research. I would also like to 
thank Ms. Vicki Sickels for testifying today.
    I would also like to take this opportunity to thank Senator Harry 
Reid for his outstanding leadership on the issues of substance abuse 
treatment and mental health treatment. Senator Reid continues to 
provide strong support for the funding of NIDA and SAMHSA. In 2001, 
Clark County, Nevada was designated a High-Intensity Drug Trafficking 
Area. I appreciate Senator Reid's support for this designation.
    Founded in 1973, WestCare provides a spectrum of health and human 
services in both residential and outpatient environments. Our services 
include substance abuse and addiction treatment, homeless and runaway 
shelters, domestic violence treatment and prevention, and behavioral 
and mental health programs. These services are available to adults, 
children, adolescents, and families; we specialize in helping people 
traditionally considered difficult to treat, such as those who are 
indigent, have multiple disorders, or are involved with the criminal 
justice system.
    As mentioned earlier, I am also President of Therapeutic 
Communities of America (TCA), a national membership association 
representing over 500 non-profit programs dedicated to providing 
treatment to substance-abusing disadvantaged Americans with multiple 
barriers to recovery. Therapeutic communities (TC) believe that 
substance abuse clients have multiple barriers to recovery, in addition 
to their drug use. Most clients within a TC have cycled through our 
criminal justice and human service systems numerous times before 
getting to the TC. Through modified programs based on evidence-based 
research, TCs have been able to demonstrate successes even with the 
most difficult of populations served. Therapeutic communities, through 
federal and State funding, have been able to treat America's most 
vulnerable at-risk populations.
    In 2004, WestCare provided treatment services to over eighty 
thousand (80,000) clients in six states (Arizona, California, Florida, 
Georgia, Kentucky, and Nevada) and the U.S. Virgin Islands. WestCare is 
seeing large and growing numbers of persons of all ages and backgrounds 
who abuse or are addicted to meth. In 2004, WestCare provided drug 
treatment services for over twenty-seven thousand (27,075) persons. Of 
this amount, over twelve thousand (12,692) were addicted to meth or 
cited usage during their assessment. Nearly 50 percent of the clients 
we serve for substance abuse treatment report abusing meth.
    Our experiences in Nevada show that athletes and students sometimes 
begin using meth because of the initial heightened physical and mental 
performance the drug produces. Blue collar and service workers may use 
the drug to work extra shifts, while young women often begin using meth 
to lose weight. Others use meth recreationally to stay energized at 
``rave'' parties or other social activities. Meth is generally less 
expensive and more accessible than cocaine. Users often have the 
misconception that meth, while illegal, is not a harmful drug.
    Based on WestCare's experiences in Nevada and elsewhere, we believe 
that teenagers are highly susceptible to meth abuse and addiction. Many 
of our clients are youth or adults who have previously used Ritalin or 
other stimulants to treat Attention Deficit Hyperactivity Disorder 
(ADHD). The self-reported meth use trends for youth in Nevada are 
disturbing. Six percent (6 percent) of middle school students and 
sixteen percent (16 percent) of high school students in Nevada have 
reported using meth one or more times in their lives. Middle and high 
school students in Nevada report having used meth more than report 
having used cocaine. Self-reported meth use among this age group is 
approximately equal to self-reported use of heroin, hallucinogens, 
depressants or tranquilizers.
    WestCare's drug and alcohol treatment program works with 
adjudicated youth ages 12 to 18 who have been assessed as having a 
substance abuse or addiction disorder. Our internal statistics show 52 
percent of the female population and 14 percent of the male population 
cite meth as their drug of choice. The high percentage of females 
identifying meth as their drug of choice has motivated treatment 
counselors to address issues pertaining to meth use by teenage females.
    Meth abuse is not limited to teenagers. Our experience is that meth 
addiction can be a generational addiction sometimes including multi-
generation use in one household: grandmother, parent, son or daughter 
using together. Multi-generational meth abuse and addiction presents 
significant challenges to treatment providers.
    Our experience is that meth abuse and addiction is often associated 
with long-term mental health disorders. Meth use may occasionally cause 
blurred vision, dizziness, and loss of coordination. Users may 
occasionally experience chemically induced schizophrenia and toxic 
psychosis. WestCare's clients have experienced brain toxicity, kidney, 
liver and lung failure, and heart disease. Users may occasionally 
experience permanent brain damage--even with minimal use.
    From our experience, meth is a ``crisis'' drug. The affects of meth 
on the human brain can lead to severe short-term disorientation and 
violence. In 2003-2004, there were 780 calls to the Reno, Nevada Crisis 
Call Centers associated with drug addiction. Of those calls, 242, or 
nearly one-third, were associated with meth abuse. If these figures can 
be extrapolated state-wide, meth abuse is generating approximately one-
third of all crisis drug abuse treatment calls in the state of Nevada.
    WestCare is working to deliver the best available diagnostic 
practices for treating meth abuse and addiction. WestCare's experience 
is that long-term meth abusers require longer terms of treatment than 
abusers of other substances, in part because of the length of time 
required for the brain to heal from meth-caused damage. WestCare has 
experienced a higher percentage of clients with co-occurring disorders 
(mental health and substance abuse problems) among clients reporting 
meth abuse. From our perspective, there appear to be significant mental 
health consequences to meth abuse, implications that are different from 
those associated with abuse of other substances such as cocaine or 
heroin.
    Westcare's therapeutic community methodology of treatment attempts 
to address the entirety of social, psychological, cognitive, and 
behavioral factors in combating meth abuse and addiction. 
Traditionally, therapeutic communities have been community based, long-
term residential substance abuse treatment providers. In recent years, 
TCs have expanded their range of services, providing outpatient, 
prevention, education, family therapy, transitional housing, in-prison 
treatment, vocational training, medical services, and case management.
    During my introduction, I mentioned my role as President of TCA. 
TCA has submitted a separate written statement to the Subcommittee to 
be included in the Hearing Record. I would encourage Subcommittee 
Members and staff to review that testimony. The TCA testimony outlines 
the principles on which therapeutic communities operate, and the 
testimony discusses specifically how the therapeutic community 
treatment model is applicable to treating individuals abusing or 
addicted to meth.
    Before I close, I would like to comment on the important programs 
funded by the federal agencies represented at this hearing. SAMHSA and 
CSAT operate the Substance Abuse Prevention and Treatment Block Grant 
(SAPT), which is the single largest funding stream for treatment 
programs for addicted individuals. SAHMSA and CSAT also operate 
Programs of Regional and National Significance. Funding provided 
through this block grant and through these discretionary programs has 
been effective in developing and improving treatment for special 
populations and in targeting emerging national and regional needs. 
Without these funds, the treatment community could not begin to 
effectively develop the necessary infrastructure to treat meth abusers 
and addicts.
    NIDA and the National Institute on Alcohol Abuse and Alcoholism 
(NIAAA) provide invaluable clinical evidence to drug prevention and 
treatment providers, improving efforts to combat the consequences of 
drug abuse. Although we have much more to learn about treatment best 
practices, research conducted by NIDA and NIAAA has contributed 
significantly to improving treatment services.
    On behalf of WestCare and my colleagues at TCA, please know that we 
are grateful for the strong support this Subcommittee has provided 
these two agencies in recent years. Substance abuse treatment can work 
to reduce meth abuse and addiction. Interdiction and enforcement are an 
important part of the solution, but effective treatment is essential to 
the solution.
    In conclusion, I commend the Subcommittee for conducting this 
hearing, and I appreciate having been provided the opportunity to 
testify. I would be pleased to answer any questions.

    Senator Harkin. Thank you very much, Mr. Steinberg.
    Thank you all for being here. We have a period of time here 
in which we can enter into kind of a generalized discussion.
    First of all, Ms. Sickels, I want to give you this to read. 
I was on an airplane once and I was reading the New York Times 
Sunday Magazine and it was a story called ``My Addicted Son'' 
by David Schiff. It was February 6 of this year. Of course, he 
is a novelist and so his writing really grabs you. I do not 
know if you have seen this, but I think you would appreciate 
it. In fact, I am going to ask that this be made a part of the 
record also, because it really lays out what happened to his 
kid. It just almost really parallels your story.
    [The information follows:]

              [From The New York Times, February 6, 2005]

                            My Addicted Son

                            (By David Sheff)

    A father's story.
    One windy day in May 2002, my young children, Jasper and Daisy, who 
were 8 and 5, spent the morning cutting, pasting and coloring notes and 
welcome banners for their brother's homecoming. They had not seen Nick, 
who was arriving from college for the summer, in six months. In the 
afternoon, we all drove to the airport to pick him up.
    At home in Inverness, north of San Francisco, Nick, who was then 
19, lugged his duffel bag and backpack into his old bedroom. He 
unpacked and emerged with his arms loaded with gifts. After dinner, he 
put the kids to bed, reading to them from ``The Witches,'' by Roald 
Dahl. We heard his voice--voices--from the next room: the boy narrator, 
all wonder and earnestness; wry and creaky Grandma; and the shrieking, 
haggy Grand High Witch. The performance was irresistible, and the 
children were riveted. Nick was a playful and affectionate big brother 
to Jasper and Daisy--when he wasn't robbing them.
    Late that night, I heard the creaking of bending tree branches. I 
also heard Nick padding along the hallway, making tea in the kitchen, 
quietly strumming his guitar and playing Tom Waits, Bjork and Bollywood 
soundtracks. I worried about his insomnia, but pushed away my 
suspicions, instead reminding myself how far he had come since the 
previous school year, when he dropped out of Berkeley. This time, he 
had gone east to college and had made it through his freshman year. 
Given what we had been through, this felt miraculous. As far as we 
knew, he was coming up on his 150th day without methamphetamine.
    In the morning, Nick, in flannel pajama bottoms and a fraying 
woolen sweater, shuffled into the kitchen. His skin was rice-papery and 
gaunt, and his hair was like a field, with smashed-down sienna patches 
and sticking-up yellowed clumps, a disaster left over from when he 
tried to bleach it. Lacking the funds for Lady Clairol, his brilliant 
idea was to soak his head in a bowl of Clorox.
    Nick hovered over the kitchen counter, fussing with the stove-top 
espresso maker, filling it with water and coffee and setting it on a 
flame, and then sat down to a bowl of cereal with Jasper and Daisy. I 
stared hard at him. The giveaway was his body, vibrating like an idling 
car. His jaw gyrated and his eyes were darting opals. He made plans 
with the kids for after school and gave them hugs. When they were gone, 
I said, ``I know you're using again.''
    He glared at me: ``What are you talking about? I'm not.'' His eyes 
fixed onto the floor.
    ``Then you won't mind being drug-tested.''
    ``Whatever.''
    When Nick next emerged from his bedroom, head down, his backpack 
was slung over his back, and he held his electric guitar by the neck. 
He left the house, slamming the door behind him. Late that afternoon, 
Jasper and Daisy burst in, dashing from room to room, before finally 
stopping and, looking up at me, asking, ``Where's Nick?''
    Nick now claims that he was searching for methamphetamine for his 
entire life, and when he tried it for the first time, as he says, 
``That was that.'' It would have been no easier to see him strung out 
on heroin or cocaine, but as every parent of a methamphetamine addict 
comes to learn, this drug has a unique, horrific quality. In an 
interview, Stephan Jenkins, the singer in the band Third Eye Blind, 
said that methamphetamine makes you feel ``bright and shiny.'' It also 
makes you paranoid, incoherent and both destructive and pathetically 
and relentlessly self-destructive. Then you will do unconscionable 
things in order to feel bright and shiny again. Nick had always been a 
sensitive, sagacious, joyful and exceptionally bright child, but on 
meth he became unrecognizable.
    Nick's mother and I were attentive, probably overly attentive--part 
of the first wave of parents obsessed with our children in a self-
conscious way. (Before us, people had kids. We parented.) Nick spent 
his first years on walks in his stroller and Snugli, playing in 
Berkeley parks and baby gyms and visiting zoos and aquariums.
    His mother and I divorced when he was 4. No child benefits from the 
bitterness and savagery of a divorce like ours. Like fallout from a 
dirty bomb, the collateral damage is widespread and enduring. Nick was 
hit hard. The effects lingered well after his mother and I settled on a 
joint-custody arrangement and, later, after we both remarried.
    As a kindergartner, when he wore tights, the other school children 
teased him: ``Only girls wear tights.'' Nick responded: ``Uh, uh, 
Superman wears tights.'' I was proud of his self-assuredness and 
individuality. Nick readily rebelled against conventional habit, mores 
and taste. Still, he could be susceptible to peer pressure. During the 
brief celebrity of Kris Kross, he wore backward clothes. At 11, he was 
hidden inside grungy flannel, shuffling around in Doc Martens. Hennaed 
bangs hung Cobain-like over his eyes.
    Throughout his youth, I talked to Nick ``early and often'' about 
drugs in ways now prescribed by the Partnership for a Drug-Free 
America. I watched for one organization's early warning signs of 
teenage alcoholism and drug abuse. (No. 15: ``Does your child volunteer 
to clean up after adult cocktail parties, but neglect other chores?'') 
Indeed, when he was 12, I discovered a vial of marijuana in his 
backpack. I met with his teacher, who said: ``It's normal. Most kids 
try it.'' Nick said that it was a mistake--he had been influenced by a 
couple of thuggish boys at his new school--and he promised that he 
would not use it again.
    In his early teens, Nick was into the hippest music and then grew 
bored with it. By the time his favorite artists, from Guns N' Roses to 
Beck to Eminem, had a hit record, Nick had discarded them in favor of 
the retro, the obscure, the ultra contemporary or plain bizarre, an 
eclectic list that included Coltrane, polka, the soundtrack from ``The 
Umbrellas of Cherbourg'' and, for a memorable period, samba, to which 
he would cha-cha through the living room. His heroes, including Holden 
Caulfield and Atticus Finch, were replaced by an assortment of 
misanthropes, addicts, drunks, depressives and suicides, role models 
like Burroughs, Bukowski, Cobain, Hemingway and Basquiat. Other 
children watched Disney and ``Star Wars,'' but Nick preferred Scorsese, 
David Lynch and Godard.
    At 14, when he was suspended from high school for a day for buying 
pot on campus, Nick and my wife and I met with the freshman dean. ``We 
view this as a mistake and an opportunity,'' he explained. Nick was 
forced to undergo a day at a drug-and-alcohol program but was given a 
second chance. A teacher took Nick under his wing, encouraging his 
interest in marine biology. He surfed with him and persuaded him to 
join the swimming and water-polo teams. Nick had two productive and, as 
far as I know, drug-free years. He showed promise as a student actor, 
artist and writer. For a series of columns in the school newspaper, he 
won the Ernest Hemingway Writing Award for high-school journalists, and 
he published a column in Newsweek.
    After his junior year, Nick attended a summer program in French at 
the American University of Paris. I now know that he spent most of his 
time emulating some of his drunken heroes, though he forgot the writing 
and painting part. His souvenir of his Parisian summer was an ulcer. 
What child has an ulcer at 16? Back at high school for his senior year, 
he was still an honor student, with a nearly perfect grade-point 
average. Even as he applied to and was accepted at a long list of 
colleges, one senior-class dean told me, half in jest, that Nick set a 
school record for tardiness and cutting classes. My wife and I 
consulted a therapist, and a school counselor reassured us: ``You're 
describing an adolescent. Nick's candor, unusual especially in boys, is 
a good sign. Keep talking it out with him, and he'll get through 
this.''
    His high-school graduation ceremony was held outdoors on the 
athletic field. With his hair freshly buzzed, Nick marched forward and 
accepted his diploma from the school head, kissing her cheek. He seemed 
elated. Maybe everything would be all right after all. Afterward, we 
invited his friends over for a barbecue. Later we learned that a boy in 
jeans and a sport coat had scored some celebratory sensimilla. Nick and 
his friends left our house for a grad-night bash that was held at a 
local recreation center, where he tried ecstasy for the first time.
    A few weeks later, my wife planned to take the kids to the beach. 
The fog had lifted, and I was with them in the driveway, helping to 
pack the car. Two county sheriff's patrol cars pulled up. When a pair 
of uniformed officers approached, I thought they needed directions, but 
they walked past me and headed for Nick. They handcuffed his wrists 
behind his back, pushed him into the back seat of one of the squad cars 
and drove away. Jasper, then 7, was the only one of us who responded 
appropriately. He wailed, inconsolable for an hour. The arrest was a 
result of Nick's failure to appear in court after being cited for 
marijuana possession, an infraction he ``forgot'' to tell me about. 
Still, I bailed him out, confident that the arrest would teach him a 
lesson. Any fear or remorse he felt was short-lived, however, blotted 
out by a new drug--crystal methamphetamine.
    When I was a child, my parents implored me to stay away from drugs. 
I dismissed them, because they didn't know what they were talking 
about. They were--still are--teetotalers. I, on the other hand, knew 
about drugs, including methamphetamine. On a Berkeley evening in the 
early 1970's, my college roommate arrived home, yanked the thrift-shop 
mirror off the wall and set it upon a coffee table. He unfolded an 
origami packet and poured out its contents onto the mirror: a mound of 
crystalline powder. From his wallet he produced a single-edge razor, 
with which he chipped at the crystals, the steel tapping rhythmically 
on the glass. While arranging the powder in four parallel rails, he 
explained that Michael the Mechanic, our drug dealer, had been out of 
cocaine. In its place, he purchased crystal methamphetamine.
    I snorted the lines through a rolled-up dollar bill. The chemical 
burned my nasal passages, and my eyes watered. Whether the drug is 
sniffed, smoked, swallowed or injected, the body quickly absorbs 
methamphetamine. Once it reaches the circulatory system, it's a near-
instant flume ride to the central nervous system. When it reached mine, 
I heard cacophonous music like a calliope and felt as if Roman candles 
had been lighted inside my skull. Methamphetamine triggers the brain's 
neurotransmitters, particularly dopamine, which spray like bullets from 
a gangster's tommy gun. The drug destroys the receptors and as a result 
may, over time, permanently reduce dopamine levels, sometimes leading 
to symptoms normally associated with Parkinson's disease like tremors 
and muscle twitches. Meth increases the heart rate and blood pressure 
and can cause irreversible damage to blood vessels in the brain, which 
can lead to strokes. It can also cause arrhythmia and cardiovascular 
collapse, possibly leading to death. But I felt fantastic--supremely 
confident, euphoric.
    After methamphetamine triggers the release of neurotransmitters, it 
blocks their reuptake back into their storage pouches, much as cocaine 
and other stimulants do. Unlike cocaine, however, meth also blocks the 
enzymes that help to break down invasive drugs, so the released 
chemicals float freely until they wear off. Methamphetamine remains 
active for 10 to 12 hours, compared with 45 minutes for cocaine. When 
the dawn began to seep through the cracked window blinds, I felt bleak, 
depleted and agitated. I went to bed and eventually slept for a full 
day, blowing off school.
    I never touched methamphetamine again, but my roommate returned 
again and again to Michael the Mechanic's, and his meth run lasted for 
two weeks. Not long afterward, he moved away, and I lost touch with 
him. I later learned that after college, his life was defined by his 
drug abuse. There were voluntary and court-ordered rehabs, car crashes, 
a house that went up in flames when he fell asleep with a burning 
cigarette in his mouth, ambulance rides to emergency rooms after 
overdoses and accidents and incarcerations, both in hospitals and 
jails. He died on the eve of his 40th birthday.
    When I told Nick cautionary stories like this and warned him about 
crystal, I thought that I might have some credibility. I have heard 
drug counselors tell parents of my generation to lie to our children 
about our past drug use. Famous athletes show up at school assemblies 
or on television and tell kids, ``Man, don't do this stuff, I almost 
died,'' and yet there they stand, diamonds, gold, multimillion-dollar 
salaries and fame. The words: I barely survived. The message: I 
survived, thrived and you can, too. Kids see that their parents turned 
out all right in spite of the drugs. So maybe I should have lied, and 
maybe I'll try lying to Daisy and Jasper. Nick, however, knew the 
truth. I don't know how much it mattered. Part of me feels solely 
responsible--if only his mother and I had stayed together; if only she 
and I had lived in the same city after the divorce and had a joint-
custody arrangement that was easier on him; if only I had set stricter 
limits; if only I had been more consistent. And yet I also sense that 
Nick's course was determined by his first puff of pot and sip of wine 
and sealed with the first hit of speed the summer before he began 
college.
    When Nick's therapist said that college would straighten him out, I 
wanted to believe him. When change takes place gradually, it's 
difficult to comprehend its meaning. At what point is a child no longer 
experimenting, no longer a typical teenager, no longer going through a 
phase or a rite of passage? I am astounded--no, appalled--by my ability 
to deceive myself into believing that everything would turn out all 
right in spite of mounting evidence to the contrary.
    At the University of California at Berkeley, Nick almost 
immediately began dealing to pay for his escalating meth habit. After 
three months, he dropped out, claiming that he had to pull himself 
together. I encouraged him to check into a drug-rehabilitation 
facility, but he refused. (He was over 18, and I could not commit him.) 
He disappeared. When he finally called after a week, his voice 
trembled. It nonetheless brought a wave of relief--he was alive. I 
drove to meet him in a weedy and garbage-strewn alleyway in San Rafael. 
My son, the svelte and muscular swimmer, water-polo player and surfer 
with an ebullient smile, was bruised, sallow, skin and bone, and his 
eyes were vacant black holes. Ill and rambling, he spent the next three 
days curled up in bed.
    I was bombarded with advice, much of it contradictory. I was 
advised to kick him out. I was advised not to let him out of my sight. 
One counselor warned, ``Don't come down too hard on him or his drug use 
will just go underground.'' One mother recommended a lockup school in 
Mexico, where she sent her daughter to live for two years. A police 
officer told me that I should send Nick to a boot camp where children, 
roused and shackled in the middle of the night, are taken by force.
    His mother and I decided that we had to do everything possible to 
get Nick into a drug-rehabilitation program, so we researched them, 
calling recommended facilities, inquiring about their success rates for 
treating meth addicts. These conversations provided my initial glimpse 
of what must be the most chaotic, flailing field of health care in 
America. I was quoted success rates in a range from 20 to 85 percent. 
An admitting nurse at a Northern California hospital insisted: ``The 
true number for meth addicts is in the single digits. Anyone who 
promises more is lying.'' But what else could we try? I used what was 
left of my waning influence--the threat of kicking him out of the house 
and withdrawing all of my financial support--to get him to commit 
himself into the Ohlhoff Recovery Program in San Francisco. It is a 
well-respected program, recommended by many of the experts in the Bay 
Area. A friend of a friend told me that the program turned around the 
life of her heroin-addicted son.
    Nick trembled when I dropped him off. Driving home afterward, I 
felt as if I would collapse from more emotion than I could handle. 
Incongruously, I felt as if I had betrayed him, though I did take some 
small consolation in the fact that I knew where he was; for the first 
time in a while, I slept through the night.
    For their initial week, patients were forbidden to use the 
telephone, but Nick managed to call, begging to come home. When I 
refused, he slammed down the receiver. His counselor reported that he 
was surly, depressed and belligerent, threatening to run away. But he 
made it through the first week, which consisted of morning walks, 
lectures, individual and group sessions with counselors, 12-step-
program meetings and meditation and acupuncture. Family groups were 
added in the second week. My wife and I, other visiting parents and 
spouses or partners, along with our addicts, sat in worn couches and 
folding chairs, and a grandmotherly, whiskey-voiced (though sober for 
20 years) counselor led us in conversation.
    ``Tell your parents what it means that they're here with you, 
Nick,'' she said.
    ``Whatever. It's fine.''
    By the fourth and final week, he seemed open and apologetic, 
claiming to be determined to take responsibility for the mess he'd made 
of his life. He said that he knew that he needed more time in 
treatment, and so we agreed to his request to move into the 
transitional residential program. He did, and then three days later he 
bolted. At some point, parents may become inured to a child's self-
destruction, but I never did. I called the police and hospital 
emergency rooms. I didn't hear anything for a week. When he finally 
called, I told him that he had two choices as far as I was concerned: 
another try at rehab or the streets. He maintained that it was 
unnecessary--he would stop on his own--but I told him that it wasn't 
negotiable. He listlessly agreed to try again.
    I called another recommended program, this one at the St. Helena 
Hospital Center for Behavioral Health, improbably located in the Napa 
Valley wine country. Many families drain every penny, mortgaging their 
homes and bankrupting their college funds and retirement accounts, 
trying successive drug-rehab programs. My insurance and his mother's 
paid most of the costs of these programs. Without this coverage, I'm 
not sure what we would have done. By then I was no longer sanguine 
about rehabilitation, but in spite of our experience and the 
questionable success rates, there seemed to be nothing more effective 
for meth addiction.
    Patients in the St. Helena program keep journals. In Nick's, he 
wrote one day: ``How the hell did I get here? It doesn't seem that long 
ago that I was on the water-polo team. I was an editor of the school 
newspaper, acting in the spring play, obsessing about which girls I 
liked, talking Marx and Dostoevsky with my classmates. The kids in my 
class will be starting their junior years of college. This isn't so 
much sad as baffling. It all seemed so positive and harmless, until it 
wasn't.''
    By the time he completed the fourth week, Nick once again seemed 
determined to stay away from drugs. He applied to a number of small 
liberal-arts schools on the East Coast. His transcripts were still good 
enough for him to be accepted at the colleges to which he applied, and 
he selected Hampshire, located in a former apple orchard in Western 
Massachusetts.
    In August, my wife and I flew east with him for freshman 
orientation. At the welcoming picnic, Karen and I surveyed the incoming 
freshmen for potential drug dealers. We probably would have seen this 
on most campuses, but we were not reassured when we noticed a number of 
students wearing T-shirts decorated with marijuana leaves, portraits of 
Bob Marley smoking a spliff and logos for the Church of LSD.
    In spite of his protestations and maybe (though I'm not sure) his 
good intentions and in spite of his room in substance-free housing, 
Nick didn't stand a chance. He tried for a few weeks. When he stopped 
returning my phone calls, I assumed that he had relapsed. I asked a 
friend, who was visiting Amherst, to stop by to check on him. He found 
Nick holed up in his room. He was obviously high. I later learned that 
not only had Nick relapsed, but he had supplemented methamphetamine 
with heroin and morphine, because, he explained, at the time meth was 
scarce in Western Massachusetts. ``Everyone told me not to try it, you 
know?'' Nick later said about heroin. ``They were like, `Whatever you 
do, stay away from dope.' I wish I'd got the same warning about meth. 
By the time I got around to doing heroin, I really didn't see what the 
big deal was.''
    I prepared to follow through on my threat and stop paying his 
tuition unless he returned to rehab, but I called a health counselor, 
who advised patience, saying that often ``relapse is part of 
recovery.'' A few days later, Nick called and told me that he would 
stop using. He went to 12-step program meetings and, he claimed, 
suffered the detox and early meth withdrawal that is characterized by 
insuperable depression and acute anxiety--a drawn-out agony. He kept in 
close touch and got through the year, doing well in some writing and 
history classes, newly in love with a girl who drove him to Narcotics 
Anonymous meetings and eager to see Jasper and Daisy. His homecoming 
was marked by trepidation, but also promise, which is why it was so 
devastating when we discovered the truth.
    When Nick left, I sunk into a wretched and sickeningly familiar 
malaise, alternating with a debilitating panic. One morning, Jasper 
came into the kitchen, holding a satin box, a gift from a friend upon 
his return from China, in which he kept his savings of $8. Jasper 
looked perplexed. ``I think Nick took my money,'' he said. How do you 
explain to an 8-year-old why his beloved big brother steals from him?
    After a week, I succumbed to my desperation and went to try to find 
him. I drove over the Golden Gate Bridge from Marin County to San 
Francisco, to the Haight, where I knew he often hung out. The 
neighborhood, in spite of some gentrification, retains its 1960's-era 
funkiness. Kids--tattooed, pierced, track-marked, stoned--loiter in 
doorways. Of course I didn't find him.
    After another few weeks, he called, collect: ``Hey, Pop, it's me.'' 
I asked if he would meet me. No matter how unrealistic, I retained a 
sliver of hope that I could get through to him. That's not quite 
accurate. I knew I couldn't, but at least I could put my fingertips on 
his cheek.
    For our meeting, Nick chose Steps of Rome, a cafe on Columbus 
Avenue in North Beach, our neighborhood after his mother and I 
divorced. In those days, Nick played in Washington Square Park opposite 
the Cathedral of Saints Peter and Paul, down the hill from our Russian 
Hill flat. We would eat early dinner at Vanessi's, an Italian 
restaurant now gone. The waiters, when they saw Nick, then towheaded, 
with a gap between his front teeth, would lift him up and set him on 
telephone books stacked on a stool at the counter. Nick was little 
enough so that after dinner, when he got sleepy, I could carry him 
home, his tiny arms wrapped around my neck.
    Since reason and love, the forces I had come to rely on, had 
betrayed me, I was in uncharted territory as I sat at a corner table 
nervously waiting for him. Steps of Rome was deserted, other than a 
couple of waiters folding napkins at the bar. I ordered coffee, racking 
my brain for the one thing I could say that I hadn't thought of that 
could get through to him. Drug-and-alcohol counselors, most of them 
former addicts, tell fathers like me it's not our fault. They preach 
``the Three C's'': ``You didn't cause it, you can't control it, and you 
can't cure it.'' But who among us doesn't believe that we could have 
done something differently that would have helped? ``It hurts so bad to 
think I cannot save him, protect him, keep him out of harm's way, 
shield him from pain,'' wrote Thomas Lynch, the undertaker, poet and 
essayist, about his son, a drug addict and an alcoholic. ``What good 
are fathers if not for these things?'' I waited until it was more than 
half an hour past our meeting time, recognizing the mounting, 
suffocating worry and also the bitterness and anger. I had been waiting 
for Nick for years. At night, past his curfew, I waited for the car's 
grinding engine when it pulled into the driveway and went silent, the 
slamming door, footsteps and the front door opening with a click, 
despite his attempt at stealth. Our dog would yelp a halfhearted bark. 
When Nick was late, I always assumed catastrophe.
    After 45 minutes waiting at Steps of Rome, I decided that he wasn't 
coming--what had I expected?--and left the cafe. Still, I walked around 
the block, returned again, peered into the cafe and then trudged around 
the block again. Another half-hour later, I was ready to go home, 
really, maybe, when I saw him. Walking down the street, looking down, 
his gangly arms limp at his sides, he looked more than ever like a 
ghostly, hollow Egon Schiele self-portrait, debauched and emaciated. I 
returned his hug, my arms wrapping around his vaporous spine, and 
kissed his cheek. We embraced like that and sat down at a table by the 
window. He couldn't look me in the eye. No apologies for being late. He 
asked how I was, how were the little kids? He folded and unfolded a 
soda straw and rocked anxiously in his chair; his fingers trembled, and 
he clenched his jaw and ground his teeth. He pre-empted any questions, 
saying: ``I'm doing. Great. I'm doing what I need to be doing, being 
responsible for myself for the first time in my life.'' I asked if he 
was ready to kick, to return to the living, to which he said, ``Don't 
start.'' When I said that Jasper and Daisy missed him, he cut me off. 
``I can't deal with that. Don't guilt-trip me.'' Nick drank down his 
coffee, held onto his stomach. I watched him rise and leave.
    Through Nick's drug addiction, I learned that parents can bear 
almost anything. Every time we reach a point where we feel as if we 
can't bear any more, we do. Things had descended in a way that I never 
could have imagined, and I shocked myself with my ability to 
rationalize and tolerate things that were once unthinkable. He's just 
experimenting. Going through a stage. It's only marijuana. He gets high 
only on weekends. At least he's not using heroin. He would never resort 
to needles. At least he's alive.
    A fortnight later, Nick wrote an e-mail message to his mother and 
asked for help. After they talked, he agreed to meet with a friend of 
our family who took him to her home in upstate New York, where he could 
detox. He slept for 20 or more hours a day for a week and began to work 
with a therapist who specialized in drug addiction. After six or so 
weeks, he seemed stronger and somewhat less desolate. His mother helped 
him move into an apartment in Brooklyn, and he got a job. When he 
finally called, he told me that he would never again use 
methamphetamine, though he made no such vows about marijuana and 
alcohol. With this news, I braced myself for the next disaster. A new 
U.C.L.A. study confirms that I had reason to expect one: recovering 
meth addicts who stay off alcohol and marijuana are significantly less 
likely to relapse.
    Two or so months later, the phone rang at 5 on a Sunday morning. 
Every parent of a drug-addicted child recoils at a ringing telephone at 
that hour. I was informed that Nick was in a hospital emergency room in 
Brooklyn after an overdose. He was in critical condition and on life 
support.
    After two hours, the doctor called to tell me that his vital signs 
had leveled off. Still later, he called to say that Nick was no longer 
on the critical list. From his hospital bed, when he was coherent 
enough to talk, Nick sounded desperate. He asked to go into another 
program, said it was his only chance.
    So without reluctance this time, Nick returned to rehab. After six 
or so months, he moved to Santa Monica near his mother. He lived in a 
sober-living home, attended meetings regularly and began working with a 
sponsor. He had several jobs, including one at a drug-and-alcohol 
rehabilitation program in Malibu. Last April, after celebrating his 
second year sober, he relapsed again, disappearing for two weeks. His 
sponsor, who had become a close friend of Nick's, assured me: ``Nick 
won't stay out long. He's not having any fun.'' Of course I hoped that 
he was right, but I was no less worried than I was other times he had 
disappeared--worried that he could overdose or otherwise cause 
irreparable damage.
    But he didn't. He returned and withdrew on his own, helped by his 
sponsor and other friends. He was ashamed--mortified--that he slipped. 
He redoubled his efforts. Ten months later, of course, I am relieved 
(once again) and hopeful (once again). Nick is working and writing a 
children's book and articles and movie reviews for an online magazine. 
He is biking and swimming. He seems emphatically committed to his 
sobriety, but I have learned to check my optimism.
    We recently visited Nick. His eyes were clear, his body strong and 
his laugh easy and honest. At night, he read to Jasper and Daisy, 
picking up ``The Witches'' where he left off nearly three years before. 
Soon thereafter, a letter arrived for Jasper, who is now 11. Nick 
wrote: ``I'm looking for a way to say I'm sorry more than with just the 
meaninglessness of those two words. I also know that this money can 
never replace all that I stole from you in terms of the fear and worry 
and craziness that I brought to your young life. The truth is, I don't 
know how to say I'm sorry. I love you, but that has never changed. I 
care about you, but I always have. I'm proud of you, but none of that 
makes it any better. I guess what I can offer you is this: As you're 
growing up, whenever you need me--to talk or just whatever--I'll be 
able to be there for you now. That is something that I could never 
promise you before. I will be here for you. I will live, and build a 
life, and be someone that you can depend on. I hope that means more 
than this stupid note and these eight dollar bills.''

    Senator Harkin. When I heard about your story, I remembered 
reading this just a couple months ago. So I will give it to you 
read when you leave here.
    Mr. Curie, again without sounding too parochial, why has 
meth become such a big problem in rural States? I mean, there 
was always a little bit of heroin--again, Vicki, you can chime 
in--some cocaine, marijuana yes, but nothing like meth, nothing 
like meth.
    Mr. Curie. I think it is the nature of how meth is created. 
It is not reliant on a specific drug trade. The ingredients are 
available in general stores in local communities. It can be 
produced in makeshift laboratories, actually on a kitchen 
stove. What we have been finding, that once it is produced in 
that sort of local, almost intimate way, that when people begin 
using it there is a network of friends and even family who are 
not going to be open about it and it becomes part of the social 
mores of a particular area and group.
    So it is a tougher illicit drug to address. So the low 
cost, the availability and the ease of manufacturing and then 
the mores seem to be the primary factors that just almost are 
like the perfect storm to make this a difficult drug to 
address. And the rural areas have been ripe for that.
    I think also the rural areas have had much more of a 
challenge around treatment and getting at that issue, because 
we have found that many of the approaches in treatment that 
were successful with cocaine are initially successful in 
helping to address meth. The urban areas had a major focus on 
cocaine and rural areas really did not have that problem, so 
they are somewhat starting from scratch in addressing this kind 
of issue in one sense.
    Plus it is always--growing up on a farm in Indiana and 
being a director of a center in rural Ohio, I also know 
firsthand how difficult it is to get treatment resources 
focused on the rural areas.
    So I think those, all those combined, contribute to this 
issue.
    Senator Harkin. I went on the web site yesterday. My staff 
told me how to find this. You can actually go on a web site and 
find how to make meth.
    Mr. Curie. Absolutely.
    Senator Harkin. All the ingredients are listed there step 
by step how to do it.
    Mr. Curie. It is very available. It is right there on the 
Internet. You could go right now and you can find several kinds 
of recipes. It is just mind boggling how accessible that is, 
and then how effective it is in terms of creating this drug. 
Then we heard from Ms. Sickels and also from Nora and the 
science and then the actual results, just the profound 
devastating impact this drug has on the human system, even 
compared to other illicit drugs that we know for years have 
been dangerous.
    Ms. Sickels. Senator Harkin.
    Senator Harkin. Yes, Vicki, just chime in.
    Ms. Sickels. Can I add a line with this question, because I 
would like to speak to this question, too. I think all that he 
said is true, but part of it has to do with the way meth acts 
on your brain, the way that it lifts you up above where you are 
at. So if you are in a dead-end job or an unsatisfying 
relationship or even I have people who come in and talk about 
they use because they have back pain or they relapse because 
they have been sick--it lifts you up above whatever emotional 
pain or physical pain or boredom. You kind of do not care.
    Then it is a vicious circle, because if you are in kind of 
a bad financial situation then you use, you do not really care. 
Then you lose your job, then you start to lose everything. As 
long as people stay high, they will let their electricity be 
shut off and their water be shut off, really living in horrible 
conditions, but as long as they have got meth they can kind of 
raise themselves above that and focus on their projects and it 
kind of does not matter.
    Senator Harkin. Amazing. Again, as long as we are on this 
line, how do young people, high school students--is it a 
progression? Is it like smoking and then drinking alcoholic 
beverages and then maybe marijuana? Is it a progression to 
meth?
    Ms. Sickels. That is kind of the way it worked with other 
drugs. I am not sure it is like that with meth.
    Senator Harkin. I am going to have everyone chime in on 
this.
    Mr. Curie. I was going to say, Nora can definitely speak to 
that in terms of the science. But I agree with Vicki. What we 
are seeing is what you just described as a normal progression 
you see with overall drug abuse and addictive behavior. For 
example, we know that youth who drink alcohol at the age of 15 
or younger are over four times more likely to have an addictive 
disorder.
    But because of the nature of this particular chemical and 
its highly addictive nature--and Nora is the most qualified to 
describe that in depth--it poses an overwhelming challenge in 
addressing the situation.
    Dr. Volkow. I think in general basically what we see is the 
progression from alcohol, cigarette smoking, marijuana, to 
other drugs. But what you have here is what is more accessible 
to kids, so when kids have access to tablets of methamphetamine 
actually readily available then that puts them in a very, very 
dangerous pathway, because not all of the drugs of abuse are 
the same vis a vis their addictiveness, and methamphetamine 
scores up on the top because of this direct effect of producing 
a massive, massive increase in dopamine.
    When dopamine is increased in your brain, what the brain is 
telling you is this is salient, this is extremely important for 
survival. That is what the nature message of dopamine is. So 
all of a sudden your brain is acting and it says: This is 
incredibly salient. That is the way that nature ensures for us 
to do things that are important for survival. So when you are 
hungry and you see food, dopamine gets activated and that 
ensures that you will do the behavior to engage in the food--
extremely important.
    So you are taking this drug that is telling your brain much 
more than any natural reinforcer, this is salient. So what 
happens is that these kids, they feel that they can do 
anything. But the problem is that then everyday things pale in 
comparison. So there is nothing that can compete with the drug. 
There is nothing that is going to make you feel as excited and 
as engaged as methamphetamine will.
    So the kid learns this and then the next time that they see 
it of course they are driven to it. So the drug is basically 
usurping the normal mechanisms by which nature ensures that we 
will repeat that given behavior, except that in this case the 
given behavior is take the drug. In others it is that you learn 
to get food, that you learn to get a partner, that you learn to 
take care of children. Dopamine is what actually motivates all 
of these behaviors, and the drug is directly doing this at what 
we call a supra, supra physiological level that is 5 to 10 
times higher than normally naturally reinforcers.
    That is why when a kid gets exposed to it it can be so 
dangerous. You have a highly, highly addictive drug.
    Mr. Steinberg. I was just going to say that the kids do not 
see it as being an addictive problem when they are first 
getting into it. They talk about it with each other. They do 
not see it as a long-term problem.
    Senator Harkin. Yes, they are young and they are strong and 
they can get over it.
    Mr. Steinberg. They are young and they are strong. They 
have that superman mentality and everything is fine and they 
are going to be just fine with it. It is just becoming so 
acceptable. It is used at rave parties, so all these different 
issues. They do not see it as an addictive issue.
    I guess that is a concern and a message, a prevention 
message on a national basis, that probably ought to be looked 
at more. But it is a very serious, serious issue and they are 
not seeing it as a serious issue.
    I think some of the problems we get into, Senator, is that 
a lot of times people think that if you are not injecting, 
needle use, it is probably not addicting. I think we have 
learned over the years. We used to have that in Vietnam. We 
were talking about that earlier. People used to smoke just 
heroin in Vietnam and they thought, well, at least they do not 
inject it. They did not realize how pure it was and how quickly 
they were becoming addicted. It was an issue and a real serious 
issue.
    These kids now are not maybe seeing it because maybe they 
are not injecting it on the first bounce.
    Senator Harkin. How do most young people start on meth? 
Smoking?
    Ms. Sickels. Snorting it, probably, is my guess.
    Senator Harkin. Snorting it, like cocaine or something like 
that?
    Ms. Sickels. Right, snorting it or eating it probably would 
be the first, yes.
    Here is another thing. I talked just briefly about the 
multigenerational kind of thing that is going on, but if 
parents have alcohol or even marijuana, I do not know, they 
probably kind of keep that separate. But a parent on meth is so 
disorganized that that is obvious to a kid. I watched more than 
one person that I knew as I was going through it start to use 
meth with their teenage kids. It is a learned thing that is 
going on in their household.
    Mr. Curie. To dovetail on that, what Vicki is talking about 
are the serious consequences beyond the addictive nature and 
what it does to the body, the social consequences. That is I 
think a classic example of what it does to the family.
    Also, we probably cannot calculate the cost of this drug. 
For example, I was aware ONDCP paid a visit to Vanderbilt 
University Hospital in Tennessee and out of the 20 victims in 
their burn unit 7 were due to methamphetamine lab accidents. 
That is $10,000 a day for a burn client, plus the devastation 
to that person.
    So when we are really trying to dig into the consequences 
of this, we probably do not even have a way of calculating 
that, but it is costing us dearly in a lot of ways.
    Senator Harkin. Dr. Volkow, back to the question that I 
kind of raised with Ms. Sickels. That is, it seems that even 
after you quit taking meth there are some residual effects that 
last for some time.
    Dr. Volkow. Yes, indeed. As a researcher, I was very 
interested in this question, because if you look at it from the 
perspective of studies and you say, well, which is the drug 
that is most toxic to the brain, methamphetamine scores 
probably on the top. In animals, a few exposures of two or 
three doses can produce destruction actually in some instances 
of the dopamine cells, which is of course what causes 
Parkinson's.
    So I was very interested in knowing to what extent people 
abusing methamphetamine are putting themselves at risk of a 
devastating disease such as Parkinson's. So I was intrigued by 
that, and we did document it. We found that with Parkinson's, 
the dopamine cells are dead. Patients with methamphetamine 
addiction are intermediate. But the concept, though, is that 
because they are intermediate they do not still have the 
symptoms classically of Parkinson's. But the question was are 
they at greater risk later on in their lives of becoming like 
Parkinson's patients? This relates to your question, does the 
brain recover?
    So we have been following these patients that actually are 
able to stay clean. Some when they receive treatment, as we 
say, treatment works and some patients do stay clean. To our 
surprise and the surprise of the field, we observed there was 
recovery. People did not believe it because they had assumed 
that the damage would be like Parkinson's disease.
    Recovery takes time.
    For example, this chart--see figure 3 in my prepared 
statement--is a person that has been tested 1 month and you see 
that it decreases here, the damage there. But it recovers at 24 
months. It takes a long time, 2 years, but you see they recover 
in this particular individual.
    In animal studies done in non-human primates, in monkeys, 
they have shown exactly the same thing, that if you wait long 
enough--12, 24 months--you can actually recover some of the 
damage, which is very, very good news, and that is the way that 
I put it forth.
    Senator Harkin. But is there a point where if you have been 
a meth abuser for a long time, is there a point where you just 
do not recover?
    Dr. Volkow. That is an absolutely important question. In 
animal studies, yes, to extent to which an animal can recover 
is dependent on the dose and the time that that animal has been 
exposed to the drug. So it is absolutely correct. There is a 
point of no return. If you produce damage that is long enough, 
then in animals they do not see the recovery.
    So your point is very well taken. It is actually a message 
that is very, very relevant to put forward. That is why I say 
it highlights the importance of treating such that the person 
can have a chance of recovery.
    Senator Harkin. Thank you.
    I do not have a lot of time left. Can we talk a little 
about prevention. I mean, I need to have you just tell me about 
your best ideas. Ms. Sickels, what are the best ways to prevent 
this? We know about treatment and we know that it is going to 
take a longer term than what we have had, so we have to have 
longer term treatment modalities to get them through.
    But how do we prevent this? Any thoughts on that?
    Dr. Volkow. I think that actually you are absolutely 
putting your finger on the fact that the main way of dealing 
with the issue is prevention. We have made prevention our 
number one priority exactly for the reason that is driving your 
question.
    Now, how do you prevent? We know that prevention works. 
Now, we have a perfect example of one of the most important 
prevention interventions that we have done in our society, 
which was cigarette smoking. We did prevention and it has paid 
off in an incredible way. It has increased the life expectancy 
of Americans, and the cost to the health care system has gone 
dramatically down.
    Why were we successful? We were successful because we had a 
systematic approach that involved clear identification of 
knowledge of the damage, that then affected policy, that then 
led to involvement of the educational system and industry, that 
actually ultimately generated the changes in behavior.
    Now, in terms of drugs, drugs of abuse and addiction starts 
in adolescence and, unfortunately, sometimes in children. So 
our prevention strategies have to target them because they are 
the most, most vulnerable. That requires again--and this was 
very clearly stated--involvement of the family, involvement of 
the school system and the community. I think that that is why 
Charlie's strategy is so efficient. They are saying: We cannot 
deal with the problem of drug addiction in isolation. We need 
to have a systematic involvement that can ultimately 
incorporate the individual in the community.
    I think that SAMHSA has taken a lead in this role, 
highlighting the importance of a multi-pronged approach in the 
strategy of prevention and also in treatment.
    Mr. Curie. I appreciate that very much, Nora. We have been 
working collaboratively together on our Strategic Prevention 
Framework at SAMHSA. NIDA is helping fund the evaluation 
process of that program. The systematic approach Nora is 
talking about we are trying to embody in the Strategic 
Prevention Framework, in which we are awarding State incentive 
grants to States. I think we are into 19 States now. Our goal 
ultimately is to be in every State. States will then embark 
with local communities on a process of, one, identifying all 
the prevention dollars that a community gets anyway, and there 
is a lot of prevention dollars they receive from SAMHSA, from 
HRSA, from CDC, from Justice, from Education; and then 
embarking on a process in that community to determine an 
assessment of the risk factors that exist in that community 
that contribute to their drug use. It could be the 
methamphetamine use more specifically in that area.
    Once they identify the risk factors, then identify 
protective factors. And then we have--and again, we have done 
this in conjunction with NIDA and our other Federal partners--
we have developed a National Registry of Effective Prevention 
Programs. Invest dollars in those prevention programs that we 
know have a track record in reducing substance abuse and those 
programs that represent the protective factors to address those 
risk factors in that community.
    For the first time, our goal is to have a baseline to start 
with in a community. We can evaluate the level of the meth use, 
for example, in that community, and over time see how our 
interventions of working collaboratively with the schools, with 
youth development organizations, 4-H, the YMCA's, Scouts, 
working also with the faith-based community, are having an 
effect. A community can have a strategy in place that is 
integrated, where dollars are augmenting each other's efforts, 
invested in evidence-based programs, and a community can speak 
as a whole as to what they are doing.
    Right now, as you know, as we are all too familiar with, 
historically we fund prevention programs and all programs, it 
seems, through silos. The Strategic Prevention Framework is to 
break the silos down at the local level. We think that is, as 
Nora just articulated quite well, how we fought tobacco. We 
need to do the same with methamphetamine and substances in 
general.
    I know I mentioned underage drinking earlier. That is 
another area and I think there is a connection to that to all 
of this as well. These things can be addressed with the 
Strategic Prevention Framework approach.
    Senator Harkin. I am going to go into that a little bit 
more. First I just want to recognize and welcome some students. 
[Senator Harkin signing]. I think you are from ISD. My brother 
graduated from ISD. I am proud to see you here today. Thank 
you.
    That is the Iowa School for the Deaf.
    I understand about everything you said, Mr. Curie. But 
just, I do not know, sometimes you have just got to put some 
meat on these bones. And how we get this down to the local 
level, how we get it into schools--you know, we have tried a 
lot of different things. I do not know how we get to young 
people.
    You have--your son is now how old?
    Ms. Sickels. My son is 14.
    Senator Harkin. 14. Okay, what do you tell him?
    Ms. Sickels. I tell him that other kids are going to 
experiment with drugs and alcohol and he does not have that 
luxury, that he has got the gene, and that he needs to wait 
until he is legal and drink responsibly and let other people 
experiment and tell them how dangerous it is. I do not know. 
That is all I can say.
    Senator Harkin. Are we doing a good enough job in our 
schools in terms of prevention, drug prevention, alcohol 
prevention? No?
    Ms. Sickels. They have people in, but no, I do not think 
so. Here is my thing. The high risk kids are the kids who have 
parents who are using. A lot of times, the people that I work 
with, most of them dropped out of school in tenth grade. Some 
of them started using when they were 12 years old. So I do not 
know. You have to target that prevention maybe, as Dr. Volkow 
said, earlier, target it earlier or somewhere else besides the 
schools.
    Dr. Volkow. I like that you say that you want to actually 
say have meat on things, and I agree that it could be much 
better there. For example, you know who is at great risk? Those 
kids with mental diseases, and this could be learning 
disability, attention deficit disorder, depression. The school 
can be alerted about it and also the pediatricians. So 
involving the medical community in early recognition is a very, 
very powerful one.
    Definitely, we can do much better prevention than what we 
are doing, and certainly by training teachers to identify those 
kids that are having trouble learning or that are having 
trouble to interact with other kids. That whole issue--if you 
want to bet, which kid can I predict is at higher risk, just 
with the knowledge we have now, you are good at betting at 
that, paying attention to these kids, because they are not 
doing properly, so they go in to try to get drugs to feel 
better and that initiates the whole process.
    Mr. Curie. We all need to do more. The schools cannot do it 
alone. The schools need to be working in conjunction with the 
community and they need to be setting the tone in the 
community.
    When Nora was talking about the progress we made with 
tobacco, take a look at the progress we have made with other 
illicit drugs. What is important is that we have a consistent 
message and repeat it over and over again, at younger ages, 
making it part of the norms that this is unacceptable.
    I think Vicki articulated well in terms of the parental 
role. We are finding in our surveys that the stronger the 
message is from the parent in the home, the less likely the 
child is to experiment. So it is also empowering parents, 
educating parents, giving them the tools they need. So we also 
need to do concerted public education and reach out to parents, 
who really are up against it themselves in trying to deal with 
this.
    So that is why you also hear us, I think, talk about the 
multifaceted approach. Yes, we need to have engagement in the 
schools and we need to continue to have a reinforced message 
and we need to do more, but it has got to be the community as a 
whole supporting the schools in that effort, and all those 
institutions in the community communicating the same message.
    The other thing on prevention is, because of the 
accessibility of the ingredients for methamphetamine, we see 
States now passing laws to make those ingredients less 
accessible.
    Senator Harkin. We did in Iowa, yes.
    Mr. Curie. I think that is a major prevention aspect of the 
meth problem in particular, because if someone can buy sizable 
amounts of ingredients from your local store and it is not 
being monitored or flagged or it is easily accessible without 
there being more of a monitoring, it just makes the drug much 
more accessible ultimately overall.
    So I think we need to take a look at those States that are 
passing laws, take a look at what impact that is making, and 
look at potentially other States moving in that direction. 
Target stores I believe came out this past week indicating they 
are voluntarily trying to implement those things reflected in 
State laws nationally, and I think they need to be applauded 
for doing that.
    So I think getting the message out around what we can do to 
not make this as an accessible drug is another very important 
part of the prevention effort.
    Senator Harkin. Just again for the record, I want to note 
that we do not have anyone here from the Education Department. 
We have had a Safe and Drug-Free Schools and Community State 
grant program. Again, it is for all substances, not just meth. 
This year the amount of money that we appropriated for that was 
$437 million. The budget that we were sent down zeroed that 
out, and I just do not think that we ought to be moving in that 
direction.
    Speaking of budgets now, since this is the Appropriations 
Committee, we have the substance abuse block grant, $1.8 
billion, level funded. That is for all substances. We have 
Access to Recovery, the voucher program that you talked about.
    Access to Recovery is for all substances. Then we had a 
Prevent Meth Abuse Program that we had focused on here and we 
put money into 12 States. It was $14 million over a couple of 
years. That is zeroed out.
    Again, I have not added all this up. I do not know whether 
what we are looking at next year is less than what we have done 
in the past. I do not know. So the totality--so the totality of 
the funding that we are putting into SAMHSA is going to be less 
next year than it was last year, I think, but I am not certain.
    Mr. Curie. Yes, sir. For all three centers--mental health, 
substance abuse, prevention, and treatment--there is about a 
1.5 percent overall reduction. As you know, it is a tough 
budget year, we are trying to prioritize and move ahead.
    Under substance abuse treatment, though, we are looking at 
an overall increase of 7, right around 7 percent. Part of that 
has to do with again Access to Recovery being a major focus. 
Where we believe Access to Recovery is critical in addressing 
the meth issue is that States, particularly those rural States 
we are talking about where it is a problem, they are encouraged 
to prioritize what the specific drug problem is in their area.
    For example, to point to Tennessee and Wyoming as two 
States that did receive Access to Recovery awards, they 
prioritized addressing meth as a major issue. So most of the 
funding to those States are going toward that problem. We are 
encouraging other States to examine it.
    Around the prevention approach we are taking in SAMHSA, 
again we are looking at the meth problem to be addressed in the 
Strategic Prevention Framework because again risk factors are 
risk factors, and we need to--what I think in the past we have 
failed to do is to really work and empower States and 
communities to embark upon identifying what is contributing to 
their specific problem. That is what we want to fund.
    So in our move to systemic change, we are moving away from 
just addressing some individual drugs in a targeted capacity 
expansion type of approach. We are trying to learn from what we 
have found in that and bring systemic change across the country 
and allow States flexibility then to gear their treatment and 
prevention efforts around the drugs they see emerging in their 
areas. Meth obviously is a major priority for those rural 
States.
    Senator Harkin. But this committee made a decision--I will 
not just say this committee; I think the House too--made a 
decision a couple years ago or so to focus money on meth 
because it was rising so rapidly and, as you say, easy to make, 
accessibility of the stuff, and I think there was kind of a 
collective judgment on the part of the committee here that we 
should really put money in there directed at meth. So that is 
where we are coming from on this. So we see when that directed 
money is zeroed out, I think some of us get a little concerned 
about it.
    But what you are saying basically is that the overall thing 
is up and it is up to States to decide how they want to focus 
on it?
    Mr. Curie. We will work with States in making informed 
decisions about what the data is saying and about what they are 
experiencing, and we take the information we learn from 
specific approaches, such as the grants structured toward meth, 
see how we could bring them to systemic change in working with 
providers.
    Senator Harkin. OK, that's good. That's fair.
    Mr. Steinberg. Senator, on this, from a provider in the 
field and operating in six States and the trust territory of 
Virgin Islands, the money we're concerned about on this is a 
big issue, because as you start to see things zero-out and it 
gets back out to where we're at and it's reduced--we have an 
issue that's in our Nation, and we addressed it in the 1980s, 
we still have an epidemic proportion of problems going on.
    Prevention monies are cut. Some of our programs we've had 
out there have been cut back. This is a terrible situation.
    You know, years ago we used to joke about it. There used to 
be an oil commercial, you know, ``Change the oil now--pay me 
now or pay me later.'' The cost to what's going to happen by 
not having the money on the front end for prevention and 
treatment, and the research that goes into this, is just going 
to be terrible in the nation later on.
    The health care costs are already way up on this issue, and 
are outside of the norm. The incarceration rates are way up 
behind this--law enforcement systems.
    We have a real problem going on as a nation behind this and 
I think it's really, I understand, kind of, balanced budgets, 
but the front end of this major issue on a national basis, to 
have it cut in any way and not expanded--it should have been 
expanded, let alone zeroed-out or stopped.
    We have people just waiting to get in treatment, and if you 
don't have treatment on demand--and I just want to address that 
for a second. People don't always just want to come to 
treatment just because they feel like they ought to get 
treatment today. There's certain episodes that come to them and 
they find and determine that they want to come to treatment. If 
they can't get a bed or a treatment slot somewhere, they don't 
necessarily the next day decide they want to go back to 
treatment.
    It's not like cancer where they want to just keep lining 
up. They go back out, they commit robberies, they do other 
things to support a habit, or they lie and cheat within their 
own family to go and keep their habit going, depending on where 
the money's coming from.
    We have a real issue with that and it's not going away. 
There's been some dips and we've made some progress as a 
Nation, but it didn't go away. And I think my concern is that 
when you get a little bit of help somewhere and they go, ``Oh, 
we're on the right direction now. We can cut the funding,'' 
that just goes right back out to cause some major problems for 
us. And I'm real concerned about not having those funds in 
there for all the disciplines on the front end.
    We seem to always come up with more money for law 
enforcement and interdiction, but, you know, meth's a key 
thing. We're just opening up a project in rural Kentucky and I 
didn't even really know where I was going with this. I got 
invited into the State to work on a program, and a judge there 
explained something to me. He says, you know, ``I looked at a 
fishing tackle box different than I used to'' because recently 
he found out it was a portable meth lab.
    You know, so you've got issues going everywhere. And my 
concern is that we can't stop the front end--the funding coming 
in on this area. If we don't do the prevention and education 
and the treatment, we're just shooting ourselves in the foot 
and we're going to be coming back in 5 and 10 years with a much 
worse problem. And it's a terrible problem now.
    Senator Harkin. I appreciate that. Yes, I'm concerned about 
getting more of that front end prevention also. And I hope this 
committee will look hard at that. I'm sure we will.
    I think I can speak for Senator Specter. He's also deeply 
concerned about the up-front funding for the prevention 
aspects. We've talked about that.
    I have to go and I want to close this up.
    Ms. Sickels, I hope you don't mind me asking this question, 
but I'd just like to know, I mean, do you ever worry about 
relapsing? Do you ever worry? Or do you feel you're beyond 
that?
    I mean, you're now counseling people, you're working with 
people. Does it ever come back to you?
    Ms. Sickels. Sometimes I make the statement that you 
couldn't pay me a million dollars to do that stuff again. But 
I'm not so foolish as to think that I couldn't be vulnerable 
again and in the wrong place at the wrong time again. And I 
know how tricky it is. So I work very hard to keep myself from 
becoming emotionally vulnerable and away from the places where 
it might be laid out in front of me.
    Senator Harkin. Does the fact that you were addicted at one 
time, the patients that you're working with, does it, kind of, 
help gain trust? Do they respond?
    Ms. Sickels. Without a doubt, it absolutely does.
    Senator Harkin. I can imagine that.
    Ms. Sickels. I know people who have been through treatment 
who are also on track. They are in school, becoming counselors. 
I think that it makes a difference to people, especially meth 
addicts. I do not know that it does to other addicts, but it 
makes a difference.
    Senator Harkin. Good.
    Well, this has been very informative and very instructive, 
and I appreciate your all being here today. This is a funding 
aspect that this committee will wrestle with. I might also just 
add parenthetically also that in some of the research aspects 
of finding interventions, I know NIH is doing some research, in 
terms of finding things that would intercept a drug, where if 
you are a drug addict, where you take something which makes you 
react so that when you take the drug you get an adverse 
reaction.
    Dr. Volkow. That is what we are doing with--we have 
vaccines to attack cocaine and to attack nicotine.
    Senator Harkin. Yes.
    Dr. Volkow. Monoclonal antibodies; we have it now for 
methamphetamines, but they only work if you take a huge dose 
and you become very sick. We can revert those effects. We do 
not have a vaccine for--we do not yet have a vaccine for 
methamphetamine. But at least we can actually reverse that 
acute intoxication. It is exactly the line of thinking that you 
are asking, something that can interfere with the effects of 
the drug going into the brain.
    Senator Harkin. But that research is ongoing now?
    Dr. Volkow. Absolutely, yes.
    Senator Harkin. Well, thank you again, Mr. Steinberg, Ms. 
Sickels, Dr. Volkow, Mr. Curry. Thank you very much for your 
leadership in this area.

                    ADDITIONAL SUBMITTED STATEMENTS

    We have receive additional submitted statements that will 
be included in the record at this point.
    [The statements follow:]

  Prepared Statement of the Community Anti-Drug Coalitions of America

                               BACKGROUND

    Over the last several years, the level of methamphetamine (meth) 
use in the United States has risen among adults and declined among 
adolescents. According to the 2003 National Survey on Drug Use and 
Health, 5.2 percent or 12 million Americans have used meth in their 
lifetimes.\1\
---------------------------------------------------------------------------
    \1\ Office of Applied Studies, The Substance Abuse and Mental 
Health Service Administration's (SAMHSA's) 2003 National Household 
Survey on Drug Use and Health.
---------------------------------------------------------------------------
    Meth production, use and addiction have adversely impacted many 
American communities. Meth can be produced in small, clandestine labs, 
whose toxicity harm children and poses significant risks to law 
enforcement officials and the environment. Meth can be easily made 
using readily available materials, such as ammonia, batteries, starter 
fluid and ephedrine pills. Rates of meth use vary greatly from region 
to region, with the highest prevalence seen throughout the Pacific, 
Southwest and West Central portions of the country. Meth availability 
is currently on the rise in the Great Lakes and Southeast regions as 
well as in the gay communities in major urban areas across America.\2\
---------------------------------------------------------------------------
    \2\ ONDCP Drug Policy Information Clearinghouse. Methamphetamine. 
November 2003. Available at http://www.whitehousedrugpolicy.gov/
publications/pdf/ncj197534.pdf
---------------------------------------------------------------------------
    Using meth causes the body to release high levels of dopamine, a 
neurotransmitter that enhances mood and body movement. Short-term 
physical reactions to meth include increased wakefulness, physical 
activity, respiration, hyperthermia and decreased appetite. Long-terms 
risks include cardiovascular collapse and decreased dopamine levels, 
which can lead to Parkinson's disease-like symptoms.\3\
---------------------------------------------------------------------------
    \3\ National Institute on Drug Abuse (NIDA). ``NIDA InfoFacts: 
Methamphetamine.'' Available at: http://www.nida.nih.gov/Infofax/
methamphetamine.html Revised June, 2004.
---------------------------------------------------------------------------
    Preventing meth use among our nation's youth must be a priority in 
order to reduce its costs and consequences. There are three major 
domains of prevention that are most effective: parents, schools and 
communities. Research shows that each domain needs to be reinforced by 
the other two for the greatest impact to be achieved. Consequently, it 
will never be enough to put the responsibility solely on the parent, 
the child, the school or the community. There needs to be a 
comprehensive blend of individually and environmentally focused 
prevention efforts. Multiple strategies across multiple sectors of a 
community are the most effective way to reduce drug use, in general, 
and meth use in particular.
    There have been a core set of substance abuse prevention programs 
across federal agencies that have complemented each other in raising 
awareness about meth and its consequences on individuals, families, 
communities and the environment. With the exception of the Center for 
Substance Abuse Prevention's (CSAP) Strategic Prevention Framework /
State Incentive Grant (SPF/SIG) program and the Office of National Drug 
Control Policy's (ONDCP) Drug Free Communities (DFC) Support program, 
most of these programs are slated for elimination in the President's 
fiscal year 2006 budget request. Specifically, the President's fiscal 
year 2006 request proposes the elimination of the State Grants portion 
of the Safe and Drug Free Schools and Communities (SDFSC) program 
(-$441 million); the CSAP methamphetamine grant program (-$1.9 
million); and the Drug Enforcement Administration (DEA) Demand 
Reduction program (-$9 million).
significant outcomes from the state grants portion of the sdfsc program
    The State Grants portion of the Safe and Drug Free Schools and 
Communities (SDFSC) program is the primary source of federal funding 
for school based prevention that directly targets all of America's 
youth in grades K-12 with drug education, prevention and intervention 
programming. The program funds essential and effective services 
including: peer resistance and social skills training, student 
assistance, parent education and education about emerging drug trends. 
This program has contributed to significant reductions in meth use 
among school-aged youth in many of the states that have been hardest 
hit by the meth epidemic. For example:
    California.--Between 1997 and 2002 the California Safe and Drug 
Free Schools and Communities program contributed to a decrease of 52.9 
percent in past 30 day meth use among 9th graders. In 1997, 3.4 percent 
of respondents reported using meth in the past month, while in 2002 
only 1.6 percent of respondents had used meth (California Student 
Survey, 1997 & 2002).
    Hawaii.--Between 1998 and 2002 the Hawaii Safe and Drug Free 
Schools and Communities program contributed to a decrease of 37.3 
percent in lifetime meth use among 10th graders. In 1998, 6.7 percent 
of respondents reported using meth in their lifetime, while in 2002 
only 4.2 percent of respondents had used meth (Hawaii Student Alcohol, 
Tobacco and Other Drug Use Study, 2002).
    Idaho.--Between 1996 and 2004 the Idaho Safe and Drug Free Schools 
and Communities program contributed to a decrease of 51.9 percent in 
lifetime meth use among 12th graders. In 1996, 10.4 percent of 
respondents reported using meth in their lifetime, while in 2004 only 
5.0 percent of respondents reported meth use (Idaho Survey, 1996 and 
SDFS Survey, 2004).
    Iowa.--Between 1999 and 2002 the Iowa Safe and Drug Free Schools 
and Communities program contributed to a decrease of 50.0 percent in 
past 30 day meth use among 6th, 8th and 11th graders. In 1999, 2.0 
percent of respondents reported using meth in the past 30 days, while 
in 2002 only 1.0 percent of respondents had used meth (Iowa Youth 
Survey, 1999 & 2002).
    Kansas.--Kansas' Safe and Drug Free Schools and Communities program 
contributed to a decrease of 54.3 percent in past 30 day meth use among 
8th graders, down from 2.19 percent in 1997 to 1 percent in 2003 
(Kansas Communities that Care Survey, 2003).
    Maryland.--Maryland's Safe and Drug Free Schools and Communities 
program contributed to a decrease of 47 percent in past 30 day meth use 
among 8th graders, down from 1.9 percent in 1998 to 1.0 percent in 2002 
(Maryland State Department of Education's Maryland Adolescent Survey, 
2003).
    Pennsylvania.--Between 2001 and 2003 the Pennsylvania Safe and Drug 
Free Schools and Communities Support Program contributed to a decrease 
of 31.8 percent in lifetime meth use among 12th graders. In 2001, 4.4 
percent of respondents reported using meth in their lifetime, while in 
2003 only 3.0 percent of respondents had used meth (Pennsylvania Youth 
Survey, 2003).
    Washington.--Between 2000 and 2002 the Washington Safe and Drug 
Free Schools and Communities Support Program contributed to a decrease 
of 17.2 percent in past 30 day meth use among 12th graders. In 2000, 
2.9 percent of respondents reported using meth in their lifetime, while 
in 2002 only 2.4 percent of respondents reported using meth 
(Washington's Healthy Youth Survey, 2000 & 2002)
    The Administration's proposal to eliminate the State Grants portion 
of the SDFSC program would decimate the nation's school based substance 
abuse prevention infrastructure. Rural and frontier communities, where 
meth production and use inflict the greatest harm, would be left with 
virtually no school based drug prevention programming. The SDFSC 
program is the cornerstone of all school based drug prevention and 
intervention activities. Without it there would be no staff in our 
nation's schools whose responsibility is to provide general drug 
education and specialized programming for specific drugs such as meth.

        THE DRUG-FREE COMMUNITIES PROGRAM (DFC) REDUCES METH USE

    Community anti-drug coalitions are broad based groups consisting of 
multiple community sectors that use their collective energy, experience 
and influence to address the drug problem in their neighborhoods, 
cities and/or counties. These coalitions develop comprehensive, 
community-wide strategies for addressing every aspect of their 
substance abuse problems, including prevention, intervention, 
treatment, aftercare and law enforcement, but with a particular focus 
on prevention. The DFC program funds community anti-drug coalitions to 
address their locally identified drug problems. DFC grantees are 
required to provide a dollar for dollar match of non federal support 
for every federal dollar they receive. In addition, the grantees are 
required to be data driven and comprehensive in their mix of community 
partners and the strategies they implement.
    The success of meth prevention efforts hinges upon the extent to 
which schools, parents, law enforcement and other community groups work 
comprehensively and collaboratively through community-wide efforts to 
implement a full array of education, prevention, enforcement and 
treatment initiatives. The SDFSC program acts as a portal into our 
nation's schools for community partners to access K-12 students and 
also provides the school based representation in community anti-drug 
coalition efforts.

Project Radical in Reinbeck, Iowa
    Project Radical, a DFC grantee, has achieved impressive reductions 
in meth use in Reinbeck, Iowa. The successful strategies used by this 
coalition to address meth, included an important school based component 
funded by the SDFSC program.
    The Project Radical Coalition contributed to a decrease in past 
thirty day meth use by 12th graders, down from 5 percent in 1999 to 0 
percent in 2003, resulting in a 100 percent rate of change (American 
Drug and Alcohol Survey, 2003).
    Between 2004 and 2005, the Project Radical Coalition contributed to 
an increase of 3.2 percent in the number of 11th graders who reported 
NEVER using meth in the past thirty days. In 2004, 96.1 percent of 
students had not used meth in the last 30 days, while in 2005, 99.2 
percent reported that they had not used meth in the past 30 days (The 
Culture and Climate Survey, 2005).
    To achieve these results, the Project Radical Coalition 
collaborated with multiple community partners. In conjunction with 
SDFSC coordinators, the coalition developed a state certified mentoring 
program and became a certified SAFE (Substance Abuse Free Environment) 
community. Funding from the SDFSC program was used to purchase and 
implement science-based curricula for the Strengthening Families, 
Project Alert and Life Skills Training prevention programs. Through 
collaboration with community members, local businesses and law 
enforcement officials, Project Radical was able to implement the 
MethWatch program in their community. The MethWatch program promotes 
cooperation between retailers and law enforcement to curtail the theft 
and suspicious sales of products used to manufacture meth. In addition, 
the cooperation of multiple community sectors also helped to create the 
Get a Grip program, which focuses on youth substance abuse screening, 
intervention and treatment referrals.
Phillips County Coalition for Healthy Choices in Malta, Montana
    Another example of the significant outcomes that can be achieved 
when multiple community sectors, including schools, law enforcement, 
parents, the media and service organizations, collaborate to address 
meth use is the Phillips County Coalition. This DFC grantee contributed 
to reducing the number of 7th and 8th graders in Phillips County, 
Montana who reported using meth in the last thirty days at a rate of 
37.5 percent, from 3.2 percent in 1999 to 2.0 percent in 2003. This is 
a significant reduction when considering that the average thirty day 
use of meth in middle schools throughout the state of Montana is 4.6 
percent.
    To achieve these successes the coalition implemented numerous 
strategies aimed at the reduction of methamphetamine use, including 
school based activities, public service announcements, local news 
coverage, parent education and community-wide training opportunities to 
provide the public with accurate information about the effects of meth 
production and use.

                               CONCLUSION

    Reducing meth use among youth requires the collaboration of 
multiple community sectors, including schools, parents, youth, law 
enforcement, the faith community, business leaders and social service 
providers. This comprehensive approach is necessary in order to provide 
parents, youth and other community members with the information and 
skills necessary to understand the multiple risks and harms associated 
with meth production and use.
    Research from the National Institute on Drug Abuse (NIDA) has 
confirmed that as the perception of risk associated with a particular 
drug rises, use of that drug declines. Collaborative approaches at the 
local and state levels between the SDFSC program, the DFC program, the 
SPF/SIG program and DEA's Demand Reduction Program have raised 
awareness about the harmfulness of meth and led to the implementation 
of comprehensive community wide strategies and programs to address meth 
production, sale and use. The combined efforts of these federal 
programs have had significant results in reducing meth use among youth 
in states and communities across America.
    This is NOT the time to eliminate funding for the State Grants 
portion of the SDFSC program, CSAP's methamphetamine grant program or 
the DEA Demand Reduction Program! These programs are all necessary 
components of more comprehensive, community-wide efforts to reduce and 
effectively address meth use and its consequences in communities across 
America.
                                 ______
                                 
  Prepared Statement of the National Association of State Alcohol and 
                       Drug Abuse Directors, Inc.

    Chairman Specter, Ranking Member Harkin, Members of the committee, 
my name is Lewis E. Gallant, Ph.D., and I serve as Executive Director 
of the National Association of State Alcohol and Drug Abuse Directors 
(NASADAD). Thank you for holding this hearing today regarding 
methamphetamine and its impact on American families and communities. We 
sincerely appreciate the resources this Committee has dedicated to 
prevention, education, treatment, research and recovery programs. As 
you examine further actions regarding methamphetamine, we offer our 
support and commitment and look forward to working with you and others 
on this important issue.
    People Can and Do Recover from Methamphetamine Addiction.--If there 
is but one message to take home from today's hearing, it is this: 
people can and do recover from methamphetamine addiction. Indeed, 
methamphetamine may present unique challenges for our State systems. 
However, studies have shown that clinically appropriate services 
(screening, assessment, referral, individualized treatment plans within 
the appropriate level of care and for the indicated duration of 
treatment, along with aftercare and other supports) provided by 
qualified staff help people with methamphetamine addiction enter into 
recovery.
    Core Recommendations.--There is no doubt that a comprehensive 
approach is needed to address the problems associated with 
methamphetamine. In addition to prevention, treatment and recovery 
support services, other entities that must be part of the answer 
include law enforcement, schools, child welfare representatives, 
businesses, and others. For this hearing, NASADAD would like to offer 
the following core recommendations as you consider action on 
methamphetamine:
  --Federal Funding for Prevention and Treatment Services
  --Coordination with the Single State Authorities (SSAs) for Substance 
        Abuse
  --Public Outreach and Education Regarding Methamphetamine Addiction
  --Federal Support for Research
  --Information Dissemination for Curriculum, Staff Training, Best 
        Practices
    NASADAD Members and Mission.--NASADAD represents State Substance 
Abuse Agency Directors--also known as Single State Authorities (SSAs) 
for Substance Abuse. SSAs have the front line responsibility for 
managing our nation's publicly funded prevention and treatment service 
system--including the Substance Abuse Prevention and Treatment (SAPT) 
Block Grant. NASADAD's mission is to promote effective and efficient 
State substance abuse service systems.
    NASADAD Policy Priorities.--NASADAD's key policy priorities for 
2005 are to (1) strengthen State substance abuse systems and the office 
of the Single State Authority (SSA), (2) expand access to prevention 
and treatment services, (3) implement an outcome and performance 
measurement system, (4) ensure clinically appropriate care, and (5) 
promote effective policies related to co-occurring populations.
    What is Methamphetamine?.--Methamphetamine is an addictive 
stimulant that impacts the central nervous system. The drug can be 
smoked, injected, inhaled or swallowed. As noted by the Council of 
State Governments' (CSG) in Drug Abuse in America--Rural Meth (2004), 
``Although the main source in the United States is Mexican drug 
trafficking organizations, small, clandestine meth labs have popped up 
by the thousands all over the country and account for more than half of 
labs seized by enforcement.'' In many cases, methamphetamine is 
manufactured using common household chemicals in makeshift laboratories 
by extracting pseudoephedrine or ephedrine from cold medicine. Other 
ingredients can include anhydrous ammonia, lithium metal strips torn 
from batteries, and red phosphorous found in matches. According to 
Michigan's Methamphetamine Control Strategy (2002), $80.00 spent at a 
pharmacy and hardware store can buy ingredients to make an ounce of 
methamphetamine worth $1,000.
    Quick History.--Methamphetamine is not a new drug. According to 
Methamphetamine in Missouri 2004, a policy brief written by Missouri's 
Division of Alcohol and Drug Abuse, ``The amphetamine family of drugs 
was first introduced to the medical field in the 1930's as a nasal 
decongestant. Amphetamine was used in Japan during World War II to 
provide soldiers energy and to prevent sleepiness. Eventually, the drug 
was made available to the public, and amphetamine abuse was widespread 
in Japan among young people.'' The report then notes that amphetamine 
abuse did not become pronounced in the United States until the 1960s.
    Methamphetamine Use and Prevalence.--According to the National 
Survey on Drug Use and Health (NSDUH), approximately 12.3 million 
Americans ages 12 or over tried methamphetamine in 2003. The Drug Abuse 
Warning Network (DAWN), which monitors drug use reports in emergency 
departments in certain parts of the country, detected a steep rise in 
methamphetamine related visits over the past 10 years--with 
approximately 15,000 in 1995 compared to 39,000 in 2002.
    The Substance Abuse and Mental Health Services Administration 
(SAMHSA) reported that in more than three-quarters of Western States, 
methamphetamine/amphetamine-related treatment admissions rates are 
higher than cocaine- or heroin-related admissions rates (Arkansas, 
Arizona, California, Hawaii, Iowa, Montana, North Dakota, Nebraska, 
Nevada, Oklahoma, Oregon, South Dakota, Utah, Washington, Wyoming). 
Although States report data in different ways, some specific reports 
from Single State Authorities show the following:
    Iowa's Division of Health Promotion, Prevention and Addictive 
Disorders noted that methamphetamine treatment admissions were 4,745 or 
10.7 percent of all admissions in fiscal year 2001; 5,297 or 12.3 
percent of all admissions in fiscal year 2002; 5,585 or 13.2 percent of 
all admissions in fiscal year 2003; and 6,170 or 14.5 percent of all 
admissions in fiscal year 2004.
    Idaho's Substance Abuse Program reported that methamphetamine 
clients in the publicly funded system represented 16 percent of all 
admissions in 1997 and 34 percent of all admissions in 2004.
    Washington's Division of Alcohol and Substance Abuse reported that 
in 1993, there were 579 admissions for individuals with methamphetamine 
as their primary drug of abuse--representing 1.5 percent of all 
admissions. In 2003, there were 5,994 such admissions--representing 20 
percent of all admissions. For youth, 3 percent of all admissions were 
methamphetamine users in 1999. In 2003, 9 percent of all admissions for 
youth were methamphetamine users. In all, between 1994 and 2000, 
Statewide admissions for amphetamine /methamphetamine addiction 
increased 600 percent.
    Louisiana's Office for Addictive Disorders reported that there were 
1,119 total admissions for methamphetamine in State fiscal year 2004. 
According to the State's Communities that Care survey, 8 percent of 
high school seniors tried methamphetamine at least once in 1998 
compared to 9.8 percent in 2001. Between 2000 and 2003, methamphetamine 
emergency department mentions almost doubled (from 27 to 53). In Region 
VII, Bossier City police seized 1,103 grams of methamphetamine in 2002 
with a street value of $110,260.
    Hawaii's Alcohol and Drug Abuse Division reported that in State 
fiscal year 2001, there were 763 admissions for methamphetamine. By 
State fiscal year 2003, there were 1,156 admissions.
    Nevada's Bureau of Alcohol and Drug Abuse (BADA) reported the 
following admissions for clients using methamphetamine as their primary 
substance of abuse: 2,232 in 1999--representing 21 percent of all 
admissions; 2,494 in 2000; 2,608 in 2001; 2,792 in 2002; 3,300 in 2003 
and 3,550 in 2004--representing 29 percent of all admissions.
    The Texas Division of Mental Health and Substance Abuse reported an 
increase in the percentage of methamphetamine admissions to State-
funded treatment centers over the last 4 years, 10.5 percent of total 
admissions in 2004 compared to 5 percent of total admissions in 2000.
    California's Department of Alcohol and Drug Programs reported 
72,959 admissions for methamphetamine from July 2003 through June 30, 
2004. This compares with 3,853 admissions for amphetamine/
methamphetamine clients in 1986. Total methamphetamine mentions in 
emergency rooms increased 43.1 percent from 1998 (2,123) to 2002 
(3,038).
    Colorado's Alcohol and Drug Abuse Division reported that 
methamphetamine treatment admissions doubled between 1999 (1,541 
admissions) and 2003 (3,189 clients). Overall, methamphetamine clients 
in 2003 represented 23.3 percent of all admissions in the State--
overtaking cocaine users (21.9 percent) for the first time.
    Utah's Division of Substance Abuse and Mental Health reported that 
58 clients were admitted for methamphetamine addiction in 1991. In 
2004, there were 5,484 methamphetamine treatment admissions.
    Missouri's Division of Alcohol and Drug Abuse reported that there 
were 716 methamphetamine treatment admissions in 1995--and 3,607 in 
2003. Approximately 64 percent of these admissions in 2003 reported 
their first use at age 21 or younger and 48.5 percent of referrals came 
from the criminal justice system.
    While the methamphetamine is indeed a problem in the West, DAWN 
noted that ``. . . recent data suggest that the problem may be 
spreading eastward.''
    Studies Show People Can and Do Recover from Methamphetamine 
Addiction.--As noted earlier, the number one message to take home from 
today's hearing should be that people can and do recover from 
methamphetamine addiction. Richard A. Rawson, Ph.D., a noted expert in 
methamphetamine from UCLA, remarked:

    ``Interestingly, a pervasive rumor has surfaced in many geographic 
areas with elevated methamphetamine problems. The rumor is that 
methamphetamine users are virtually untreatable with negligible 
recovery rates. Rates from 5 percent to less that 1 percent have been 
quoted in newspaper articles and been reported in conferences on 
methamphetamine. The resulting conclusion is that spending money on 
treating methamphetamine users is futile and wasteful. When asked about 
the source of such numbers, speakers are uncertain about their origin. 
In fact, no data exists. The fact that methamphetamine users bring new 
clinical challenges into treatment settings appears to have been 
translated into spurious statistics'' (Challenges in Responding to the 
Spread of Methamphetamine Use in the U.S., 2005).

    One study funded by the Center for Substance Abuse Treatment (CSAT) 
included an eight-site evaluation of methamphetamine treatment. In 
particular, an outpatient approach called the ``Matrix Model,'' which 
has been used for over ten years, was examined. This regimen involves a 
16 week non-residential, psychosocial approach used for drug 
dependence. In 2004, Dr. Rawson and his colleagues found that people 
entered into recovery using both the Matrix Model and other approaches. 
Specifically, at discharge and follow-up points, between 57 percent and 
68 percent reported no methamphetamine use for the previous 30 days.
    Outcomes data provided by SSAs also demonstrate that services can 
and do help people addicted to methamphetamine. Although States collect 
data in different ways, some examples include:
    Iowa's Division of Health Promotion, Prevention and Addictive 
Disorders points to a 2003 evaluation of a CSAT funded Targeted 
Capacity Expansion (TCE) Grant that it received specifically for 
methamphetamine treatment. The evaluation found that 71.2 percent of 
the study's clients using methamphetamine remained abstinent for 6 
months after treatment and 75.4 percent of clients were abstinent one 
year after treatment. The report also found that 90.4 percent of 
methamphetamine clients had not been arrested 6 months after treatment 
and 66.7 percent were working full time one year after treatment. A 
one-page overview of research findings in Iowa is attached.
    Washington's Division of Alcohol and Substance Abuse points to an 
analysis of the federally funded TOPPS 2 grant, where it was found that 
there were no statistically significant differences in outcomes between 
adult methamphetamine users and those using other substances. In 
particular, there were no differences in treatment readmission (18.9 
percent for methamphetamine users and 20.5 percent for non 
methamphetamine users); no differences in employment (49.2 percent of 
methamphetamine users gained employment while 49 percent of non 
methamphetamine users gained employment); and methamphetamine users 
receiving treatment had fewer hospital admissions compared to others 
(6.8 percent of methamphetamine users were admitted to hospitals after 
treatment while 10.7 percent of non methamphetamine users were admitted 
to hospitals after treatment).
    Nevada's Bureau of Alcohol and Drug Abuse (BADA) reported that out 
of the 1,664 clients addicted to methamphetamine who completed 
treatment in 2004, 92.9 percent (1,546 clients) were drug free at 
discharge.
    The Texas Division of Mental Health and Substance Abuse examined 
data describing 2004 methamphetamine clients. For outpatient 
methamphetamine clients completing treatment, 78 percent reported 
abstinence 60 days after discharge. For non-methamphetamine outpatient 
clients completing treatment, 80 percent reported abstinence 60 days 
after discharge. In examining 2004 data for residential methamphetamine 
clients completing treatment, 77 percent reported abstinence 60 days 
after discharge. For non-methamphetamine clients completing residential 
treatment, 78 percent reported abstinence 60 days after discharge. 
Finally, the Division examined outcomes for publicly funded 
methamphetamine clients over a four year period (2001, 2002, 2003 and 
2004). The data found that 88 percent of methamphetamine clients 
reported abstinence 60 days after discharge.
    Missouri's Division of Alcohol and Drug Abuse reported findings 
from a 2000 TOPPS II study comparing methamphetamine clients with those 
who did not have a methamphetamine problem. The evaluation found, at 6 
months and 12 months after admission, no substantial outcome 
differences between methamphetamine users and other drug and alcohol 
users. In fact, 80 percent of the methamphetamine users reported that 
they were satisfied with treatment while 61 percent of the comparison 
group reported satisfaction with treatment.
    Colorado's Alcohol and Drug Abuse Division reported that 80 percent 
of methamphetamine users were meth-free when discharged from treatment 
compared to 70 percent of clients who did not use their drug of choice 
when discharged after treatment.
    Utah's Division of Substance Abuse and Mental Health reported that 
for State fiscal year 2004, 60.4 percent of methamphetamine admissions 
were reported to have successfully completed treatment. Of those 
methamphetamine users completing treatment, 60.8 percent reported being 
abstinent at discharge.
    Tennessee's Bureau of Alcohol and Drug Abuse reported a 2002-2003 
study that specifically examined stimulant abuse among publicly funded 
clients in Tennessee, including abuse of amphetamine/methamphetamine, 
found that over 65 percent of clients reported that they were abstinent 
six months after admission. In addition, the percentage of those 
working full time quadrupled, from 9.6 percent to 45.8 percent; the 
proportion of those living with their immediate family increased from 
12 percent before treatment to 50.6 percent; and while 66.9 percent of 
clients had arrest records two years prior to treatment, only 11.4 
percent of clients had been rearrested 6 months after admission.
    South Dakota's Division of Alcohol and Drug Abuse reported that 
approximately half (45.1 percent) of methamphetamine clients in the 
study were abstinent one year after treatment in 2003. During that same 
year, methamphetamine clients experienced fewer arrests after treatment 
compared to 12 months before admission in the following categories: 
driving while intoxicated, disorderly conduct, assault or battery, 
theft, possession of drugs, and sale of drugs. Before treatment, nearly 
two-thirds of methamphetamine clients had been jailed overnight, but 
this rate declined to 10.8 percent for those who remained abstinent one 
year post treatment.

                        SPECIFIC RECOMMENDATIONS

    Federal Funding for Prevention and Treatment Services.--NASADAD is 
very appreciative of this Committee's history of providing increased 
and sustained federal resources for treatment and prevention services. 
As we look at services for methamphetamine prevention and treatment, 
just as we look at services for all substances causing addiction, there 
are a number of programs within SAMHSA that are critical. SAMHSA, under 
the leadership of Administrator Charles Curie, is working on a number 
of fronts to address this important issue. Below is an overview of 
these key programs and funding recommendations for fiscal year 2006 
that stem from consensus reached by a number of national organizations 
that focus on addiction and recovery.
    The Substance Abuse Prevention and Treatment (SAPT) Block Grant is 
the foundation of our publicly funded prevention and treatment system. 
NASADAD recommends $1,847,000,000 in fiscal year 2006 for an increase 
of $71 million, or 4 percent, compared to fiscal year 2005. The SAPT 
Block Grant provides assistance to our most vulnerable populations--
including those with methamphetamine addiction--to help them secure the 
services they need. In 2001, the SAPT Block Grant provided support to 
over 10,500 community-based organizations across the country. In 
addition, a 20 percent prevention set-aside within the SAPT Block Grant 
supports prevention services. This prevention set-aside helps our youth 
steer clear of alcohol and drugs--including methamphetamine.
    Federal support is also needed for the Center for Substance Abuse 
Treatment (CSAT), which is led by Dr. H. Westley Clark. NASADAD 
recommends $472 million for CSAT for fiscal year 2006. This includes 
$150 million for the President's Access to Recovery (ATR) drug 
treatment voucher program--for an increase of $50 million over fiscal 
year 2005. ATR is a competitive grant designed to expand access to 
clinical treatment and recovery support services.
    CSAT's Targeted Capacity Expansion (TCE) program is another federal 
tool that increases access to methamphetamine treatment. As part of the 
Methamphetamine Anti-Proliferation Act of 2000, the Director of CSAT 
was authorized to award grants directly to State Substance Abuse 
Agencies to specifically address the problem of methamphetamine. 
NASADAD recommends a strong investment in this specific mechanism.
    Work also must be done to support the Center for Substance Abuse 
Prevention (CSAP) to ensure a strong and coordinated methamphetamine 
prevention strategy. NASADAD is very concerned with the proposed $14.4 
million cut to CSAP and recommends that $210 million be appropriated 
for CSAP in fiscal year 2006--for an increase of $11 million over 
fiscal year 2005.
    Within the fiscal year 2006 proposed budget, NASADAD applauds CSAP, 
and the work of Director Beverly Watts Davis, for planning to increase 
the number of Strategic Prevention Framework State Incentive Grants 
(SPF SIGs). In particular, CSAP plans to provide $93.4 million for an 
increase of approximately $8 million over fiscal year 2005 in order to 
support a total of 32 grants (25 continuations and seven new). NASADAD 
recommends any fiscal year 2006 increase for CSAP be dedicated to the 
goal of awarding a SPF SIG grant to every State in the country.
    Coordination with Single State Authorities (SSAs).--As noted above, 
State Substance Abuse Directors, also known as Single State Authorities 
(SSAs), manage the publicly funded treatment and prevention system. 
Their job is to plan, implement and evaluate a Statewide comprehensive 
system of clinically appropriate care. Every day, SSAs must work with a 
number of public and private stakeholders given the fact that addiction 
impacts everything from education, criminal justice, housing, 
employment and a number of other areas. As a result, Federal 
initiatives regarding methamphetamine should closely interact and 
coordinate with SSAs given their unique role in planning, implementing 
and evaluating State addiction systems.
    An illustration of the collaborative work done by SSAs is their 
interaction with the child welfare system. It is estimated nationally 
that substance abuse is a factor in 40 percent to 80 percent of child 
welfare caseloads, with approximately two-thirds of parents or primary 
care givers involved in the child welfare system requiring substance 
abuse treatment. Despite the need for services, existing treatment 
capacity can only meet less than one-third of the demand. The funding 
recommendations included in this testimony will help support necessary 
treatment--and help reunite families.
    As we look at methamphetamine in particular, children are indeed 
impacted every day. According to policy brief issued by Carnevale 
Associates, 3,419 children were endangered by methamphetamine 
production in 2003. The Office of National Drug Control Policy (ONDCP) 
reports that there were 14,260 methamphetamine lab-related incidents in 
fiscal year 2003. Children were present at 1,442 of these incidents 
while 1,447 children resided in the labs. With this in mind, NASADAD 
encourages close collaboration between law enforcement, social 
services, child welfare agencies and SSAs to ensure child safety, 
protection and permanency, effective methamphetamine addiction 
treatment for family members, and elimination of home-based 
methamphetamine labs.
    Public Outreach and Education Regarding Methamphetamine 
Addiction.--More must be done to educate the public regarding the fact 
that people can and do recover from methamphetamine addiction. Forums 
such as this hearing will be critical to making progress in addressing 
the false perceptions of methamphetamine and addiction treatment. In 
addition, support for prevention programs in our schools is a vital 
part of this education and outreach.
    One important federal program that helps our efforts to prevent 
methamphetamine use before it starts is the Department of Education's 
(Dept. Ed) Safe and Drug Free Schools and Communities--State Grants 
Program. For fiscal year 2006, the Administration proposed to 
completely eliminate the SDFSC State Grants program--representing a cut 
of $441 million. NASADAD recommends a complete restoration of these 
funds so that the program may continue to reach an estimated 37 million 
youth annually and share tools that will help youth remain drug free.
    Another important tool is SAMHSA's Treatment Improvement Protocols 
(TIP) series. For methamphetamine use, SAMHSA's TIP 33, Treatment for 
Stimulant Disorders, gives substance use disorder treatment providers 
with vital information about the effects of stimulant abuse and 
dependence, discusses the relevance of these efforts to treating 
stimulant users, describes treatment approaches that are appropriate 
and effective, and makes specific recommendations on the practical 
application of these treatment strategies.
    Federal Support for Research.--Congress should continue its strong 
support of research at the National Institute on Drug Abuse (NIDA) so 
that we may learn more about the impact methamphetamine and the 
potential promise of medication as an adjunct to methamphetamine 
treatment. In particular, NASADAD recommends $1,067 million for NIDA 
for an increase of $60.4 million over fiscal year 2005.
    NIDA-supported research has led to a greater understanding of the 
impact of methamphetamine on the brain. In particular, NIDA researchers 
have discovered that methamphetamine damages nerve terminals in the 
dopamine- and serotonin-containing regions of the brain. NIDA has also 
established the Methamphetamine Clinical Trials Group (MCTG) to conduct 
clinical trials of medications for methamphetamine in States where the 
drug is particularly popular. Finally, NIDA's research served as the 
foundation for the Matrix Treatment model, which has been effective in 
treating methamphetamine dependence.
    NASADAD commends NIDA for joining CSAT to sponsor a series of 
meetings to focus on how to translate research into every day practice. 
Specifically, discussions are examining the link between SSAs and 
NIDA's Clinical Trials Network (CTN). NIDA and CSAT also sponsored a 
session at NASADAD's 2004 Annual Meeting in Maine and will sponsor a 
session at the 2005 Annual Meeting in Florida. Finally, we are pleased 
with the NIDA/SAMHSA Request for Applications (RFA) designed to 
strengthen SSAs capacity to support and engage in research that will 
foster Statewide adoption of meritorious science-based policies and 
practices. These activities will be important tools that will inform 
our efforts related to methamphetamine.
    Information Dissemination.--Federal support for State-to-State 
information sharing regarding curriculum development, staff training 
and other best practices is critical--and may help prevent certain 
States from experiencing the level of methamphetamine use that some 
Western States have seen for years.
    A vital tool in addressing methamphetamine prevention, treatment 
and recovery is the Addiction Technology Transfer Centers (ATTCs). 
ATTCs, funded by SAMHSA, began in 1993 and have grown into a national 
network with fourteen regional centers (including Pennsylvania, Iowa, 
Texas, Nevada, Illinois) and a national office serving all fifty 
states. The mission of the ATTC network is to bridge the gap between 
alcohol and drug treatment scientists and substance abuse treatment 
practitioners. Simply put, ATTCs help translate the latest science into 
actual practice.
    ATTCs sponsor conferences and workshops to expose substance abuse 
counselors to current research-based practices, offer academic programs 
and coursework in addiction, provide technical assistance, conduct 
workforce studies, coordinate leadership activities, develop training 
curricula and products, and create online courses and classes. The 
ATTCs coordinate activities to recruit individuals to enter the 
addiction treatment field and to develop strategies to help retain the 
current workforce.
    Two useful tools already generated by the ATTCs relating to 
methamphetamine include Methamphetamine 101--the Etiology and 
Physiology of an Epidemic, along with Methamphetamine 102--Introduction 
to Evidence-Based Treatments both available at http://www.psattc.org.
    NASADAD remains concerned with the Administration's proposal to cut 
the ATTC program by approximately $1.6 million (from $8,166,000 to 
$6,606,000) compared to fiscal year 2005. NASADAD recommends restoring 
this proposed cut to the ATTC program.
    Support for Regional and State Summits.--Although methamphetamine 
use is more prevalent in the West, studies demonstrate that the drug 
has made its way across the country and remains a concern of all 
States. Specific challenges remain that are unique to individual States 
and regions of the country. For some States that have not yet seen a 
spike in methamphetamine admissions, action is being taken now to 
ensure coordinated plans are in place to address any potential trends. 
For example, Vermont recently held a Methamphetamine Summit and 
Educational earlier this year to provide training on methamphetamine 
prevention and treatment strategies. This meeting included members of 
the law enforcement community; public health agencies; community 
coalitions and others. Strong federal support to help convene regional 
meetings of SSAs and others would help facilitate information 
specifically about methamphetamine--and could allow certain areas of 
the country to stop the problem before it starts.

                               CONCLUSION

    NASADAD appreciates the opportunity to provide input on this 
important issue. We look forward to working with the Committee, SAMHSA 
and others as we move forward.

              [From the Iowa Department of Public Health]

Iowa Evaluations Support Basic Message: With Treatment, People Recover 
                     From Methamphetamine Addiction

    Background.--Two studies done in Iowa (Iowa Adult Methamphetamine 
Treatment Project--Final Report, 2003 and Iowa Outcomes Monitoring 
System (IOMS)--Iowa Project, 2004) demonstrate that treatment for 
methamphetamine addiction is effective. Key findings are below.
    Treatment is effective in stopping methamphetamine use.--The 2003 
report found that 71.2 percent of the clients using methamphetamine 
remained abstinent 6 months after treatment and 75.4 percent of clients 
were abstinent one year after treatment. The 2004 report found that of 
those who were interviewed 6 months after their discharge, 65.5 percent 
of methamphetamine users were abstinent, 53.3 percent of marijuana 
users were abstinent, and 43.9 percent of those admitted for alcohol 
abuse were abstinent.
    Treatment helps those in recovery from methamphetamine addiction 
stay out of jail.--The 2003 report found that 90.4 percent of 
methamphetamine clients had not been arrested 6 months after treatment 
and 95.7 percent of methamphetamine clients interviewed one year after 
treatment had not been arrested during the previous 6 months. The 2004 
study found that in the six months after treatment, 86 percent of 
methamphetamine users had not been arrested, 90.7 percent of alcohol 
users had not been arrested, 79.2 percent of cocaine users were not 
arrested, and 86.8 percent of marijuana users were not arrested. These 
rates compare to 30.9 percent of clients who had not been arrested in 
the 12 months prior to treatment.
    Treatment helps people get back to work.--The 2003 report found 
that 54.8 percent of the methamphetamine clients were working full time 
6 months after treatment while 66.7 percent were working full time one 
year after treatment. The 2004 report found that the percentage of 
those employed full time increased by 16.7 percent for all clients.
    While longer treatment periods improve outcomes, results for 
patients treated for approximately 60 days or less are still 
impressive.--The 2003 study found that methamphetamine clients 
interviewed 6 months after discharge who had longer lengths of 
treatment (more than 90 days) were almost one and a third times more 
likely to remain abstinent and about one and a half times more likely 
to be employed full time. The 2004 study found that the average 
methamphetamine patient was treated for 65.9 days. In general, patients 
with a range of addiction problems who were treated for longer periods 
of time were more likely to be abstinent: 41.8 percent for 31-60 days, 
47.6 percent for 61-90 days, 54.4 percent for 91-120 days and 62.4 
percent for more than 120 days.

                           ABOUT THE STUDIES

    Iowa Adult Methamphetamine Treatment Project--Final Report, 2003.--
The Iowa Department of Public Health (IDPH) received a three-year grant 
(1999-2002) from the Substance Abuse and Mental Health Services 
Administration's (SAMHSA) Center Substance Abuse Treatment (CSAT) to 
expand and study the treatment of methamphetamine addiction in Polk 
County, Iowa. Approximately 76 percent of the 306 clients participated 
in the follow-up study.
    Iowa Outcomes Monitoring System (IOMS)--Iowa Project, 2004.--The 
Iowa Consortium for Substance Abuse Research and Evaluation released a 
study regarding 832 randomly selected clients who were admitted to 
treatment during 2003. In all, 83 declined to participate. Of those 
remaining, 582 were selected for follow-up interviews 6 months after 
discharge, of which 362 were completed.
                                 ______
                                 
        Prepared Statement of the Heartland Family Service, Inc.

    Chairman Specter, Ranking Member Harkin, and members of the 
Subcommittee, Heartland Family Service appreciates the opportunity to 
submit this testimony concerning the problem of methamphetamine abuse 
as it affects Southwest Iowa.
    Heartland Family Service is a non-profit, 501(c)(3), non-sectarian 
human services agency that has served Southwest Iowa since 1977. The 
agency is committed to low and moderate-income families and offers a 
variety of programs to strengthen individuals and families through 
education, counseling and support. Service is provided in 
Pottawattamie, Harrison, Crawford, Monona, Shelby, Mills, Cass, 
Montgomery, Page and Fremont counties, Iowa.
    While methamphetamine use is not a new epidemic in Iowa, the 
problem continues to grow at an alarming rate. Furthermore, the rate at 
which methamphetamine is manufactured in Southwest Iowa is even more 
alarming. When added to the already evident problems presented by the 
use of other substances such as alcohol, cocaine and marijuana, it 
becomes apparent that something must be done. The following statistics, 
according to Iowa's Drug Control Strategy for 2002, show substance 
abuse trends in Iowa (ODCP, 2001). Statistics for 2002 were obtained 
directly from the Iowa Department of Public Health.

      ADULT SUBSTANCE ABUSE TREATMENT SCREENINGS/ADMISSIONS BY PRIMARY DRUG OF ABUSE FOR THE STATE OF IOWA
----------------------------------------------------------------------------------------------------------------
                                                                  1999         2000         2001         2002
                                                               (percent)    (percent)    (percent)    (percent)
----------------------------------------------------------------------------------------------------------------
Alcohol.....................................................         65.4         65.9         63.0         60.9
Marijuana...................................................         12.3          8.2         17.6         18.2
Methamphetamine.............................................          9.1         10.6         12.1         13.7
Cocaine/Crack...............................................          6.3          7.8          5.3          4.7
Other/Unknown...............................................          6.9          7.5          2.0          2.5

----------------------------------------------------------------------------------------------------------------
Source: Iowa's Drug Control Strategy 2002.

    As the U.S. Department of Justice National Drug Threat Assessment 
2002 indicates, methamphetamine production began spreading eastward in 
the mid- to late 1990's in order to keep pace with growing demand, and 
it has become increasingly available in the eastern United States 
(NDIC, 2001). Users have now learned simple production methods to 
produce their own supply, and according to the Iowa Department of 
Public Health, methamphetamine labs in Iowa have become a serious, 
growing concern (IDPH, 2002a).
    Also during the 1990's, methamphetamine began to replace cocaine as 
the drug of choice for many of Iowa's illicit drug users. Not only is 
this drug less expensive and more readily available than cocaine, but 
its effects last for eight to twelve hours, as compared to cocaine 
which lingers for only one to two hours. Consequently, according to the 
Iowa Department of Public Safety, methamphetamine remains the major 
drug of choice in Iowa (IDPS, 2001). The following chart illustrates 
the trend in Clandestine Laboratory seizures by the Iowa Department of 
Public Safety from 1996 through 2001 (Fourth Judicial, 2002).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Also according to the Fourth Judicial Research Initiative (which 
closely examined drug prevalence in nine counties of Southwest Iowa in 
comparison to the entire state of Iowa), as of December 31, 2001, an 
additional 257 labs had been investigated by local and county agencies 
throughout the entire state. The combined total of clandestine 
laboratories seized by state, local and county departments, for 2001, 
was 768. These seizures doubled in one year (Fourth Judicial, 2002). 
Furthermore, the Office of National Drug Control Policy reported that 
as of February 2002, there were already 61 clandestine laboratories 
seized in Iowa (ONDCP, 2002b). These seizures reflect reported 
occurrences throughout the entire state, not just for the metropolitan 
areas. In addition, preliminary figures for 2001 reported by the Iowa 
Department of Public Health show that of the 42 methamphetamine-related 
hazardous substances emergency releases in the state, 18 occurred in 
the Southwest Iowa region (IDPH, 2002b).
    Researchers for the Fourth Judicial District Research Initiative 
also examined data regarding admissions to drug treatment centers 
throughout the state and in the local area. By analyzing Substance 
Abuse Treatment Data (Admission/Screening Data) regularly collected by 
the State of Iowa, it was determined that there were 64,673 screen 
assessments and admissions for treatment' (including duplicated screens 
and admissions) in the entire state of Iowa during 2001. Of these, 
2,817 occurred in the Fourth Judicial District--comprised of nine 
southwestern Iowa counties listed in the table below (Fourth Judicial, 
2002). While this data addresses only nine of the fifteen counties to 
be served by this grant, it demonstrates trends for the entire 
Southwest Iowa region.

              LOCAL TREATMENT ASSESSMENT AND ADMISSION DATA
------------------------------------------------------------------------
                                                          2001 number of
             Fourth judicial district county              total screens/
                                                              admits
------------------------------------------------------------------------
Audobon County..........................................              93
Cass County.............................................             247
Pottawattamie County....................................           1,568
Fremont County..........................................              59
Harrison County.........................................             164
Mills County............................................             189
Montgomery County.......................................             214
Page County.............................................             340
Shelby County...........................................             163
                                                         ---------------
      Total.............................................           2,817

------------------------------------------------------------------------
Source: Fourth Judicial District Research Initiative Examining Drug
  Prevalence in the Recent Arrestee Population.

    From this data, it is clear that the southwestern portion of the 
State of Iowa has a higher than expected number of treatment 
admissions. Specifically, statewide data indicated an overall state 
average of 653.2 screen assessments and admissions per county for the 
entire year; however, the number evidenced in the Fourth Judicial 
District was 2.4 times greater (Fourth Judicial, 2002).
    In this same research initiative, the counties of the Fourth 
Judicial District were examined in relation to the overall state to 
determine how Southwest Iowa's drug crime trends compare to the overall 
state. Illustrated in the following chart are the results of these 
analyses utilizing drug offense rates per 100,000 people (Fourth 
Judicial, 2002). (As all counties may not have regularly reported to 
the State of Iowa Incident Based Reporting System from where this data 
was originally derived, calculations were not possible for the Fourth 
Judicial District for 1999.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Indicated by these statistics, drug crime trends in Southwest Iowa 
readily outnumber official drug rates when compared to the state.
    Methamphetamine, otherwise known as ``crank,'' poses such a huge 
threat because of its availability and the severe physiological effects 
associated with its use. The violence and environmental damage 
associated with the production, distribution, and use of the drug 
render it the third greatest drug threat. (NDIC, 2001.) This drug is a 
highly addictive central nervous system stimulant. Physiological 
effects include increased heart rate, elevated blood pressure, elevated 
body temperature, increased respiratory rate, and pupillary dilation, 
as reported by the U.S. Department of Health and Human Services (CSAT, 
1999). Addiction, psychotic behavior, and brain damage (similar to that 
caused by Alzheimer's disease, stroke, and epilepsy) are additional 
effects of methamphetamine use. Its extreme psychological and physical 
addiction, as well as its depletion of necessary chemicals in the 
brain, pushes the user into paranoia, physical degeneration and 
violence. The degenerative effects may be long lasting or even 
permanent. (ONDCP, 2002a.)
    This synthetic drug can be a powerful stimulant. It jump-starts the 
central nervous system and causes increased activity and alertness in 
the user. It can give the user an illusion of great control and mastery 
over life. For many, the pleasure and power are so great they find 
themselves using despite the negative consequences to their body, mind 
and spirit.
    Drug treatment providers are continually seeking more effective 
ways to treat methamphetamine use and addiction. According to the U.S. 
Department of Health and Human Services, research has not yet 
demonstrated the optimal duration, frequency, and format of treatment 
for stimulant addiction (CSAT, 1999).
    A Needs Assessment in a fifteen targeted county area identified the 
lack of substance abuse treatment facilities as a concern. Currently, 
there are only fifteen residential beds to serve the entire Southwest 
Iowa area. There are no halfway house services, specializing in 
programming for methamphetamine users.

                      TOTAL DRUG OFFENSES BY COUNTY
------------------------------------------------------------------------
              County                   1998         1999         2000
------------------------------------------------------------------------
Audobon..........................            3            2            1
Cass.............................           79           59           44
Fremont..........................            5            9           13
Harrison.........................           58           59           71
Mills............................            8           43           79
Montgomery.......................           82           80           74
Page.............................           48           28           21
Pottawattamie....................          971          869         1174
Shelby...........................           11            1  ...........

------------------------------------------------------------------------
Source.--Fourth Judicial District Research Initiative Examining Drug
  Prevalence in the Recent Arrestee Population.

    A PROMISING APPROACH TO THE CRISIS: THE HALFWAY HOUSE INITIATIVE

    As one important initiative to address the methamphetamine 
epidemic, Heartland Family Service has proposed a Southwest Iowa 
Methamphetamine Treatment Program, also known as the Halfway House 
initiative, to assist healthcare agencies and the courts by providing 
services to women and children in methamphetamine abuse cases. 
Heartland is seeking funds to implement this initiative in fiscal year 
2006.
    This project will be a collaborative effort between Heartland 
Family Services, the Iowa Department of Human Services, the courts, and 
other social service agencies. It is a clinically managed low-intensity 
residential service for substance abuse patients, using Heartland 
Family Service's established residential treatment and counseling 
facilities.
    The Halfway House program offers women an interim residential 
treatment service, and at the same time allows them to continue 
parenting their children. Treatment is directed toward applying 
recovery skills, preventing relapse, promoting personal responsibility 
and reintegrating the patient into work, education and family life. 
Services include individual, group and family therapy.
    This level of care is a missing piece in the substance abuse 
treatment continuum of care in Southwest Iowa. Patients who complete 
residential programming ordinarily go directly home and receive 
outpatient treatment. To prevent relapse, many of these patients would 
benefit from a monitored interim treatment setting. Each patient has 
clinical oversight by a professional counselor who assesses the 
psychosocial history of a substance abuser to determine the most 
appropriate treatment plan.
    Heartland Family Service sincerely appreciates the opportunity to 
present its views about the severity of the methamphetamine abuse 
problem.
                                 ______
                                 
             Prepared Statement of the Legal Action Center

    The Legal Action Center respectfully requests that this statement 
be entered into the official record for the Senate Appropriations 
Subcommittee on Labor, Health, and Human Services and Education and 
Related Agencies hearing on methamphetamine abuse, held on April 21, 
2005. We appreciate the opportunity to submit testimony on this 
critical issue and its connection to fiscal year 2006 funding for 
alcohol and drug addiction prevention, treatment, education, and 
research programs. The Legal Action Center is a non-profit law and 
policy organization that works to reduce alcohol and drug addiction and 
abuse and the harm it causes to millions of individuals and their 
families and friends by providing legal assistance to people in 
recovery or still suffering from addiction and programs that serve them 
to fight discrimination and violations of privacy, and conducting 
public policy advocacy and research to expand prevention, treatment and 
research and to promote other sound policies.

                  METHAMPHETAMINE ABUSE AND ADDICTION

    According to the 2003 Substance Abuse and Mental Health Services 
Administration (SAMHSA) National Survey on Drug Use and Health (NSDUH) 
the incidence of methamphetamine use rose between 1992 and 1998 but 
since then there have been no statistically significant changes. 
However the NSDUH also indicates that approximately 12 million 
Americans have tried methamphetamine, with the majority of past-year 
users between 18 and 34 years of age. Additionally, women make up 47 
percent of all treatment admissions for methamphetamine, which is a 
much greater percentage than admissions associated with most other 
drugs. According to the National Institute on Drug Abuse (NIDA), 
methamphetamine abuse and production continue at high levels in Hawaii, 
west coast areas, and some southwestern areas of the United States and 
unfortunately is continuing to spread eastward to urban, suburban, and 
rural areas at a pace unrivaled by any other drug in recent times.
    Just as addiction to alcohol and other drugs is treatable, 
addiction to methamphetamine is treatable as well. Despite contrary 
media accounts and common misconceptions, methamphetamine is not a 
``new'' drug and individuals who are addicted to methamphetamine have 
been successfully treated for years. Research from SAMHSA's Center for 
Substance Abuse Treatment indicates the following results:
  --Methamphetamine use decreased 69 percent after treatment.
  --Employment of methamphetamine users increased 60 percent after 
        treatment.
  --Housing status increased about 24 percent.
  --Arrests decreased about 38 percent.
  --The number of clients reporting good or excellent health increased 
        about 30 percent after treatment.
    Results from the 2003 Iowa Adult Methamphetamine Treatment Project 
also found the following:
  --71.2 percent of the clients using ``meth'' remained abstinent 6 
        months after treatment and 75.4 percent of clients were 
        abstinent one year after treatment.
  --90.4 percent of the clients had not been arrested 6 months after 
        treatment and 95.7 percent of those interviewed one year after 
        treatment had not been arrested during the previous 6 months.
  --54.8 percent of the clients were working full time 6 months after 
        treatment while 66.7 percent were working full time one year 
        after treatment.
    Recent efforts by SAMHSA have increased access to treatment for 
methamphetamine addiction and, if properly funded, will continue to do 
so. These efforts include:
  --Providing Substance Abuse Prevention and Treatment Block Grant 
        (SAPTBG) funds, which a number of Western states are using to 
        address methamphetamine addiction.
  --Awarding $14 million over 3 years to fight methamphetamine-inhalant 
        abuse in 10 ten states, including Ohio, Iowa, Pennsylvania, New 
        Mexico, Texas, Hawaii, and Nevada; in addition, in fiscal year 
        2004, the Center for Substance Abuse Treatment (CSAT) awarded 
        $2.9 million in funds to 6 grantees to support programs focused 
        on methamphetamine. Three earmarked awards totaling $1 million 
        have been made to Iowa and Hawaii for methamphetamine-specific 
        programs.
  --Implementing the Strategic Prevention Framework (SPF) through the 
        Center for Substance Abuse Prevention (CSAP) for States to 
        identify geographic, demographic, and specific substance abuse 
        areas of greatest need.
  --Allowing States to focus on methamphetamine addiction through the 
        Access to Recovery (ATR) Program. Tennessee and Wyoming have 
        both focused their ATR funds on methamphetamine abuse and 
        addiction. Tennessee has a special focus on persons abusing or 
        addicted to methamphetamine in rural or Appalachia areas, 
        reaching out to community and faith-based organizations. 
        Wyoming is focusing on Natrona County, the county with the 
        second highest treatment need in the state and the ``epicenter 
        of the current methamphetamine epidemic.''
    Continued federal funding for these initiatives will help ensure 
that individuals who are addicted are able to access treatment for 
their illness. Additionally, it will aid the Administration's steady 
progress toward reaching its goal of lowering the rate of drug use by 
25 percent among youth and adults over five years.

           CLOSING THE TREATMENT AND PREVENTION SERVICES GAP

    According to the Substance Abuse and Mental Health Services 
Administration (SAMHSA) National Survey on Drug Use and Health (NSDUH), 
in 2003 approximately 22.2 million people age 12 or over needed 
treatment for an alcohol or illicit drug problem. However the 2003 
NSDUH also estimated that only 1.9 million of these individuals in need 
of treatment actually received specialty treatment, leaving 20.3 
million persons with either an alcohol or illicit drug problem needing 
but not receiving treatment. Additionally, youth around the nation are 
widely exposed to drug and alcohol use and may not receive access to 
comprehensive prevention services. Although we are encouraged by 
findings in the 2004 Monitoring the Future study that youth illicit 
drug use is gradually declining, we must continue to invest in the best 
treatment and prevention options and provide services that are 
evidence-based, ensuring that our wealth of science becomes 
incorporated into everyday practice.

   FIELD RECOMMENDATIONS FOR SUBSTANCE ABUSE PREVENTION, TREATMENT, 
          EDUCATION AND RESEARCH FUNDING FOR FISCAL YEAR 2006

    Our organization, in partnership with other advocates, urges 
Congress to adopt the following funding levels in fiscal year 2006 for 
alcohol and drug treatment, prevention, education, and research 
programs in the Substance Abuse and Mental Health Services 
Administration (SAMHSA), the Department of Education, and the National 
Institutes of Health. These investments will provide desperately needed 
services in communities across the country:
  --$1.847 billion for the Substance Abuse Prevention and Treatment 
        Block Grant, the foundation of the publicly supported 
        prevention and treatment system in this country.
  --$472 million for the Center for Substance Abuse Treatment (CSAT), 
        including $150 million for the Access to Recovery drug 
        treatment voucher program.
  --$210 million for the Center for Substance Abuse Prevention (CSAP).
  --$441 million to continue full funding for the Safe and Drug Free 
        Schools and Communities State Grants program.
  --$464 million for research at the National Institute on Alcohol 
        Abuse and Alcoholism (NIAAA) and $1.0671 billion for research 
        at the National Institute on Drug Abuse (NIDA).
    federal funding is essential to the prevention and treatment of 

                     SUBSTANCE ABUSE AND ADDICTION

    Programs that serve people with alcohol and drug addiction depend 
nearly exclusively on public funds. According to SAMHSA's National 
Expenditure Report released in March, public funding provides the vast 
majority of substance abuse expenditures, increasing from 62 percent in 
1991 to 76 percent in 2001. Private insurance represented only 13 
percent of addiction treatment expenditures in 2001, while it covered 
36 percent of all health care expenditures. Between 1991 and 2001 
private insurance payments for addiction treatment declined by an 
average of 1.1 percent annually. Without strong federal commitment to 
closing the treatment gap, educating young people about the importance 
of refraining from using illicit drugs and alcohol, and making further 
advances on the science of addiction, substance abuse will continue to 
be one of the nation's top health problems, causing more deaths, 
illnesses, and disabilities than most other preventable health 
conditions.
    Although the alcohol and drug addiction treatment system relies 
heavily on public funds, an extremely small percentage of health care 
spending is used for treatment. In 2001, of the $1.4 trillion spent on 
health care, an estimated $18 billion was devoted to treatment of 
alcohol and drug addiction. This amount constituted just 1.3 percent of 
all health care spending and a fraction of the economic and social 
costs of substance abuse: in 1998, the total economic costs of alcohol 
abuse were estimated to be $185 billion and the total economic costs of 
drug abuse were $143 billion, a total of $328 billion. These costs 
include medical consequences, lost earnings linked to premature death, 
lost productivity, motor vehicle crashes, crime, and other social 
consequences. Funding for addiction treatment is not even keeping pace 
with inflation. Expenditures on drug and alcohol treatment grew 1.7 
percentage points less than the growth rate of all health care.

IMPORTANCE OF FUNDING THE FULL CONTINUUM OF PREVENTION, TREATMENT, AND 
                                RESEARCH

    The Legal Action Center urges Congress to help improve access to, 
and the effectiveness of, services by increasing support for the 
following programs:
  --$1.847 billion for the Substance Abuse Prevention and Treatment 
        Block Grant.--The Substance Abuse Prevention and Treatment 
        (SAPT) Block Grant is the cornerstone of the nation's 
        prevention and treatment system, providing approximately half 
        of all public funding for treatment services, including 
        methamphetamine treatment. In 2002, the SAPT Block Grant served 
        1.9 million people; over 10,500 community-based organizations 
        receive Block Grant funding from the states. The Block Grant 
        also provides crucial support for the states' prevention 
        programs, designating 20 percent of the total funding for this 
        purpose. To help meet the pressing need for treatment and 
        prevention services and to provide resources to improve their 
        effectiveness, we urge Congress in fiscal year 2006 to fund the 
        SAPT Block Grant at $1.847 billion, a $71 million increase.
  --$472 million for the Center for Substance Abuse Treatment (CSAT), 
        including $150 million for the Access to Recovery drug 
        treatment voucher program.--Sustaining and increasing funding 
        for CSAT programming is essential to close the treatment gap. 
        Funding for the Best Practices portfolio within CSAT, which 
        supports effective treatment through the adoption of evidence-
        based practice, is critical in order to ensure that what is 
        learned about addiction through scientific research is 
        effectively shared with the treatment provider community. CSAT 
        supports this technology transfer through its Addiction 
        Technology Transfer Centers (ATTCs), which are located 
        regionally throughout the nation and provide training and 
        technical assistance to providers. In addition, funding for 
        CSAT's Targeted Capacity Expansion programs that address 
        specific and emerging drug epidemics, including methamphetamine 
        and/or underserved populations, such as youth, pregnant and 
        parenting women, and communities of color must be strengthened. 
        These CSAT funds enable states and regions dealing with 
        emerging needs, such as methamphetamine addiction or veterans 
        returning home in need of essential treatment services, to 
        appropriately address these needs. Ensuring that these programs 
        continue to receive support is critical, since many of these 
        programs locally do not receive traditional Block Grant 
        funding.
      We support the innovative approaches that SAMHSA has developed to 
        expand the continuum of services offered and the range and 
        capacity of providers. For example, the Screening, Brief 
        Intervention, and Referral to Treatment (SBIRT) program helps 
        to link primary care and emergency services providers with 
        treatment programs in order to target individuals, particularly 
        youth, whose abuse of alcohol and drugs is incipient. The new 
        Access to Recovery (ATR) program holds the promise of expanding 
        treatment capacity, providing aftercare and recovery support 
        services that are critical to the effectiveness of treatment, 
        and promoting the measurement of outcomes that help to improve 
        program effectiveness. We support the President's request to 
        increase funding for the ATR program at CSAT by $50 million, 
        funding the program at $150 million. Additional funding for the 
        Access to Recovery program would allow seven additional grants 
        to be funded. Like all new programs that are a departure from 
        previous approaches, it will take time for states to fully 
        implement the ATR program, and we urge patience in these first 
        two or three years of implementation.
  --$210 million for the Center for Substance Abuse Prevention 
        (CSAP).--Addiction is a disease that begins in adolescence; 
        research by the National Institute on Drug Abuse (NIDA) has 
        shown that if we can stop use and abuse before age 25, we will 
        significantly reduce the prevalence of addiction. Prevention 
        efforts are effective in deterring young people from using 
        illicit drugs and alcohol. We strongly support CSAP's Strategic 
        Prevention Framework to promote the use of performance 
        measurement by providers, expand collaboration across community 
        agencies, and support implementation of effective prevention 
        programs at the State and community levels. CSAP's Strategic 
        Prevention Framework will help communities to promote youth 
        development, reduce risk-taking behaviors, build assets and 
        resilience, and prevent problem behaviors across the life span.
  --$441 million to continue full funding for the Safe and Drug Free 
        Schools and Communities State Grants program.--The federal Safe 
        and Drug Free Schools and Communities Act Program is the 
        backbone of school-based prevention efforts in the United 
        States, and it is having a significant impact in many states. 
        We strongly urge the Subcommittee to support this program and 
        to maintain current funding for the State Grants. The SDFSC 
        program has had a significant impact on helping to achieve the 
        17 percent overall decline in youth drug use over the past 
        three years, documented by the 2004 Monitoring the Future 
        survey. According to recent data, upwards of 37 million youth 
        are served annually by programs funded through SDFSC. Cutting 
        the SDFSC program will leave millions of American children 
        without any drug education.
  --$464 million for research at the National Institute on Alcohol 
        Abuse and Alcoholism (NIAAA) and $1.0671 billion at the 
        National Institute on Drug Abuse (NIDA).--Research into the 
        causes, costs, treatment, and prevention of alcoholism and drug 
        addiction plays an important role in improving the quality of 
        services. Both agencies are taking steps to promote the 
        transfer of new research to practice, including collaboration 
        with SAMHSA, state agencies and providers.
      Over the past several years, NIDA has made extraordinary 
        scientific advances in understanding the nature of addiction, 
        such as those made through the use of imaging technologies like 
        positron emission tomography (PET scans), and through the 
        development of new treatment technologies and medications, such 
        as buprenorphine used to treat opiate addiction. Research on 
        addiction as a brain disease has been useful in the development 
        and testing of new science-based therapies. In regards to 
        methamphetamine NIDA has launched a number of initiatives to 
        support a comprehensive research portfolio on the drug and its 
        effects. NIDA's efforts to understand the science behind meth 
        and its effects has lead to the launching of a methamphetamine 
        medications development initiative as well as the establishment 
        of the Methamphetamine Clinical Trials Group (MCTG) both of 
        which will further the development of medications that are 
        effective for treatment.
      NIAAA also has conducted breakthrough research that has improved 
        clinical practice, with much of this research focusing on the 
        genetics, neurobiology, and environmental factors that underlie 
        alcohol addiction. NIAAA also has sought to use new information 
        about alcohol use to promote education and an effective public 
        health response to this problem.

                               CONCLUSION

    Methamphetamine abuse can be prevented and treatment for 
methamphetamine addiction does work. Increased federal support is 
essential to preventing alcohol and drug abuse and treating addiction. 
We appreciate the Subcommittee's focus on the critical issue of 
methamphetamine abuse. Thank you for your leadership.
                                 ______
                                 
      Prepared Statement of the Therapeutic Communities of America

    Therapeutic Communities of America respectfully requests that this 
written statement become part of the official record for the 
appropriations hearing before the Senate Appropriations Subcommittee on 
Labor, Health and Human Services, and Education on April 21, 2005 on 
Methamphetamine Abuse. TCA commends the Chairman and the Committee for 
their continued leadership to hold a hearing on this important issue.

              METHAMPHETAMINE AND THERAPEUTIC COMMUNITIES

    Therapeutic Communities of America (TCA) founded in 1975 as a non-
profit membership association, represents over 500 community-based 
programs across the country dedicated to serving those with substance 
abuse and co-occurring problems. Members of TCA are predominately 
publicly funded through numerous federal, State, and local programs 
across multiple agency jurisdictions.
    The ``2002 National Survey on Drug Abuse and Health'' Report stated 
that only 18.2 percent of all Americans over the age of 12 needing 
treatment actually received it. The use of Methamphetamine is becoming 
an epidemic in some areas of the United States and we need to help 
communities put in place evidence-based treatment services to fight 
this growing problem.
    Therapeutic communities have been successful in helping many 
addicted individuals, often thought to be beyond recovery, secure a way 
out of self-destructive behavior. There is a myth that methamphetamine 
cannot be treated with success. Methamphetamine can and is being 
treated. Historically, TCs have been extremely effective at adapting 
their programs to provide effective care as drug use trends change. 
While TCA strongly commends Congress' focus on methamphetamine abuse, 
we believe that such efforts could be strengthened with a greater 
emphasis on treatment. It is critical that methamphetamine legislation 
include provisions providing for treatment funds. These funds are 
especially crucial because of the nature of the methamphetamine 
epidemic--the drug is mostly present in rural communities, where 
evidenced-based treatment services tend to be scarce or limited.
    All legislation on methamphetamine needs to include the call for 
research, treatment demonstration grants, and overall funding and 
support for treatment as part of the solution to end the grip of 
methamphetamine. While we are confident that existing modified 
treatment methods can have great success when applied to 
methamphetamine, further research on treatment for this drug can only 
improve success rates.
    Much of the limited research on methamphetamines comes from the 
application of cocaine research. TCs in their experience of treating 
special populations: adolescents, criminal justice clients, gang 
involved, elderly, co-occurring clients with severe mental illness, 
veterans, and women and infants have learned that both timing and 
approaches need to be modified to work with these individuals within 
the therapeutic community. TCs are welcoming methamphetamine users into 
their centers, but currently most TCs are urban-based and not in rural 
communities.
    The therapeutic community (TC) methodology of treatment addresses 
the entirety of social, psychological, cognitive, and behavioral 
factors in combating alcohol and drug abuse. Traditionally, therapeutic 
communities have been community based long-term residential substance 
abuse treatment programs. In recent years, TCA members have expanded 
their range of services, providing such services as assessment, 
detoxification, residential care, in-prison programs, case management, 
outpatient, transitional housing, family therapy, pharmacologic 
therapies, education, vocational and employment services, primary 
medical services, psychological services, and continuing care. Most 
clients within a TC have cycled through our criminal justice and human 
service systems numerous times before getting to TCs, yet through 
modified programs based on evidence-based research we have able to 
demonstrate successes even with the most difficult of populations 
served. Many of these clients are mandated to treatment. The success 
rates of TCs with clients that are both mandated and not mandated 
demonstrate that substance abuse treatment does not have to be 
voluntary to be effective. Therapeutic communities support clients to 
develop individual change and positive growth and support the addicted 
individual with his/her spiritual, behavioral, psychological, social, 
vocational, and medical well-being. TCs have long been successful in 
effectively coordinating with other community organizations as part of 
their comprehensive approach to service.
    TCA suggests six treatment principles as guidelines for addiction 
public policy and funding: \1\
---------------------------------------------------------------------------
    \1\ These principles are based in part on Principles of Drug 
Addiction Treatment--A Research-Based Guide, National Institute on Drug 
Abuse, National Institutes of Health, NIH Publication No. 004180.
---------------------------------------------------------------------------
  --No single treatment is appropriate for all individuals.
  --Effective treatment attends to multiple needs of the individual, 
        not just his or her drug use.
  --Remaining in treatment for an adequate period of time is critical 
        for treatment effectiveness.
  --Substance abuse treatment does not need to be voluntary to be 
        effective.
  --Recovery from substance abuse can be a long process and frequently 
        requires multiple episodes of treatment.
  --Treatment of addiction is as successful as treatment of other 
        chronic diseases such as diabetes, hypertension and asthma.
    In our experience, TCA recommends that public policy secure four 
additional public policy principles:
  --Substance abuse treatment programs should be constructed on 
        evidence based methodologies that are outcome based and meet 
        performance measures.
  --A skilled service provider with specific training in addiction 
        should do assessment and referral of an individual for 
        addiction treatment.
  --Substance abuse treatment is cost-effective in reducing drug abuse 
        and its associated health, economic and social costs.
  --Substance abuse treatment programs and their staffs should meet 
        recognized certification, accreditation and/or licensing 
        standards.

                       FEDERAL AGENCY ACTIVITIES

    The Substance Abuse and Mental Health Services Administration 
(SAMHSA), an agency of the U.S. Department of Health and Human Services 
(HHS), was established by an act of Congress in 1992 under Public Law 
102-321. Through grant, educational, and communication efforts, SAMHSA 
seeks to fulfill its mission to ``focus attention, programs, and 
funding on improving the lives of people with or at risk for mental and 
substance abuse disorders.'' SAMHSA organizes it efforts around a 
matrix that includes much of what therapeutic communities support as 
necessary to achieve successful service delivery and positive outcomes 
for addiction recovery.
    The Substance Abuse Prevention and Treatment Block Grant (SAPT) is 
the single largest funding stream for treatment programs for providing 
addicted individuals with treatment. TCA commends Congress for 
increasing SAMHSA funding over the years. The CSAT Programs of Regional 
and National Significance is SAMHSA's discretionary grant program. 
These funds have been effective in developing and improving treatment 
for special populations and in targeting emerging national and regional 
needs. TCA commends SAMHSA for offering incentives and flexibility to 
the States to improve service systems and secure positive outcomes. 
Providers that are TCA members have worked successfully with the States 
in designing programs at the state and local levels and will continue 
to actively work with States to provide quality services.
    The National Institute on Drug Abuse (NIDA), National Institute of 
Health provides invaluable clinical evidence to drug prevention and 
treatment communities, improving efforts to combat the consequences of 
drug abuse. Research conducted by NIDA has improved addiction services 
and allowed federal funds to be used to support effective treatment. 
NIDA was established in 1974, and became part of the National 
Institutes of Health, Department of Health and Human Services in 1992. 
NIDA seeks through its mission ``to lead the Nation in bringing the 
power of science to bear on drug abuse and addiction''. TCA appreciates 
Congress' actions in doubling the NIH budget over the last several 
years.
    Therapeutic communities have been successful in translating science 
to services, which has allowed us to modify our programs to improve 
outcomes. The SAMHSA Treatment Improvement Protocol 33: Treatment for 
Stimulant Use Disorders is an example of materials that have been 
developed to assist providers on the approaches and application of 
treatment to the methamphetamine user. The use of contingency 
management, engagement strategies, counseling, medical services, 
relapse prevention, family therapy, housing, and vocational services 
are listed as part of the approach to treating methamphetamine users.
    TCA recommends the following policy recommendations.

  THE EXPANSION OF EVIDENCE-BASED TREATMENT ESPECIALLY TO RURAL AREAS

    Although rural areas may have some treatment available, the need 
for comprehensive services is important in treating the methamphetamine 
user. One barrier to expanding treatment is the need for a substance 
abuse workforce. There is an inadequate supply of workers trained in 
substance abuse treatment, including those specializing in the 
therapeutic community philosophy of treatment. The substance abuse 
treatment community experiences both high turnover and a low rate of 
newly trained workers entering the field. Retention problems lead to 
overworked staff and difficulty in training. Low pay, a high stress 
work environment and burdensome regulations restricting time spent on 
direct patient care plague the substance abuse field. TCA believes the 
substance abuse treatment community would benefit from an array of 
incentive programs to recruit and retain counselors and other staff 
trained specifically in alcohol and drug abuse. In rural areas--the 
very same places most affected by the spread of methamphetamine--this 
problem is especially acute. Public health programs that provide 
incentives for other health professions to settle in rural areas need 
to include substance abuse counselors. Career ladders should be 
supported for individuals in recovery who want to become certified and 
qualified counselors.

       CONSTRUCTIVE COORDINATION WITH THE CRIMINAL JUSTICE SYSTEM

    The collaboration between the criminal justice system and TCs has 
been shown to be effective in cutting recidivism through substance 
abuse recovery. NIDA research has helped identify components necessary 
for positive treatment outcomes. Although the criminal justice system 
and the treatment system have different societal responsibilities, both 
can work effectively to coordinate their missions and respect their 
expertise. Harry Wexler Ph.D., Senior Principal Investigator, National 
Development and Research Institutes, Inc stated at a TCA meeting that 
research findings and clinical observations have demonstrated the 
successful adaptation of the TC model to treating the addicted offender 
with these necessary indicators:
    A treatment approach based on a clear and consistent treatment 
philosophy.
    The establishment of an atmosphere of empathy and physical safety.
    The recruitment and retention of qualified and committed treatment 
staff.
    The specification of clear and unambiguous rules of conduct.
    The employment of the ex-offenders and ex-addicts as role models, 
staff and volunteers.
    The use of peer role models and peer pressure.
    The maintenance of the treatment program's integrity, autonomy, 
flexibility, and openness.
    The isolation of residential program from the rest of the prison 
population to diminish the highly negative influence of untreated 
inmates.
    The literature shows that 9 to 12 months is the minimum duration 
needed to produce reductions in recidivism.
    The establishment of continuity of care from treatment to community 
aftercare including empathy and physical safety.
    This NIDA funded research is important, as it shows the need for 
continuing care for the offender when he returns to his community, the 
importance of mentoring and self-help, and the importance of long-term 
treatment for offenders. Improving the Department of Justice 
Residential Substance Abuse Treatment for State Prisoners Grant Program 
(RSAT) and requiring aftercare will strengthen the program and make it 
achieve better and more successful outcomes. The California Amity 
Program NIDA study showed that for a 3-year return to custody rate that 
re-entering offenders with no treatment had a 75 percent return rate, 
but with in-prison treatment and aftercare the return rate dropped to 
27 percent.\2\ The President's budget increased funds to the RSAT 
program in the fiscal year 2006 request but does not require aftercare. 
It is the SAMHSA Block Grant that continues to be the safety net for 
aftercare treatment.
---------------------------------------------------------------------------
    \2\ Institute of Behavioral Research, Texas Christian University, 
Research Summary from Prison Journal, 1999, Wexler, Melnick, Lowe, & 
Peters.
---------------------------------------------------------------------------
   ELIMINATION OF THE MEDICAID INSTITUTIONS OF MENTAL DISEASE (IMD) 
                               EXCLUSION

    Until the IMD exclusion for community residential addiction 
treatment is eliminated, many communities will be dependent on CSAT 
funding to serve special populations and to target emerging issues 
within their communities. SAMHSA has done an excellent job developing 
and expanding services to special populations and should have the 
continued capacity to help communities' meet specific targeted needs 
and to provide cost-effective and appropriate care. These efforts 
should be sustained by our health care system for low-income Americans 
the same as it is for any other chronic illness. Because of the 
Institutions for Mental Disease (IMD) Medicaid exclusion, community 
residential addiction treatment is not covered by Medicaid for programs 
over 16 beds. The IMD Medicaid exclusion is a significant barrier to 
many who seek appropriate and effective substance abuse treatment, 
including pregnant women. Those with substance use disorders must have 
the full range of treatment options available to them. The exclusion 
limits the ability of Medicaid eligible Americans to receive cost-
effective and appropriate care, or any care at all, for their 
addiction. With the Methamphetamine epidemic we need to secure access 
for Medicaid eligible drug-abusing Americans for appropriate substance 
abuse treatment. This includes eliminating the IMD Exclusion for 
substance abuse community residential treatment. It is our belief that 
the IMD exclusion was not intended by Congress to include community-
based therapeutic communities or substance abuse residential treatment 
as it has been interpreted by the State Medicaid Guidelines within the 
Department of Health and Human Services. As part of the review of 
options to treat the Methamphetamine user, all Medicaid eligible 
Americans should have access to appropriate substance abuse treatment.

   SUBSTANCE ABUSE AND CO-OCCURRING PREVENTION AND TREATMENT FOR OUR 
                            RETURNING TROOPS

    In addressing the Methamphetamine problem in our communities we 
should also recognize the potential for drug use by all sectors of the 
population, including our returning veterans who may have PTSD or 
depression. With our military returning from Iraq, TCA hopes to assist 
veterans with addiction and co-occurring disease by preparing and 
identifying the appropriate early interventions, actions and services 
needed by veterans to make their re-entry successful. TCA supports 
public policy that gives veterans access to systems that would provide 
them and their families with substance abuse assessment and treatment. 
TCA firmly believes that returning veterans should not be lost between 
agencies or--worst yet--be left untreated because they fall through the 
cracks. SAMHSA and NIDA have great potential to contribute leadership 
and work with the Veterans Administration as communities prepare 
support services, particularly to our returning reservists and our 
National Guardsmen. SAMHSA and NIDA efforts to find common outcomes for 
the criminal justice system and substance abuse treatment system have 
demonstrated their ability to work with other departments like the 
Department of Justice to build bridges that foster positive societal 
outcomes. Promoting public policy and funding that supports client 
based treatment for veterans and their families based on evidence-based 
research will be an emerging and significant need in the coming years. 
This at-risk population needs both prevention and treatment programs 
readily available in their communities so that throughout the United 
States and especially in methamphetamine hubs that we constructively 
prevent, treat, and safeguard our veterans at re-entry.

        PUBLIC EDUCATION FOR EARLIER INTERVENTION FOR TREATMENT

    People recover from drug abuse and are productive citizens and 
family members. Often a family is in uproar and they do not recognize 
that the uproar may be a family member on drugs. Public education and 
community prevention efforts that help families and employers recognize 
the need for treatment and identifies where to get help should be part 
of any public policy treatment approach. Often one does not see a 
problem until they see a solution. That comes with having appropriate 
treatment available. Your leadership opens the door for families to see 
a solution.
    TCA recommends appropriations as listed on the attached chart. 
Thank you.

                                                  ATTACHMENT 1
----------------------------------------------------------------------------------------------------------------
                                                                            Fiscal year
                                                 ---------------------------------------------------------------
                                                    2004 final      2005 final
                                                     Includes        Includes          2006
                                                    across the      across the    administration     2006 TCA
                                                     board cut    board cut (0.8      request         request
                                                  (0.59 percent)     percent)
----------------------------------------------------------------------------------------------------------------
     HHS--SAMHSA Center for Substance Abuse
                 Treatment--CSAT

SAPT Block Grant................................         $1.779b      $1.776b (-         $1.776b         $1.847b
                                                        (+25.2m)           3.5m)         (+0.0m)        (+71.0m)
Programs of Regional and National Significance--  419.2m (+102m)  422.4m (+3.1m)          447.1m          472.1m
 PRNS (Targeted Capacity Grants & Access to                                             (+24.7m)        (+49.7m)
 Recovery)......................................
     HHS--SAMHSA--Center for Substance Abuse
                Prevention--CSAP

Programs of Regional and National Significance-   198.5m (+1.4m)    199m (+0.2m)       184.3m (-   210m (+11.0m)
 PRNS...........................................                                         $14.4m)
     HHS--National Institute on Health--NIH

National Institute on Drug Abuse--NIDA..........          991.5m          1.007b  1.010b (+4.0m)          1.067b
                                                        (+29.8m)        (+15.2m)                        (+60.4m)
National Institute on Alcohol Abuse and                   428.9m  438.5m (+9.6m)  440.0m (+2.0m)          464.8m
 Alcoholism--NIAAA..............................        (+12.8m)                                        (+26.3m)
                  Dept. of Ed.

SDFSC--State grants.............................            437m            441m        (-$441m)    441m (level)
----------------------------------------------------------------------------------------------------------------

                         CONCLUSION OF HEARING

    Senator Harkin. Thank you all very much for being here. 
That concludes our hearing.
    [Whereupon, at 11:46 a.m., Thursday, April 21, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
